<html>
<title> - ASIAN AND AFRICAN ELEPHANT CONSERVATION</title>
<body><pre>[Senate Hearing 105-409]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 105-409

 
                ASIAN AND AFRICAN ELEPHANT CONSERVATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

THE CONSIDERATION OF S. 1287, THE ASIAN ELEPHANT CONSERVATION ACT, AND 
             S. 627, THE AFRICAN ELEPHANT CONSERVATION ACT

                               __________

                            NOVEMBER 4, 1997

                               __________

  Printed for the use of the Committee on Environment and Public Works



                      U.S. GOVERNMENT PRINTING OFFICE
47-220 CC                     WASHINGTON : 1998


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                            NOVEMBER 4, 1997
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Graham, Hon. Bob, U.S. Senator from the State of Florida.........     6
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......     3
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     2
Smith, Hon. Robert, U.S. Senator from the State of New Hampshire.     5

                               WITNESSES

Grandy, John W., senior vice president, The Humane Society of the 
  United States..................................................    17
    Prepared statement...........................................    53
Hemley, Ginette, director, International Wildlife Policy, World 
  Wildlife Fund..................................................    14
    Letter, additional views submitted for the record............    51
    Prepared statement...........................................    43
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     7
    Prepared statement...........................................    37
Jones, Marshall P., Assistant Director for International Affairs, 
  U.S. Fish and Wildlife Service, Department of the Interior.....    13
    Prepared statement...........................................    38
Marks, Stuart A., director, Research and Community Development, 
  Safari Club International, Herndon, VA.........................    18
    Prepared statement...........................................    59
    Report, Sport Hunting of Elephants: Asset for Wildlife 
      Conservation, CAMPFIRE.....................................    61
Saxton, Hon. Jim, U.S. Representative from the State of New 
  Jersey.........................................................     8
    Prepared statement...........................................    37

                          ADDITIONAL MATERIAL

S. 627, A bill to reauthorize the African Elephant Conservation 
  Act............................................................    27
S. 1287, Asian Elephant Conservation Act.........................    28
Letters:
    Africa Resources Trust.......................................    66
    Environmental Investigation Agency...........................    69
    Kenya Wildlife Service.......................................    52
    World Wildlife Fund..........................................    51
Reports:
    CAMPFIRE--The Basics, Africa Resources Trust.................    68
    Sport Hunting of Elephants: Asset for Wildlife Conservation, 
      CAMPFIRE...................................................    61
Statements:
    African Resources Trust......................................    66
    American Zoo and Aquarium Association........................    70


                ASIAN AND AFRICAN ELEPHANT CONSERVATION

                              ----------                              


                       TUESDAY, NOVEMBER 4, 1997

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Kempthorne, Smith, and Reid.

OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Good afternoon.
    The committee is holding this hearing to solicit views on 
two bills relating to conservation of the two species of 
elephants in the world today. The first bill is S. 1287, which 
deals with the Asian Elephant Conservation Act, and the second 
is S. 627, a bill to reauthorize the African Elephant 
Conservation Act. You'll note that the African is a 
reauthorization, the Asian elephant is a first-time bill.
    Both of these bills promote worthy goals and programs in 
conserving these magnificent animals. Both have companion 
measures that have passed the House of Representatives and have 
been referred to this committee.
    Before taking action on these bills, I feel it is important 
for the committee to have an opportunity to learn more about 
them. We have not had hearings on this before, to my knowledge, 
and so that's the purpose of this hearing--to acquaint our 
members with this legislation.
    I have scheduled a business meeting on Thursday to 
consider, among other things, the Asian Elephant Conservation 
Act. The Asian Elephant Conservation Act, S. 1287, was 
introduced by Senator Jeffords on October 9. It's a companion 
bill to H.R. 1787, which was introduced by Congressman Saxton, 
who is with us today--and we are delighted to see you, Mr. 
Saxton. That bill passed the House on October 21 and was 
subsequently referred to this committee. The bill would create 
a dedicated fund authorized at $5 million annually for 
activities relating to Asian elephant conservation. The bill 
has received wide support, and if the Senate passes it before 
recess, it would be possible to include funding in the 
President's budget request as early as next year. That's the 
thrust behind our efforts to move quickly here.
    S. 627 reauthorizes the African Elephant Conservation Act, 
which was enacted in 1989 and expires not in the end of this 
fiscal year, but in the end of fiscal year 1998. The bill would 
reauthorize the Act through 2002 at the current level to $5 
million. That's the authorization.
    This bill was also introduced by Senator Jeffords as a 
companion bill to H.R. 39, which also passed the House and was 
referred to this committee.
    I fully support the purposes of these two bills and 
recognize both the difficult plight of the Asian and the 
African elephants and the challenges facing efforts to protect 
them. At the same time, however, numerous species deserve the 
type of programs that these bills establish for elephants. 
That's one of the challenges we face.
    There already exists a similar law for the tiger and for 
the rhinoceros, and conservation programs would certainly 
benefit the cheetah, for example, or the panda, to name a few.
    Under this piecemeal approach, we could wind up with a new 
law for each species that needs protection. I think we owe it 
to ourselves, for the sake of efficient legislation, and I 
believe we owe it to the species, for the sake of effective 
conservation, to consider legislation that would establish a 
general fund for the conservation of all foreign species that 
could benefit from the type of matching grants programs 
currently established based on appropriate criteria. This is 
something I hope to explore in the future and invite the 
witnesses to address this question, if you could speak about 
this in your remarks. Are we going to have a plethora of this 
type of bill?
    Today we are honored to have Senator Jeffords, the sponsor 
of both bills, with us, and also honored to have Congressman 
Saxton, as I said, chief sponsor of H.R. 1787, here to testify. 
I look forward to their testimony, as well as that of other 
distinguished panelists.
    Senator Reid, do you have any comments?

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. Mr. Chairman, having participated in the 
reauthorization of the Endangered Species Act, I think that you 
and I would agree that criticism one receives for legislating 
greater protection for wildlife is plentiful. Criticism comes 
from all sides. I'm happy to see my friend from Idaho who 
worked with us and helped so much in leading the charge to get 
a reauthorization of the Endangered Species Act.
    In that regard, of course, some say we aren't doing enough 
and others say the protections are too little, and then there's 
all kinds of problems about restricting property owners.
    One of the bills we're considering today is a good example 
of why protecting threatened species can work. The African 
Elephant Conservation Act, now up for reauthorization, has 
helped contribute to the African elephant population 
stabilization.
    My two colleagues, I appreciate their work on these issues.
    By the late 1980's, the population of African elephants 
declined from approximately 1.3 million to less than 700,000. 
The primary reason----
    Senator Chafee. I hope everybody listens to that. That's a 
shocking statistic. From the late 1970's to 1987, so that may 
be 10 years----
    Senator Reid. Not even 10 years, Mr. Chairman.
    Senator Chafee.--the African population of elephants went 
from 1.3 million to 700,000.
    Senator Reid. Almost a 50 percent decline. The primary 
reason for this decline was the poaching and illegal slaughter 
of elephants for their tusks, fueled by the international ivory 
trade.
    This Act, which has funded over 50 conservation projects 
throughout Africa, has been instrumental in stopping the demise 
of African elephants.
    The other bill, Mr. Chairman, we're looking at today I want 
to make sure that the program in it relating to hunting of 
these animals is something that we approach with our eyes wide 
open. I'm interested in hearing more about this issue at 
today's hearing.
    The Asian Elephant Conservation Act is much needed, and I 
want to do whatever I can to help it. As I've indicated, I want 
to take a look at this one problem area with this legislation.
    I compliment you for holding this hearing, especially at a 
time when we have so much to do, but this is a very important 
issue.
    I apologize to the chairman and the committee for not being 
able to spend all the time here today during this, but I do 
have staff here and I'm very interested in the issue.
    Senator Chafee. Senator, could you just briefly say what 
was the problem that you had? I missed it.
    Senator Reid. Mr. Chairman, I have a problem with the 
African Elephant Act where a program--it's called ``CAMPFIRE'--
is set up so to provide money that supports the hunting of 
these animals. I've indicated that I want to make sure we're 
doing the right thing there, and I want to scrutinize that very 
closely.
    Senator Chafee. I think the problem, more than the hunting 
of them, is the ivory problem. As I understand it, under CITES 
there is a ban on the trade of ivory, and under this so-called 
CAMPFIRE--and we can have witnesses to address this, and this 
is strictly the African elephant----
    Senator Reid. That's right.
    Senator Chafee.--there, under a very controlled situation, 
the ivory can be sold and the funds used for conservation of 
the elephant.
    Senator Reid. That's true.
    Senator Chafee. There's a back-and-forth on this. It was 
split down the middle with the different environmental groups 
on different sides, but the problem seems to be that if you do 
that, how do you tell what's legitimate ivory and what do you 
tell ivory that's poached. Are you then encouraging poaching?
    Senator Kempthorne?

 OPENING STATEMENT OF HON. DIRK KEMPTHORNE, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Kempthorne. Mr. Chairman, thank you very much.
    We have before us a straightforward reauthorization of the 
very successful African Elephant Conservation Act and a bill to 
try to emulate that success with the Asian elephant.
    The interest of Americans in the international aspects of 
species management is not new. The Endangered Species 
Conservation Act of 1969, one of the predecessors to the 
current Endangered Species Act, called for the Convention on 
International Trade in Endangered Species of Wild Fauna and 
Flora, or CITES, which then resulted in the Endangered Species 
Act of 1973.
    As you know, Mr. Chairman, we're thoroughly engaged in the 
debate to reauthorize the ESA. Yet, throughout our debates on 
the ESA, we were unable to spend much time on the very real 
international issues that have been brought to our attention in 
the administration of CITES. For that reason, Mr. Chairman, 
I'll continue to propose that we should have a different 
authorization schedule for CITES and international conservation 
issues under the ESA.
    I believe that we must deal with the international issues 
brought to our attention without the overwhelming need to 
reauthorize ESA at the same time. We need to move forward with 
oversight hearings on CITES and international conservation next 
year, which brings us to two very important international 
conservation issues we are considering today: reauthorization 
of the African Elephant Act, and writing an Asian Elephant Act.
    Until we can accomplish a comprehensive program of 
international conservation, we must continue to do this kind of 
species-by-species legislation. We now have nearly 10 years of 
experience with the African Elephant Conservation Act and the 
fund that it establishes. I believe that the African Elephant 
Act is an example and a model for conservation in other 
countries, and I believe it is worthy of emulation for the 
Asian elephant.
    One additional word, if I may, Mr. Chairman, on the success 
of the African Elephant Act. Our involvement has been to 
provide technical assistance to foreign governments and to 
encourage local actions for wildlife protection. We provided a 
number of different management tools and techniques to 
encourage sustainable conservation. I will oppose any efforts 
to limit our technical assistance through the banning of any 
scientifically accepted management strategy.
    Mr. Chairman, I commend you for holding this hearing. I 
know that we have an outstanding panel of witnesses today, 
including Senator Jeffords and Representative Saxton, who I 
have great respect for.
    Like many in this situation, I have a competing hearing 
that I will be going to, as well, but I look forward to 
reviewing all of the information that will be passed on today.
    Thank you.

Prepared Statement of Hon. Dirk Kempthorne, U.S. Senator from the State 
                                of Idaho

    Thank you Mr. Chairman for holding this hearing on Elephant 
Conservation. We have before us a very straightforward reauthorization 
of the very successful African Elephant Conservation Act, and a bill to 
try to emulate that success with the Asian Elephant.
    These two foreign species will benefit from the conservation 
aspects of legislation that we pass here in the United States. The 
interest of Americans in the international aspects of species 
management is not new.
    The Endangered Species Conservation Act of 1969, one of the 
predecessors to the current Endangered Species Act, authorized a list 
of species and subspecies of fish and wildlife "threatened with 
worldwide extinction."
    In addition, in the Endangered Species Conservation Act, the 
Secretary was instructed to encourage foreign governments to provide 
protection to endangered wildlife; to take measures to prevent any fish 
or wildlife from becoming endangered; to provide technical assistance 
to Deign governments; and to encourage treaties for wildlife 
protection.
    The Endangered Species Conservation Act also resulted in the Con 
vention on International Trade in Endangered Species of Wild Fauna and 
Flora (CITES) which then resulted in the Endangered Species Act of 
1973.
    We are currently engaged in a debate to reauthorize the Endangered 
Species Act. Senators Chafee, Baucus, Reid and I have put forward S. 
1180, the Endangered Species Recovery Act to reform the 1973 Act in a 
meaningful way so that we will in fact recover species and bring them 
back to an abundance so that they no longer need the protection of the 
Federal Act.
    Yet, throughout our debates on the ESA, we were unable to spend 
much time on the very real international issues that have been brought 
to our attention in the administration of CITES. During our 1995 
hearing on the ESA, we heard from witnesses on the effect of our 
actions here in the United States on other nation's ability to 
determine their own sustainable future.
    For that reason, I continue to propose that we should have a 
different authorization schedule for CITES and international 
conservation issues under the ESA. I believe that we must deal with the 
international issues brought to our attention without the overwhelming 
need to reauthorize ESA at the same time.
    Beyond my goal of establishing a staggered reauthorization for 
CITES, I plan to move forward with oversight hearings on CITES and 
international conservation next year. For example, CITES, as its name 
implies, is clearly limited to matters of international trade. A 
comprehensive treaty on the conservation of internationally endangered 
species as contemplated by the Congress in 1969 does not yet exist.
    Which brings us to the two very important international 
conservation issues we are considering today: reauthorization of the 
African Elephant Act and writing an Asian Elephant Act. Until we can 
accomplish a comprehensive program of international conservation, we 
must continue to do this kind of species-by-species legislation.
    We now have nearly 10 years of experience with the African Elephant 
Conservation Act and the fund that it establishes. I believe that the 
African Elephant Act is an example and a model for conservation in 
other countries. And I believe it is worthy of emulation for the Asian 
Elephant.
    One additional word, if I may Mr. Chairman, on the success of the 
African Elephant Act. One of the reasons it has been so successful is 
that it respects the needs of the people and the governments in the 
countries where the African Elephant exists in the wild.
    Our involvement in the conservation of the African Elephant has 
been to provide technical assistance to foreign governments, and to 
encourage local actions for wildlife protection. Through the African 
Elephant Act, CITES and other international programs we have provided a 
number of different management tools and techniques to encourage 
sustainable conservation. I will vigorously oppose any efforts to limit 
our technical assistance through the banning of any scientifically 
accepted management strategy.
    Thank you for holding this hearing, Mr. Chairman.
    Senator Chafee. Thank you, Senator. I think you've got a 
point there that when we're involved with reauthorization of 
Endangered Species, which has taken so much of our time, if we 
could have the reauthorization of these other foreign species 
at a different year, then maybe we could spend more time on it. 
I think your point is a very good one. Frankly, we haven't 
spent much time on the effectiveness of CITES, for example. 
You, who have been such a key player in all these environmental 
actions, but particularly, obviously, the Endangered Species, 
it is well worthwhile for us to heed your recommendation.
    Senator Kempthorne. Thank you, Mr. Chairman.
    Senator Chafee. Senator Smith?

 OPENING STATEMENT OF HON. ROBERT SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Mr. Chairman. I don't want to 
delay any longer here the two distinguished gentlemen who would 
like to testify here, other than just to say I appreciate your 
holding the hearing, and also commend both the Congressman from 
New Jersey and the Senator from Vermont for taking the lead on 
introducing these measures. There is clearly a huge problem 
facing these magnificent creatures, especially with the habitat 
loss, and I hope that we can garner support, Mr. Chairman, for 
this legislation, and at this point I just look forward to the 
testimony of the witnesses.
    Senator Chafee. Thank you very much, Senator. Again, I want 
to express my thanks to you for all you've done in connection 
with the whole series of environmental efforts we've made.
    I will place into the record a statement from Senator 
Graham.
    [The prepared statement of Senator Graham follows:]
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Mr. Chairman, I commend you for holding this hearing of the 
reauthorization of the African Elephant Conservation Fund and the 
creation of the Asian Elephant Conservation Act. We owe it to the 
children of the world to do everything in our power to save these 
extraordinary mammals.
    I have been heartened to learn that the African Elephant 
Conservation Act is producing positive results. I am hopeful that the 
Asian Elephant Conservation Act will likewise support research, 
conservation, anti-poaching education, and protection of the animals. I 
feel strongly, however, that no funds allocated by these Acts are spent 
to promote efforts to resume the ivory trade or to encourage trophy 
hunting.
    According to a 1996 nationwide poll, 84 percent of Americans 
support efforts to protect elephants, yet I have learned that some of 
the funds from the African Elephant Conservation Act have gone toward 
promotion of elephant trophy hunting. As we have heard in today's 
testimony, there is much debate about the success and appropriateness 
of uS taxpayer dollars being used to support such activities. I look 
forward to hearing more about this issue in the coming months.
    Again, I am in full support of the Asian Elephant Conservation Act, 
as shown by my cosponsorship of Senator Jeffords important bill, and am 
very supportive of the reauthorization of the African Elephant 
Conservation Act. I am hopeful that all interested parties can work 
together to find solutions for the elephants, the rural communities in 
which they live, and the people who depend on them for their 
livelihoods.
    Senator Chafee.Senator Jeffords, do you want to proceed?

STATEMENT OF HON. JAMES M. JEFFORDS, U.S SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Jeffords. Certainly, Mr. Chairman. I want to thank 
you for holding this hearing, and all the comments of the 
committee members I think have accentuated the reasons we're 
here, as what is going on in the world in so many areas which 
is causing so much havoc with these species which have come 
down through the ages and must be preserved.
    Three years ago I traveled to Africa to witness firsthand 
the status of elephants in the wild. I learned that by the late 
1980's the African elephant populations had dramatically 
declined, as you've already delineated. Fueled by the great 
demand for ivory, elephants were illegally poached and their 
tusks sold for high prices on the international market. To stem 
the illegal slaughter, the international community joined with 
the African countries to eliminate the ivory trade and protect 
elephants in their natural habitat.
    To our credit, the U.S. Congress moved fast enacting the 
African Elephant Conservation Act in 1988. This legislation 
provides assistance to African nations in their efforts to stop 
the poaching and to implement effective conservation programs. 
The Act has funded many programs vital to the preservation of 
the African elephants.
    In Africa, I saw dramatic success. The U.S.-funded programs 
focused on empowering the local residents to value and protect 
these great animals--and I want to emphasize that--which seems 
to me is the heart of the success. If the local people 
understand the value of those animals and desire and will 
protect them, then most of the problems become much less.
    Poaching is fought fiercely by the people indigenous to the 
areas to preserve incomes derived from travelers and tourists 
coming to see the elephants. U.S. Fish and Wildlife agents in 
Africa explained to me the importance of proper management of 
the habitat and the value of U.S.-funded programs. With these 
efforts, elephant populations have stabilized and are in the 
increase in southern Africa. International ivory prices may 
remain low, and wildlife rangers are better equipped to stop 
illegal poaching activities.
    Given all these efforts, the African elephant is still 
hunted and remains at great risk. To ensure that this 
magnificent animal continues to survive in the wild, we must 
maintain our efforts. Passing a reauthorization of the African 
Elephant Conservation Act at this time will indicate to the 
international community that the United States is doing its 
part to assist African nations in protecting the elephant.
    Based on the success of the African programs, I have 
introduced legislation to provide similar resources to protect 
the Asian elephant. Since the challenges of the Asian elephant 
are so great, resources to date have not been sufficient to 
cope with the continued loss of habitat and the consequent 
depletion of Asian elephant populations. This bill is 
structured to ensure that all funds appropriated by Congress 
are matched by the private sector to fully implement badly 
needed preservation programs.
    The situation in Asia is dire. Elephant populations in the 
wild are barely sustainable. A joint commitment and effort of 
nations within the range of the Asian elephants, United States, 
and other countries, and private efforts is needed to ensure 
the long-term viability of these animals. The committee's 
action in passing this legislation will prove vital to 
maintaining the elephants in Asia.
    Continued illegal poaching and sales of ivory greatly 
concerns me. Recent controversy over the lifting of the ivory 
ban and the funding for the USAID CAMPFIRE program should not, 
however, impede the passage of these important bills. Lifting 
of the ivory ban is, indeed, troublesome, and no U.S. funds 
should be used to work to expand the ivory trade.
    The programs funded through the Department of Interior for 
elephant conservation have not, to my knowledge, been connected 
to the ivory trade issue.
    I am a strong proponent of the protection and conservation 
of these magnificent animals. These elephants are some of the 
world's largest land animals. If we do not act now, future 
generations may not be able to experience these animals living 
in the wild but only behind bars.
    Thank you, Mr. Chairman. I'd be happy to answer any 
questions and listen to my good friend from the House, 
Representative Saxton.
    Senator Chafee. Thank you, Senator Jeffords.
    Can you remain? What I'd like to do now is hear from 
Representative Saxton, and then we'll get back and question 
both of you.
    Representative Saxton, again, we welcome you here. So glad 
you came over from the House.

  STATEMENT OF HON. JIM SAXTON, U.S. REPRESENTATIVE FROM THE 
                      STATE OF NEW JERSEY

    Mr. Saxton. Mr. Chairman, thank you very much. It is good 
to be here, and I'd like to express my appreciation for the 
dispatch with which you scheduled this bill. Also, I'd like to 
say it's very nice to see my friend, Senator Harry Reid, again. 
Harry and I, before the republicans took control of the House, 
used to jog together in the morning. He always jogged faster 
than I did, but it's good to see him, anyway. Senator Smith, we 
miss you on the House side.
    Senator Reid. I've slowed down a lot since the Republicans 
took over, though.
    [Laughter.]
    Senator Chafee. I missed the reference there. You jogged 
before Republicans took over?
    Mr. Saxton. Yes. I got busy then.
    Senator Chafee. Go to it.
    Mr. Saxton. Senator Smith, it's great to see you again. We 
miss you on the House side, and we appreciate the great job 
you're doing here.
    Senator Kempthorne, I've been following your ESA efforts 
very closely. I want to congratulate you on the great progress 
you've made. Some on the House side think your bill is too 
green, others think it is not green enough, so you've probably 
got it about right.
    Senator Kempthorne. Thank you very much.
    Mr. Saxton. We appreciate that.
    Senator Kempthorne. I look forward to your support.
    [Laughter.]
    Mr. Saxton. Well, we had a long discussion, led by Chairman 
Young of the House Resources Committee, the other day about 
your bill. I think we find a lot in common with it.
    Senator Kempthorne. Good. I appreciate that very much.
    Mr. Saxton. Mr. Chairman, I would like to concentrate my 
remarks and my opening statement--which, incidentally, let me 
ask unanimous consent or however you all do it over here, to 
have it included in the record.
    Senator Chafee. Definitely.
    Mr. Saxton. I won't do the whole thing, but I'd like to 
concentrate on the Asian Elephant Conservation Act, because the 
program is in such dire need. It seems to me that it would be a 
great advantage to be able to move this bill in some way 
through the Senate this year, and hopefully in a fashion that 
it won't have to come back to the House, because we are having 
a good time over there, shall we say, and not maybe 
accomplishing as much as we should.
    Senator Smith. That's one of the reasons why I don't miss 
you that much.
    [Laughter.]
    Mr. Saxton. Anyway, if this bill can get passed through the 
Senate and sent on to the President, it would be a great step 
forward, because then we can get it funded in the next fiscal 
year rather than to have to deal with it next year again in the 
House. But I am obviously pleased to be here, Mr. Chairman, 
because the road to extinction can be a one-way street, and we 
must work to ensure that that journey is not taken by the Asian 
elephants on our watch, and I think that is extremely 
important.
    I introduced the House version of this legislation with a 
number of my colleagues on June 4 of this year, and it is 
modeled after--as my friend, Jim Jeffords, pointed out--the 
African Elephant Conservation Act, which has funded over 50 
conservation projects in 17 range states throughout Africa.
    Based on the evidence, it is clear that these projects, 
worth more than $15 million in Federal and private matching 
funds, have been instrumental in stopping the demise of African 
elephants. In my judgment, it is very timely that we very soon 
provide a similar lifeline for relief of Asian elephants. In 
fact, the population of Asian elephants is far more imperiled 
than their African cousins. There are now only about 40,000 
Asian elephants remaining in the wild in 13 countries in south 
and southeast Asia. While there are many reasons for this 
decline, including habitat loss, poaching, use in Burma's 
timber industry, and conflicts between elephants and man, 
unless some immediate action is taken, this species will 
largely disappear from most of the habitat outside India.
    Under the terms of this legislation, Congress would create 
an Asian elephant conservation fund that would be authorized to 
receive up to $5 million per year to finance various 
conservation projects in each of the next 5 years. The 
Secretary of Interior would carefully evaluate applications in 
terms of the merits for each proposed conservation project, 
select those that would best enhance the future of the Asian 
elephant, and give priority to those projects whose sponsors 
demonstrate the ability to match some portion of the Federal 
funds.
    Mr. Chairman, we must not allow the Asian elephant, which 
has such a direct impact on so many other species, such as the 
clouded leopard, the rhinoceroses and tigers, to become 
extinct.
    The goal of H.R. 1787 is to stop the decline and hopefully 
rebuild the population stocks.
    I'll leave the rest of my statement for the record.
    Senator Chafee. Thank you very much, Representative Saxton.
    I have a couple of questions here.
    Senator Jeffords, your Asian elephant bill is slightly 
different from the House-passed version. Specifically, the 
House bill includes an amendment offered by Congressman Farr 
which prohibits the funding of projects that entail captive 
propagation unless for release in the wild. Do you have any 
views on that amendment?
    Senator Jeffords. I don't have any problems with the 
amendment, Mr. Chairman. I don't see any reason to be concerned 
about it as far as attaching it or doing whatever you want with 
it.
    Senator Chafee. OK. How about you, Congressman Saxton?
    Mr. Saxton. No. Obviously, I have no problem with it. I 
chaired the subcommittee hearing where that amendment was 
adopted, and, as I recall, there was no opposition to the 
amendment whatsoever, and, in fact, some of the individuals who 
are associated with firms or organizations that do captive 
breeding, as my recollection brings back, had no problem with 
the amendment, either. In other words, they're not seeking the 
funds. So I think it is a good amendment.
    Senator Chafee. OK. Now, with respect to the African 
Elephant Act, as I pointed out, Senator Jeffords, the 
authorization for that doesn't expire until the end of next 
year. We have a number of priorities during these last few 
days. Frankly, there is probably going to be controversy on 
this CAMPFIRE proposal which you touched on. I know there is a 
strong body of individuals, Americans and others, who believe 
that letting them cull the herds under various restricted 
conditions, use the ivory, sell it, make a profit, and then 
help the conservation--so all of that could be controversial.
    Is there any problem if we didn't take up the African one 
this year--that is, the authorization? It's there, so you don't 
have to worry about it until next year. Do you see any problems 
with that, whereas we presumably go ahead with the Asian 
elephant.
    Senator Jeffords. I have no problem with that. I think it 
is important to pass the Asian Elephant Act, and I think, as 
you look to the long term--and I know you alluded to it in your 
comments--at some point we probably have to have a broad sort 
of semi-endangered species approach to all of these animals 
which are becoming endangered. I think the best thing this year 
would be to pass this one, and then maybe next year think in 
terms of whether they should be joined together.
    Senator Chafee. Now, Mr. Saxton, there are some differences 
between the two laws. The Asian elephant law requires Fish and 
Wildlife to consult with AID in making grants, whereas the 
African one doesn't. Is this of any import, the difference? If 
so, should we amend the African one, if we deal with that, to 
reflect this Fish and Wildlife consultation with AID?
    Mr. Saxton. The consultation, which is part of the Asian 
Elephant Conservation Act, I believe is a good thing, and 
perhaps when we deal again with the African elephant bill in 
the ensuing year that may be an appropriate amendment for the 
African bill, as well.
    Senator Chafee. In other words, you think that having Fish 
and Wildlife consult with AID is good?
    Mr. Saxton. I do.
    Senator Chafee. Senator Jeffords, do you have any comment?
    Senator Jeffords. I agree with the Congressman.
    Senator Chafee. OK. Quickly, Mr. Saxton, what about a 
single bill? You've been a strong proponent for protection of 
these endangered species overseas and been involved with it. Do 
you think we ought to have one bill?
    Mr. Saxton. Mr. Chairman, I would hesitate to say that I 
would think that would be a good idea, basically for two 
reasons. The first reason is--and if we did it, I would want to 
be sure that we did it in a way that would not complicate the 
situation in this way. Presumably we have three bills now that 
would authorize $5 million a year each, so presumably if you 
fold them together it would be a $15 million pot of money.
    This system seems to work quite well with regard to rhinos 
and tigers and with regard to African elephants with separate 
bills, and one reason for that is that the parties can take 
their time, do the consultations that are necessary, examine 
the proposals for projects, in a--I don't want to call it a lax 
atmosphere, but without the need to compete for the dollars, 
because the dollars are set aside for those programs, and 
therefore they can take their time and give them due 
consideration.
    If there were one fund and if there were competition 
between the managers of the various species or the programs for 
the various species and it changed the context in which 
decisions were made, I would have some trepidation with that.
    Senator Chafee. I've got to move to Senator Smith now 
because we've got a vote and I want him to have an opportunity 
to question both of you before we end this, and then you can 
both be free to go.
    Mr. Saxton. If I may just add one final sentence?
    Senator Chafee. Yes.
    Mr. Saxton. It is not all that difficult, but it is not 
easy, either, to get appropriated, at least on the House side, 
$5 million for these programs. It would be somewhat more 
difficult, I would think, to try to get an authorization for 
$15 million, so there are two problems there.
    Senator Chafee. Senator Smith?
    Senator Smith. Mr. Chairman, I don't really have a 
question, but maybe a comment that you can respond to.
    It just seems to me, especially with the Asian elephant, 
but somewhat true with the African elephant, as well, in the 
long term, that the major issue here is habitat. I mean, when 
you look at the demands, the population demands and the 
economic demands on those two continents, it just seems to me 
if you look out into the future--what we're doing here is well 
intended, and I certainly support it, but will it ever be able 
to even in any way deal with that whole issue of habitat? I 
mean, obviously we're not buying any habitat here with this, 
and it just seems to me like it's a problem that's just so 
overwhelming it's almost impossible to deal with it. I'd jut be 
interested in either one of your responses, if you wish to 
respond to it.
    Senator Jeffords. Well, you're correct in this regard. I 
think you have to look to the areas that the animals live in 
and you have to look to the people of those areas to want to 
have them survive.
    Senator Smith. Right.
    Senator Jeffords. That means you have to have them willing 
to dedicate the habitat to provide--if you're going to keep 
them in the wild area, they have to provide that habitat and 
they have to be supportive by protecting against poachers. In 
the long run, those are the two vital things--the habitat plus 
the common agreement to prevent poaching.
    Senator Smith. Of course, no question about the poaching, 
but most of these areas though--a lot of these people are 
dealing with famine and so forth. It's just a major 
accomplishment to stay alive for a day with a disease and a 
famine, let alone worry about an elephant. I mean, I'm just 
trying to look at it from the perspective of what we're dealing 
with in those countries, especially in--well, in both 
continents, frankly. I mean, it's so a problem.
    Senator Jeffords. That's true, but we have seen some 
success in South Africa with respect to the ability to be able 
to manage the herds in a way that compliments the indigenous 
people, rather than being a burden on them.
    Senator Smith. Do they have a fenced game farm in--fenced-
in reserve, don't they, in South Africa?
    Senator Jeffords. Yes, they do, I believe. The broad area 
is delineated and fenced in, I believe.
    Senator Smith. That's kind of a--that's unique, isn't it? I 
mean, we don't have that, I don't think, in too many other 
places.
    Senator Jeffords. No. I don't believe so, but it can be 
done, I guess is the point.
    Senator Smith. Thank you.
    Senator Chafee. Thank you, Senator. We're going to go to 
vote now.
    Let me just say that I followed this, I guess mostly 
through the National Geographic, in Africa, and it has been 
attended by considerable success there. In Asia I share Senator 
Smith's deep concerns that much--everything is habitat, I 
think, and on this committee we've spent a lot of time on 
waterfowl and anadromous fish and you name it, and it always 
gets down to habitat. In that Asian area--in India I don't 
know--in Africa you know the Great Plains in Kenya or South 
Africa or wherever it might be, but I don't know where these 
elephants live. Where do they live? India? Are they deep in the 
jungle?
    Senator Jeffords. Burma, I believe, and India, and Vietnam 
has some. I'm not sure what other places have significant 
populations.
    Mr. Saxton. Basically, Mr. Chairman, their habitat has been 
reduced to patches of jungle or woodland measured in acres, of 
course, and the encroachment and conflict with humans in the 
Asian case is the primary cause of the decline of the species. 
Elephants are obviously difficult to live with, and in the 
Asian case there is a great need for education. If some of the 
conservation projects can find an economic reason to make these 
animals valuable to the native peoples, that's what makes these 
programs successful.
    In the case of the African elephant, both tourism and 
hunting have been useful in creating an economic incentive to 
keep the animals alive and it has worked. In the Asian case 
we're looking at education and conservation projects, and 
hopefully some tourism that will help to spur an economic 
incentive to keep the animals healthy.
    Senator Chafee. OK. I'm astonished that there are still 
35,000 to 45,000 in the wild in Asia.
    Thank you both very much. There is a vote now. Thank you 
for coming over, Mr. Saxton.
    What we'll do is have a quick recess. We'll be back. I'll 
be back. I certainly hope Senator Smith is able to come back, 
too. Then we'll to go our next witnesses.
    Thank you.
    [Recess.]
    Senator Chafee. All right. Now we'll have the next panel: 
The Honorable Marshall P. Jones, assistant director for 
international affairs, U.S. Fish and Wildlife; Ms. Ginette 
Hemley, director, International Wildlife Policy, World Wildlife 
Fund; Dr. John Grandy, senior vice president, Humane Society of 
the United States; and Dr. Stuart Marks, director, research and 
community development, Safari Club International here in 
Virginia.
    So if you would take your seats, please, we welcome you 
all. All your statements will be included in the record. If 
everybody could each confine his or her remarks to 5 minutes, 
that would be very helpful. We'll start with Mr. Jones.

  STATEMENT OF HON. MARSHALL P. JONES, ASSISTANT DIRECTOR FOR 
INTERNATIONAL AFFAIRS, UNITED STATES FISH AND WILDLIFE SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Jones. Thank you, Senator.
    Mr. Chairman, it is a great pleasure to be here today, and 
we appreciate very much your scheduling this hearing on the 
reauthorization of the African Elephant Act and the adoption of 
the Asian Elephant Conservation Act.
    On behalf of the Administration, I would like to tell you 
that the Fish and Wildlife Service strongly supports the 
reauthorization of the African Elephant Conservation Act and 
also fully supports the enactment of new legislation on the 
Asian elephant.
    Let me first very briefly, Mr. Chairman, address the 
African Elephant Conservation Act reauthorization.
    We think that the African Elephant Act has played a very 
important role in progress with African elephant conservation. 
You noted, Mr. Chairman, in your remarks at the beginning, this 
horrendous figure of the decline of African elephants in the 
1980's. Since then, that terrific problem has, we believe, more 
or less stabilized. That doesn't mean the African elephants are 
permanently saved from extinction, but it does mean we made 
progress through ending the ivory trade, and also, we believe, 
through focused assistance programs like the African Elephant 
Conservation Act.
    Now, Mr. Chairman, it would be presumptuous of me to say 
that the African Elephant Conservation Act single-handedly 
somehow saved the African elephant, but we do think----
    Senator Chafee. There's only been $1 million appropriated 
each year under it, hasn't there?
    Mr. Jones. That's correct. Some years it wasn't even the 
full million. But, Mr. Chairman, what the African Elephant Act 
has enabled us to do is focus our conservation efforts, and 
there is no other fund like this anywhere in the world that is 
dedicated solely to African elephant conservation.
    By using a very streamlined procedure where it's possible 
and necessary and we can address emergencies, we've been able 
to work with a broad variety of groups. Mr. Chairman, I'm 
pleased to say that we have approved conservation projects and 
cooperative projects with every one of the organizations that 
are represented on this panel today, as an example.
    But, Mr. Chairman, we think there is no cause for 
complacency. The recent decision by the parties to the 
Convention on International Trade in Endangered Species, CITES, 
earlier this year to allow a limited reopening of the ivory 
trade is potentially a cause for concern, and we think that 
continued attention to anti-poaching and to elephant 
conservation is more necessary than ever in Africa, and we 
believe that the African Elephant Act can be a big part of 
that.
    Mr. Chairman, in terms of the Asian Elephant Act, I would 
like to say that the Asian elephant is only one-tenth as 
numerous as the African elephant, approximately 50,000 animals, 
give or take, but its plight really hasn't been given the kind 
of recognition that we believe it deserves.
    Mr. Chairman, you also pointed out that it's almost 
incredible to think that these giant animals still are 
surviving in India, in other Asian countries. There are 13 
range countries all together. But in those countries, Mr. 
Chairman, there are only 10 or so populations of more than 
1,000 animals. Most of these are small, fragmented areas 
surrounded by increasing human populations.
    But, Mr. Chairman, we do not think that means that it is 
hopeless. Far from it. We've already seen, through projects 
that we have funded under the African Elephant Act and also 
under the Rhino and Tiger Act, that there are innovative ways 
to help people live with these big and potentially very 
dangerous animals.
    We have to work cooperatively with governments and also 
with private organizations, like the ones that are represented 
on this panel, and also local private organizations to find 
innovative ways of helping people deal with these animals, 
giving people incentives to live with them, giving people new 
ways, cost-effective ways of protecting their crops and their 
villages. We think, Mr. Chairman, that the Asian Elephant Act 
is a bill whose time has come. This is exactly the right time.
    It's not too late. We still can make a difference to Asian 
elephant conservation.
    Mr. Chairman, with your help, we would like to join with 
you. If this Act is, indeed, passed, enacted into law, we will 
do our best to implement it in a fair way, in a way that keeps 
our vision squarely on the objective of conserving Asian 
elephants in the wild. We applaud all of those organizations 
that have joined together in support of it.
    Mr. Chairman, with that I have submitted a longer statement 
for the record and will be happy to answer any questions that 
you may have.
    Senator Chafee. Thank you. It's a very interesting 
statement you've got there. I had a chance to skim it. I want 
to read it more thoroughly. I'll obviously have some questions 
for you.
    Ms. Hemley, director, international wildlife policy, the 
World Wildlife Fund.
    I hope you would address, each of you, if you get a chance, 
the so-called ``CAMPFIRE proposal.''

 STATEMENT OF GINETTE HEMLEY, DIRECTOR, INTERNATIONAL WILDLIFE 
                  POLICY, WORLD WILDLIFE FUND

    Ms. Hemley. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear here today.
    Let me first just briefly share with you our views on the 
effectiveness of the African Elephant Conservation Act and on 
the great need for a similar act to address the conservation 
challenges facing the even more-imperiled Asian elephant.
    I think several things stand out in making the African 
elephant fund, which is sponsored by the Act, a unique and 
effective conservation program.
    First, it's a terrific example, in World Wildlife Fund's 
view, of how to get big bang for your buck--small bucks, as it 
is. The efficiency with which the program is administered by 
the Fish and Wildlife Service in many ways makes it a model 
Federal grants program, as small as it is. The $6 million 
appropriated through 55 grants have supported a wide variety of 
projects in 18 African countries.
    As importantly, this fund has been the only continuous 
source of new international money for African elephant 
conservation efforts over the last decade when funding from 
other sources has proven erratic. While support for elephants 
flowed in the immediate aftermath of the CITES ivory trade 
moratorium in 1989, when the world was sensitized to the 
elephant's dilemma, funding from various foreign governments 
and NGO sources subsequently dried up.
    A 1995 review that we were part of, as well as Fish and 
Wildlife participated in, revealed that many African wildlife 
departments have suffered severe budget declines, sometimes on 
the order of 90 percent or more over four or 5 years, as was 
the case with Tanzania in the early 1990's.
    The serious trend makes the moneys authorized by the 
elephant Act even more valuable and needed today.
    The African elephant fund is effective because it 
emphasizes small grants, it allows money to move with minimal 
bureaucracy, as Mr. Jones has pointed out. It also supports, in 
our view, a very balanced set of projects that no single 
special interest predominates, and projects are carried out in 
full cooperation with host governments.
    Perhaps most importantly, the fund has achieved well over a 
two-to-one match in support from other funding sources, greatly 
broadening its conservation impact, and I think that is a very 
good model that we would see emulated in the Asian Elephant 
Act, and I'm confident that we would be able to see matching 
sources of funding to help the Asian elephant.
    Just a comment on the trend of elephants in Africa over the 
last 10 years. As Mr. Jones has pointed out, we would agree 
that elephants are far better off today than they were 10 years 
ago, and that support from the elephant fund has made an 
important contribution to that success. Even though the recent 
CITES decision to allow limited ivory trade to resume in 1999, 
if certain conditions are met, has raised concerns about the 
potential for large-scale poaching to resume, the fact is that 
poaching levels today remain significantly reduced in areas 
where such problems were once rampant.
    The situation, of course, requires close monitoring, and 
such monitoring is now being aided by the elephant fund.
    I think the imperative now is for the United States and 
other governments and NGO's to help strengthen elephant 
conservation capacity in both Africa and Asia to ensure that 
poaching is kept under control, building on the successful 
programs achieved so far, be they anti-poaching, training 
initiatives, or community-based conservation efforts.
    In short there has never really been a greater need for the 
African Elephant Act and its parallel legislation, the Asian 
Elephant Conservation Act.
    I'd like to just put a strong word in here, as well, to 
advocate increasing amounts appropriate to the African elephant 
fund; $1 million a year is really a very modest amount of 
money, and I think easily $2 million could be spent on 
meritorious projects in Africa.
    Senator Chafee. I missed one part. I couldn't follow you 
where you were talking about the poaching. I couldn't 
understand whether the poaching is under control or--were you 
following your script? What page?
    Ms. Hemley. Basically, I was looking at the trends over the 
last 10 years and the successes that have been achieved in 
African elephant conservation. Poaching is much reduced from 
what it was 10 years ago in the midst of the crisis. Part of 
that success is attributed to, I think, support from the 
elephant fund and other sources.
    Poaching has never been stopped all together. Clearly, 
there are problems, and we have serious concerns about those.
    Senator Chafee. Is that for food, or is that for the ivory? 
Is it always for the ivory, or sometimes for the meat?
    Ms. Hemley. It's for both. It's for both. I mean, I think 
the issue is that you've got countries in crisis in Africa that 
are affecting all wildlife, including elephants, and the 
important thing that I think we've learned certainly in our 
work is that monitoring is key. There are successful programs 
that should be seen as prototypes to help keep poaching under 
control, and we are certainly keeping our ears to the ground 
and watching very closely.
    On the Asian elephant, as others have commented, we have a 
species that is in much worse shape overall than the African 
elephant. We, at World Wildlife Fund, are developing at the 
moment a priority-setting framework for conservation that is 
drawing upon expertise from around the region in an effort to 
increase our own commitment to protecting the species. We're 
facing in Asia many of the same challenges as in Africa: 
maintaining viable contiguous habitats, which is extremely 
tough in the most densely populated region of the world; 
minimizing elephant/human conflicts; controlling poaching, as 
well; and promoting scientific understanding of the survival 
needs of the species.
    World Wildlife Fund would suggest that conservation efforts 
in Asia could be made most effective by focusing on elephant 
populations in habitat areas where the species stands the best 
chance of long-term survival.
    There are about ten populations of Asian elephant which 
number over about 1,000 individuals, which is a size that is 
needed to ensure long-term viability. We would suggest that 
these populations be considered as priorities for support. 
About half of them are in India, others in Indonesia, Sri 
Lanka, Burma, and Thailand. A strategy that would emphasize 
conserving these areas would probably offer the best 
opportunities for securing the future of the Asian elephant.
    Just to sum up and address a couple of the points you 
raised earlier, Mr. Chairman, on the issue of whether or not we 
should have one big fund for these species, rather than going 
for a piece-meal approach, we would share Congressman Saxton's 
concerns about combining everything together so that these 
different programs end up competing. When you've got such small 
amounts of money, I think we need to be very careful that we 
don't lose any ground in support for those individual species.
    Second, I think we've made enormous strides in increasing 
political and public awareness by using these funds as 
individually appropriated for species to really make people 
more aware about the problems we have with these endangered 
species.
    If I may just take another half a minute to comment on 
CAMPFIRE, as you requested, CAMPFIRE we see as a very important 
attempt to really do the right thing in Africa. In terms of 
providing incentives for conservation, I think you have to look 
at the broader record of Zimbabwe in its conservation of 
elephants over the last 15 years. We've seen the population 
grow from about 45,000 animals to about 67,000 today, and so I 
think that, alone, is indication that there has been success 
there.
    Now, certainly CAMPFIRE is not without its problems, and we 
have always supported close monitoring of how all these moneys 
are used, but I think we need to keep it in the context of the 
bigger picture of what has been good for elephants and other 
wildlife, as well as the people in those communities.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you.
    Dr. Grandy from the Humane Society. Doctor?

STATEMENT OF JOHN W. GRANDY, SENIOR VICE PRESIDENT, THE HUMANE 
                  SOCIETY OF THE UNITED STATES

    Mr. Grandy. Thank you, sir. Good afternoon, Mr. Chairman. 
Thank you for providing the Humane Society of the United States 
with an opportunity to testify on the African elephant 
reauthorization act and the Asian Elephant Conservation Act.
    I am Dr. John Grandy, senior vice president for the HSUS, 
the Nation's largest animal protection organization, with more 
than five million members and constituents.
    Mr. Chairman, I wish to begin by thanking Senator Jeffords 
for his leadership over the years to enact legislation that 
protects the world's dwindling population of elephants, rhinos, 
tigers, and other wildlife. Both in the House of 
Representatives and now in the Senate, he has been a stalwart 
supporter of animal protection, and we commend him.
    The Humane Society of the United States has a significant 
and lengthy track record with respect to supporting 
conservation in Africa. In 1993, we began by supporting the 
program of North Luangwa conservation project with Mark and 
Delia Owens, and have since arranged for annual contributions 
for their project of $30,000 a year or more.
    This year, in January 1997, the Humane Society of the 
United States signed an agreement for a 5-year project for $1 
million to be given to the National Parks Board of South Africa 
to support immuno-contraception, to support land acquisition, 
and to support elephant management in South Africa's fine 
national park system.
    In short, sir, we support both reauthorization of the 
African Elephant Conservation Act and enactment of the Asian 
Elephant Conservation Act.
    We are concerned, as others have said, as Marshall Jones 
said for the Fish and Wildlife Service, of the prospects for a 
reopening of the ivory trade. As you know, in June 1997, over 
the objections of the United States and more than 20 members of 
the Senate, the parties to CITES decided to reopen 
international trade in elephants and their parts and products 
from three southern African nations. We are concerned that 
poaching seems to be, while we can't say increasing directly, 
it certainly seems to be widespread.
    I've noted in my testimony, sir, a number of incidents of 
recent origin that concern poaching. In Zimbabwe, for example, 
six elephants were poached in July, as compared to an average 
of four per month in the 6-months prior to COP-10. In Ghana 
recently two elephants were poached in Moli National Park. 
There had been no poaching in that park since 1988. In Kenya as 
many as 40 elephants have been killed. The list goes on and on.
    While we can't say that poaching is increasing at this 
time, because there simply isn't that kind of comparative data, 
we certainly can be concerned at what seems to be going on 
there.
    Indeed, Mr. Chairman, the Humane Society wonders aloud how 
many more African and Asian elephants will be lost before it 
becomes clear that the down-listing of the three populations of 
African elephants under CITES was a mistake.
    Finally, Mr. Chairman, in indicating our strong support for 
both African and Asian elephant conservation acts, we wish to 
note with concern CAMPFIRE expenditures and expenditures which 
have promoted ivory trading internationally. I say that because 
I wish to decline in a direct way your offer to comment on the 
CAMPFIRE program, but rather to comment on what the Humane 
Society of the United States believes are the significant and 
overriding issues.
    In our view, it is that U.S. funds, taxpayer funds, should 
not be used to support reopening of the ivory trade or any 
resumption of it, and certainly should not be used to support 
trophy hunting.
    We note with alarm that Safari Club International has 
received numerous grants totaling over $200,000, which have 
been used to directly promote trophy hunting of African 
elephants. We think that is distressing. We have noted the 
results of a quite dramatic poll that was produced by Penn & 
Schoen for the Humane Society of the United States, noting that 
84 percent of the American public opposes trophy hunting of 
African elephants and opposes the use of taxpayer funds for 
that purpose.
    Thank you, sir.
    Senator Chafee. Thank you very much.
    Dr. Marks from the Safari Club, International.
    Doctor, why don't you proceed, please?

STATEMENT OF STUART A. MARKS, DIRECTOR, RESEARCH AND COMMUNITY 
   DEVELOPMENT, SAFARI CLUB INTERNATIONAL, HERNDON, VIRGINIA

    Mr. Marks. Mr. Chairman, Safari Club International 
appreciates the opportunity to testify here today. I am 
director of research and community development for Safari Club 
International.
    I grew up in rural Central Africa, where my parents were 
medical missionaries, and I spent some 30 years researching 
community uses of wildlife and assessing wildlife programs. I 
am the project administrator for a successfully completed 
African Elephant Conservation Act grant called ``support the 
CAMPFIRE in Zimbabwe'' on behalf of SCI. I'll talk about that a 
little bit later.
    Safari Club International strongly supports S. 627, the 
reauthorization of the African Elephant Conservation Act. In 
addition, it also supports S. 1287, the Asian Elephant 
Conservation Act.
    We would also like to thank Senator Jeffords for his 
leadership on these significant issues, as well as you, Mr. 
Chairman, who seems to be up there alone, for your leadership 
in holding these hearings.
    Our testimony today will focus specifically on the African 
Elephant Conservation Act. Currently, SCI administers two 
ongoing African Elephant Conservation Act grants in Tanzania. 
In addition, SCI has just successfully completed another grant 
in Zimbabwe. I begin with the Zimbabwe project. It allows us to 
specify concrete outcomes and goals supported under this grant 
program, and to clarify SCI's objectives for participating in 
these significant conservation programs.
    The Zimbabwe grant was for $85,000 in support of CAMPFIRE. 
CAMPFIRE, as you well know, stands for Communal Areas 
Management Program for Indigenous Resources. The objectives and 
goals of this program were determined by residents within 
Zimbabwe, not by U.S. Fish and Wildlife Service nor SCI.
    The total project exceeded $150,000 in cost and was 
collaboratively administered by SCI, in conjunction with 
Zimbabwe's Department of National Parks and Wildlife 
Management, the CAMPFIRE Association, itself, Worldwide Fund 
for Nature, and the Zimbabwe Trust. The project was initiated 
by conservation concerned citizens within the host country who, 
in terms of skill, resources, and time contributed far more to 
the project than the above monetary figures indicate.
    So my first point is this, Senator: these grants facilitate 
comparative efforts among a range of host country 
organizations, which participate together to conserve and 
protect elephants and their habitats.
    My second point is that harvesting of small quotas of 
wildlife can restore and maintain an appropriate balance in 
biodiversity. Thus, CAMPFIRE programs demonstrate that local 
management of wildlife resources, coupled with property rights 
and economic incentives, do serve the interests of both human 
development and biodiversity conservation.
    CAMPFIRE programs provide economic incentives to tolerate 
and sustain wildlife--in this case, particularly elephants. But 
also the program helps to ease the stigma of earlier colonial 
institutions while promoting new paths to rural development. I 
think that's critically important.
    The Zimbabwe grant provided the means by which local 
communities can make their own assessments in evaluations of 
wild resources. Their communities have been empowered to 
sustain these processes. The ultimate aim of CAMPFIRE is for 
wildlife, including elephants, to be managed at the community 
level for the benefit of those communities.
    Given the colonial centralized past history of wildlife 
management, this decentralization is a lofty and progressive 
goal. To succeed, several key elements are essential, including 
ways to assess the size of the resources, the setting and 
monitoring of appropriate quotas, as well as other activities 
such as wildlife protection, habitat management, and ultimately 
marketing of products to pay for local opportunity costs for 
conservation.
    The outputs from this project are already impressive. We 
have the written, field-tested, and produced quota-setting and 
teaching exercise manuals that are readily understood by 
villagers. That, itself, is significant. In addition, this 
project has held 13 workshops in 10 districts attended by some 
363 participants. Returning to their respective villages, these 
participants will train local managers to assess, set quotas, 
and protect wildlife habitats and populations.
    Senator, SCI is an organization of conservationists who 
hunt. Just as sportsmen continue to pay for conservation in our 
own country, SCI's contributions make possible conservation and 
management of wildlife in many lands. In addition to the 
millions of dollars which our members contribute directly 
through the purchases of licenses around the globe, we spend 
millions of dollars nationally and internationally on 
conservation projects.
    Unlike other African countries, sport-hunted elephant 
populations in Zimbabwe and Tanzania have increased in recent 
years.
    Senator I would like to submit this paper written by SCI to 
demonstrate the contribution that sport hunting makes to 
elephant conservation, primarily in Zimbabwe, but also with 
reference to Tanzania.
    Senator Chafee. That's fine.
    Mr. Marks. Assessing elephant populations and allowing 
quota offtakes from these populations allows for sustainable 
uses and support for conservation programs. That's what our two 
grants in Tanzania are about.
    Dr. Grandy has already mentioned these. I'll mention them 
briefly. One is to train government game scouts in the use of 
modern technology so that they can pinpoint important elephant 
parameters. The second is to help establish a basic survey of 
elephant populations within Tanzania, itself. On each of these 
grants, host-country organizations are those who have 
contributed to the contributions that the grant program makes.
    The African Elephant Conservation Act was enacted to 
conserve elephants. In cooperation with various conservation 
organizations and ministries, this program provides both means 
and incentives for African range nations to actively manage the 
natural resources, including elephants.
    As demonstrated by these four grants administered through 
SCI, we feel that the U.S. Fish and Wildlife Service is 
appropriately addressing conservation of elephants, as well as 
the concerns of rural people which co-exist with this, the 
largest land mammal.
    Senator Chafee. All right. Thank you very much, Dr. Marks.
    Ms. Hemley, you indicated in your testimony that the cuts 
in the local countries' wildlife protection budgets were 
severe. So are we in a situation here where we don't have what 
you might call maintenance of effort? In other words, the 
United States comes in--true, $1 million isn't a great deal and 
these grants are relatively small, but is it an encouragement 
for the local countries to say, ``Well, let those rich 
Americans carry the ball''?
    Ms. Hemley. It's obviously a pretty complex scene, and it's 
not a very encouraging one in many respects in much of Africa.
    I think what the value of the elephant fund here in the 
United States has been is that it has allowed us to play a 
leadership role. We are hopeful that, especially in the 
aftermath of the CITES decision, that other governments will be 
willing to put in the necessary funds to help with the 
monitoring that is even becoming more critical for the elephant 
populations in both Africa and Asia.
    It's not a unique problem for Africa generally, is it, I 
mean in the sense of support for these struggling governments 
and struggling economies.
    I think, in countries in southern Africa that I am familiar 
with and East Africa, Tanzania, and Kenya, there are strong 
government commitments to doing the right thing and to doing 
what they can to support wildlife conservation, so we look at 
it as a way of forming and strengthening partnerships, 
basically.
    Senator Chafee. Mr. Jones, under the Asian elephant 
program, suggested program, as I understand it, you would have 
to cooperate with AID, which apparently you don't do under the 
current situation with the African elephant. What do you think 
of that?
    Mr. Jones. Mr. Chairman, actually we do that, although the 
African Elephant Act doesn't require it. When the Rhino and 
Tiger Act was enacted in 1994, which did require it, we decided 
that if we're going to consult with them on the rhino and tiger 
projects, we should also do that on the African elephant 
projects, and if the Asian Elephant Act is enacted, we'll do 
the same.
    So we consult with them on the whole range of those things, 
and that gives us an additional perspective.
    Senator Chafee. So you don't mind? It doesn't bother you?
    Mr. Jones. No, sir. Not at all. Mr. Chairman, if I could 
also make a comment on the question that you asked of Ginette 
Hemley regarding the situation in range countries, a lot of 
those countries have had to restructure their public sector as 
a result of pressure from the international monetary fund or 
other lending agencies to cut down their expenses for their 
civil service, and that has certainly had an impact on natural 
resource conservation, but it has been a broad impact across 
the board.
    What we require in administering our programs is that there 
will always be a matching contribution from whoever is getting 
the grant. That matching contribution could be in cash or it 
could be in kind, but no one somehow gets a free ride.
    If we provide funds, for example, that would pay for the 
gas that goes in the vehicles of the rangers doing the anti-
poaching, the government is still paying the salaries, 
providing the equipment, providing arms and ammunition--which 
we never provide to them--so it's always a partnership. Some of 
these are desperately poor countries where it is difficult for 
them to have the hard currency to buy things from outside the 
country, and that's where we can come in and help them.
    Each grant is tailored to a particular situation, but, Mr. 
Chairman, we think that what we are doing is encouraging them 
to continue to make the effort. We say, ``We'll help you, but 
you've got to be willing to help yourself.''
    Senator Chafee. OK. Dr. Marks, I must say I sort of have a 
tilt in your direction here, but I am troubled by the 
statistics that we see shown in Dr. Grandy's statement, for 
example.
    Now, if I read his statement correctly--and you can help 
me, Dr. Grandy--the tremendous decline that took place in the 
1980's, and then CITES, and then the price paid for ivory.
    It is a difficult thing. You ban poaching--I ask this of 
you, Dr. Grandy. You ban poaching, and therefore there's not so 
much ivory, therefore the price goes up, therefore it makes it 
more worthwhile to do a little poaching. What do you say to 
that?
    Mr. Grandy. Well, unfortunately----
    Senator Chafee. Whereas you see these pictures of great 
clouds of ivory tusks being seized from some place and then set 
on fire. It would seem to me that it might be better to dump 
them all out on the market, drive down the price, so then 
poaching doesn't become worthwhile. Although on the other side 
it may be the price goes down, so therefore you've got to kill 
more elephants to bring home the same day's pay.
    Mr. Grandy. Of course, that is the economics of supply and 
demand, and you have correctly summarized it.
    Senator Chafee. Well, I've given the problem. I haven't 
given the solution.
    Mr. Grandy. In some ways. Well, many of us have advocated 
the--Ginette Hemley, to my left, and others of us have 
advocated for some time, either privately or publicly, the 
notion, frankly, that all ivory stockpiles should be destroyed 
and that some form of recompense through the United Nations or 
other funding agencies should be actively pursued to help 
restore whatever monetary value that should have to the nations 
which have it.
    The conundrum that you have proposed, however, and 
suggested is absolutely real, but the effect on African 
elephants of the ivory ban began in 1988 and 1989, has been 
absolutely real.
    One of the things I wanted to point out is that quite a lot 
of the increase in elephant population that has occurred in 
Zimbabwe and other southern African nations can be attributed 
directly to the decrease in poaching that that ban brought 
forward.
    So we understand the conundrum. We understand the 
economics. I think a long-term solution is necessary, but I 
think we need to understand how valuable the ban in ivory trade 
has been.
    Senator Chafee. What do you say to that, Dr. Marks?
    Mr. Marks. To the ban of ivory trade?
    Senator Chafee. Yes. What do you think? I mean, you folks 
are on the other side of this issue.
    Mr. Marks. That's right. I think that the countries who 
have asked for down-listing of ivory trade have done their 
homework, they have come up with a program of management, they 
know what they're doing, and Safari Club is willing to support 
them and trust them in terms of enhancing their own 
capabilities, not only for management of elephants but also for 
managing habitat.
    Senator Chafee. Suppose I'm an ivory dealer in Shanghai and 
I'm a good fellow and I want to do the right thing, and so I 
buy some ivory that I'm assured has come from Zimbabwe, where 
they've culled the herd and they're doing everything in the 
correct manner, but that has not come from Zimbabwe, it has 
come from a poached elephant in Kenya. How do I know the 
difference?
    Mr. Marks. Well, I haven't talked to a Chinese merchant in 
Hong Kong, Senator, but I have come down here to support a 
program in African elephant conservation, which is very good, 
and that's what I have tried to support. I don't know how you 
expect a merchant to tell the difference between this type of 
ivory or that type of ivory.
    Senator Chafee. The reason I'm asking that question--you 
might say, ``How did we get into all of this?'' We get into it 
because in the reauthorization of the African elephant there is 
a school of thought that embraces the so-called CAMPFIRE 
approach, and so it behooves us to try to arrive at an answer.
    Mr. Marks. I think CAMPFIRE is trying to arrive at an 
answer, Senator. It is an experiment to try and deal with these 
new issues in terms of human development and habitat 
conservation and elephant conservation, is it not? I mean, it 
is an experiment very much in process.
    Mr. Jones. Mr. Chairman, if I could interject where the 
Administration is on those two issues, because there are 
elements of what both Dr. Grandy and what Dr. Marks has said 
that we fully agree with and other elements that we don't agree 
with as much, but we think it's very important to make a 
distinction between elephant trophy hunting and commercial 
ivory trade. Whatever everyone thinks about trophy hunting, 
that's not an issue about poaching. That's an issue about 
whether one agrees or not with the idea of sport hunters paying 
a lot of money to shoot male elephants, usually with large 
tusks, which they then acquire for their personal use. They 
don't go into the commercial trade. It doesn't fuel poaching, 
doesn't fuel the commercial trade. It is an issue in its own 
right.
    The second issue is either poaching or deliberate killing--
that is, culling of elephants for the commercial trade. We 
support sustainably managed trophy hunting. We allow those 
trophies to come in from some but not all countries in Africa. 
They don't all meet the standard, but we think that can be a 
responsible way to manage elephants in some cases. It does give 
people an incentive.
    Senator Chafee. Where would that be? In Zimbabwe?
    Mr. Jones. Zimbabwe, Botswana, Namibia, South Africa, 
Tanzania. We have denied import of elephant trophies from some 
other countries that don't meet the standard, previously 
Cameroon, and so far Ethiopia. If they can get to the point 
where they meet the standard, we would issue permits, but we 
don't right now.
    But, Mr. Chairman, that is different than the issue of a 
commercial ivory trade, the decision made by CITES to reopen a 
commercial ivory trade, which we do not agree with, just for 
the reasons that you were posing to Dr. Marks. We don't think 
there are good international systems in place to be able to 
know that a commercial shipment of ivory for sure originated in 
one of the countries with good elephant management, like 
Zimbabwe, or, in fact, actually came from Kenya or was poached 
in some other country.
    Once it gets into the marketplace, it is increasingly 
difficult to track the origin of the ivory, and you always can 
have legal trade that is a smoke screen for illegal trade. So 
we just don't think the world is ready. The systems are not in 
place. A trade in ivory for commercial purposes was not 
warranted at this time, and we're going to do everything we can 
to help make sure, using the Elephant Act, to make sure that 
there is no increase in poaching or that, if there is an 
increase, we can detect it, we can know what is happening and 
have that information to present to other CITES countries.
    Senator Chafee. I'll take a quick poll here--yes?
    Mr. Grandy. I just wanted to follow on that, Mr. Chairman, 
and say that I think Marshall has very directly explained those 
two issues and that our perspective is not whether or not we 
are against rural development for indigenous people, which is 
the broadest context in which CAMPFIRE exists, but rather 
whether United States Government funds should be used to 
promote either the ivory trade or trophy hunting, and in both 
of those issues we believe the answer is no.
    Thank you.
    Senator Chafee. How many people here think that we should 
combine these programs under one and you might say protection 
of foreign species under one Act, whether it include the rhino, 
the Asian elephant, the African elephant. How many say no? 
Raise your hands.
    Mr. Grandy. No.
    Ms. Hemley. No.
    Senator Chafee. Dr. Marks?
    Mr. Marks. Would you rephrase the question, because I'm 
inclined to say I don't know.
    Senator Chafee. Well, you're not allowed to do that. You've 
got to vote.
    [Laughter.]
    Senator Chafee. Would you like to--there is a program now 
in which the United States has, in this committee, authorizes--
there's a difference between authorization and appropriation. 
We authorize and another committee appropriates. We authorize X 
dollars for the protection of the African elephant, the 
proposal to authorize X dollars for the protection of rhinos 
and tigers. We have one now proposed for the protection of 
Asian elephants and X dollars for each of these. They are 
separate programs.
    Somebody says, quite logically, ``Look, you've got a 
program for everything, each of these species. Why don't you 
combine them with a bigger sum and do it that way.''
    The others voted no. How do you vote?
    Mr. Marks. I may be----
    Senator Chafee. The poll is about to close.
    [Laughter.]
    Senator Chafee. Yes or no? Well, never mind. You don't have 
to vote. All right. Undecided. OK.
    Let me just say this: it may not--I think Representative 
Saxton kind of hit on it, as I understood him. Frequently you 
can get more little bits, and each one with a constituency. 
There is a constituency for the Asian elephant, so they press 
for just a little sum, just $1 million a year, and along comes 
somebody else, constituency for the leopard, a little bit 
there; constituency for the African elephant, a little bit 
there; constituency for the rhino. So each one is able to get, 
whereas if you combine them all and come in for the total of 
that sum, people say, ``No, it's too much,'' so maybe little 
bites are better. Several small bites might get you more than 
one bite.
    Mr. Grandy. I believe, sir, we would certainly agree with 
that. In addition, I think a very big part of this is that the 
American public really supports doing something directly for 
the Asian elephant, and we would very much support that. Thank 
you.
    Senator Chafee. What----
    Mr. Marks. Can I vote now, Senator, that I understand the 
issue?
    Senator Chafee. I don't know. The poll is closed.
    [Laughter.]
    Senator Chafee. You go ahead and vote, but yes or no. 
Ronald Reagan used to have on the front of him a cube. It 
wasn't a cube. It was a block that had four sides to it and you 
spun it, and it would say yes, no, undecided, and maybe. What 
are you?
    Mr. Marks. I voted yes.
    Senator Chafee. You vote against?
    Mr. Marks. No, yes.
    Senator Chafee. So long ago I can't remember what the issue 
was.
    [Laughter.]
    Senator Chafee. You voted yes?
    Mr. Marks. Sure.
    Senator Chafee. Well, I have to review what the issue was, 
now.
    OK. Let me just say this. The subject before us this 
afternoon is both the Asian and the African. On the Asian, 
where we haven't had any experience, what do you suggest, Mr. 
Jones, or Ms. Hemley, we could spend this money on? It seems to 
me that the problem here is habitat. The amounts we're dealing 
with that would go out through your organization and would 
presumably be comparable to what we do in the African elephant 
are relatively modest amounts. I don't know what's the largest 
single grant you make in a year? Less than 100,000, isn't it? 
So you're not going to be able to buy much habitat with that.
    Senator Smith evidenced deep concern that it just 
overwhelms us, the whole problem. What do you say?
    Mr. Jones. Mr. Chairman, first of all, we would say that 
any country where we're operating has to have some commitment, 
themselves, to conservation, but we can give them an incentive 
to increase that commitment.
    Our dollars--what seems like a small grant here, $20,000, 
to the Bombay Natural History Society, one of the organizations 
that we have worked with for many years on other kinds of 
projects, it's a fortune. They can put many people to work in 
conservation. They can produce educational materials. They can 
pay teachers to add a component on conservation into the 
curriculum and reach school children. There are huge things 
that they can do with what we consider to be very modest 
amounts of money.
    We do have experience working with organizations, 
particularly in India, through a program that is not very 
heralded, Mr. Chairman, but has achieved terrific results. It's 
the U.S.-India fund. It's money which the Indian government 
owes the United States for grain. They pay it to us in Indian 
rupees. It has accumulated over the years. It cannot be turned 
into dollars, and so the U.S. Embassy and the Department of the 
Treasury have made those funds available to government agencies 
to run programs, and we competed successfully to get some of 
that, and so we have a lot of experience working in India using 
these funds, directing these funds.
    Senator Chafee. That's a good answer. What do you say, Ms. 
Hemley?
    Ms. Hemley. We would say that we would suggest being a 
little more strategic, perhaps, in investments and habitat. We 
have enough knowledge and new tools available to us today--GIS 
and mapping techniques and such--that we do have, I think, a 
good sense of where Asian elephants would stand the best chance 
of long-term survival.
    As I mentioned in my remarks, there are probably ten 
populations of a thousand individual elephants or more, which 
are probably the populations that will last for the longest 
over the longer term, and these might be considered the 
priorities for conservation. They're spread out among about six 
countries, half of which are in India. Half of the elephants in 
this group of ten are in India. That might be one way to 
approach it because, as you say, it is enormously challenging, 
the habitat needs are so great. So focusing on those areas 
which are the most promising might be one approach.
    Senator Chafee. That's a good answer.
    Thank you all very, very much for coming today, and we want 
to move on with this. Whether we'll do the African elephant 
renewal this year or next year, the Asian one--it's my 
understanding that if the Administration wants to get in some 
money for it we should authorize that quickly, so we'll try and 
do that.
    Thank you all very much for coming. That concludes this 
hearing.
    [Whereupon, at 3:47 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The bills and additional statements submitted for the 
record follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Statement of Senator James M. Jeffords, U.S. Senator from the State of 
                                Vermont
    Thank you for holding this important hearing on the fate of 
elephants. I commend you, Mr. Chairman, and all the members of this 
committee for taking the time to address this important issue.
    Three years ago I traveled to Africa to witness first hand the 
status of elephants in the wild. I learned that by the late 1980's, the 
African elephant populations had dramatically declined. Fueled by the 
great demand for ivory, elephants were illegally poached and their 
tusks sold for high prices on the international market.
    To stem the illegal slaughter, the international community joined 
with African countries to eliminate the ivory trade and protect 
elephants in their natural habitat.
    To our credit, the U.S. Congress moved fast, enacting the African 
Elephant Conservation Act in 1988. This legislation provides assistance 
to African nations in their efforts to stop poaching and implement 
effective conservation programs. The Act has funded many programs vital 
to the preservation of the African elephant.
    In Africa, I saw dramatic success. The U.S. funded programs 
focussed on empowering the local residents to value and protect these 
great animals. Poaching is fought fiercely in order to preserve the 
income derived from travelers and tourists coming to see the elephant. 
U.S. Fish and Wildlife agents in Africa explained to me the importance 
of proper management of the habitat and value of the U.S. funded 
programs.
    With these efforts, elephant populations have stabilized and are on 
the increase in southern Africa, international ivory prices remain low, 
and wildlife rangers are better equipped to stop illegal poaching 
activities.
    Given all these efforts, the African elephant is still hunted and 
remains at great risk. To ensure that this magnificent animal continues 
to survive in the wild, we must maintain our efforts. Passing a 
reauthorization of the African Elephant Conservation Act at this time 
will indicate to the international community that the United States is 
doing its part to assist African nations in protecting the elephant.
    Based on the success of the African programs, I have introduced 
legislation to provide similar resources to protect the Asian elephant. 
Since the challenges of the Asian elephant are so great, resources to 
date have not been sufficient to cope with the continued loss of 
habitat and the consequent depletion of Asian elephant populations. The 
bill is structured to ensure that all funds appropriated by Congress 
are matched by the private sector to fully implement badly needed 
preservation programs.
    The situation in Asia is dire. Elephant populations in the wild are 
barely sustainable. A joint commitment and effort of nations within the 
range of Asian elephants, the United States and other countries, and 
private efforts is needed to ensure the long-term viability of these 
animals. The committee's action in passing this legislation will prove 
vital to maintaining elephants in Asia.
    Continued illegal poaching and sales of ivory greatly concerns me. 
Recent controversy over the lifting of the ivory ban and funding for 
USAID Campfire program should not, however, impede passage of these 
important bills. Lifting of the ivory ban is indeed troublesome and no 
U.S. funds should be used to work to expand the ivory trade. The 
programs funded through the Department of Interior for elephant 
conservation have not to my knowledge been connected to the ivory trade 
issue.
    I am a strong proponent of the protection and conservation of these 
magnificent animals. These elephants are the some of world's largest 
land animals. if we do not act now, future generations may not be able 
to experience these animals living in the wild, but only behind bars.
                               __________


   Statement by Hon. Jim Saxton, Chairman, Subcommittee on Fisheries 
 Conservation, Wildlife and Oceans, Committee on Resources, U.S. House 
                           of Representatives
    Mr. Chairman, I am pleased to have this opportunity to testify 
today in strong support of the Asian Elephant Conservation Act.
    I introduced the House version of this legislation with a number of 
my colleagues on June 4 of this year. It is modeled after the highly 
successful African Elephant Conservation Act, which has funded over 50 
conservation projects in 17 range states throughout Africa.
    Mr. Chairman, based on the evidence, it is clear that these 
projects, worth more than $15 million in Federal and private matching 
funds, have been instrumental in stopping the demise of African 
elephants.
    In my judgment, it is time we provided a similar lifeline of relief 
to Asian elephants. In fact, the population of Asian elephants is far 
more imperiled than their African cousins. There are now only 40,000 
Asian elephants living in the wild in 13 countries in South and 
Southeast Asia. While there are many reasons for this decline, 
including loss of habitat, poaching, use in Burma's timber industry, 
and conflicts between elephants and man, unless some immediate action 
is taken, this species will largely disappear from most of its habitat 
outside India.
    This legislation was the subject of a comprehensive public hearing 
before my Subcommittee on July 31. While we heard from a number of 
diverse witnesses, the consensus view was that the bill would ``send a 
strong message to the world that the people of the United States cared 
deeply about Asian elephants, and the U.S. Government is committed to 
helping preserve this keystone species.''
    After completing this hearing, H.R. 1787 was unanimously reported 
from the Resources Committee, and it passed the House of 
Representatives without objection on October 21.
    Under the terms of this legislation, Congress would create an Asian 
Elephant Conservation Fund that would be authorized to receive up to $5 
million per year to finance various conservation projects for each of 
the next 5 fiscal years.
    The Secretary of the Interior would carefully evaluate the merits 
of each proposed conservation project, select those that best enhance 
the future of the Asian elephant, and give priority to those projects 
whose sponsors demonstrate the ability to match some portion of Federal 
funds. In addition, the bill stipulates that the Secretary may accept 
donations to assist Asian elephants and shall spend no more than three 
percent of the amount appropriated to administer the Fund.
    Mr. Chairman, we must not allow the Asian elephant, which has such 
a direct impact on so many other species, like the clouded leopard, 
rhinoceros, and tiger, to become extinct. The goal of H.R. 1787 is to 
stop the decline and hopefully rebuild the population stocks of this 
irreplaceable species by financing, with a small amount of Federal 
money, a limited number of conservation projects.
    While not an exact list, it is likely that these projects could 
include efforts to update population figures, assist in anti-poaching 
efforts, translocate highly endangered elephants, develop improved 
conservation management plans, and educate the public in range states 
about the value of this flagship species.
    Although there are only a few days left in this session, it is 
essential that you move this legislation forward so that the President 
can sign it into law this year. It takes time for even the best 
conservation projects to be written and reviewed, and it is critical 
that Asian elephants be included within the Administration's fiscal 
year 1999 budget request.
    This species can ill afford to be decimated for another year and, 
as someone who has spent his life committed to conservation, I am 
confident that you, Mr. Chairman, will provide the leadership necessary 
to accomplish our goal.
    The road to extinction is a one-way street and we must work to 
ensure that the Asian elephant does not make that journey on our watch. 
I urge you to act favorably on H.R. 1787.
    Finally, as a cosponsor of H.R. 39, I support the reauthorization 
of the African Elephant Conservation Act. This law has been 
tremendously successful, and this Fund has been the only continuous 
source of new money for elephant conservation efforts. It is essential 
that this landmark Act be extended either now or early next year.
    Mr. Chairman, again, I want to express my appreciation to you and 
the other members of this committee for the chance to testify on the 
Asian Elephant Conservation Act.
                               __________


   Statement Marshall P. Jones, Assistant Director for International 
  Affairs, U.S. Fish and Wildlife Service, Department of the Interior
    Thank you, Mr. Chairman, for giving me the opportunity to provide 
the U.S. Fish and Wildlife Service's assessment of S. 627, the African 
Elephant Conservation Reauthorization Act of 1997, and S. 1287, the 
Asian Elephant Conservation Act of 1997. On behalf of the 
Administration, the Service strongly supports the reauthorization of 
the African Elephant Conservation Act through 2002 and fully supports 
the enactment of the legislation addressing the plight of the Asian 
elephant and congratulates the Congress on its foresight in recognizing 
this need.
    First, I would like to address S. 627, the African Elephant 
Conservation Reauthorization Act, and how it has played a significant 
role in U.S. efforts to encourage and assist in on the ground projects 
aimed at conserving elephants in Africa. In fact, the early success of 
this program provided the impetus to the passage of the companion 
Rhinoceros and Tiger Conservation Act of 1994, and initial funding 
provided pursuant to this new Act in fiscal years 1996-97 has allowed 
us to begin a modest grant program directed at highest priority 
projects for critically endangered rhinoceros and tiger populations.
    As a Party to the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES), and a major consumer of 
species covered by the Convention, the United States shares 
responsibility for supporting and implementing measures to provide for 
the conservation of endangered and threatened species, both at home and 
abroad. The African Elephant Conservation Act is designed to encourage 
and assist efforts to conserve one of the world's most ecologically and 
sociologically important species of wildlife. The Act's key element is 
the provision of financial resources to help support elephant 
conservation programs in the wild in their countries of origin. The Act 
is part of the strong U.S. commitment to assisting the people of 
developing African nations in implementing their priorities for 
wildlife conservation. Continued support by the United States through 
reauthorization of the Act remains critical to the continued 
conservation of African elephants.
    I would now like to address the successes of the African Elephant 
Conservation Act. Enacted in 1989 and initially funded in fiscal year 
1990, the Act has now given us over 6 years of experience with African 
elephant conservation programs in 17 African countries. The African 
Elephant Conservation Act came into existence at a time when most 
African elephant populations were declining at an alarming rate, due 
primarily to poaching for a large illegal trade in ivory. Population 
estimates vary widely for the African elephant from the 35 countries 
within the current range, but it is estimated that total elephant 
numbers declined continent-wide by as much as 50 percent during the 
late 1970's and 1980's.
    In response to this precipitous decline, the Act authorized a 
unique, two-pronged conservation strategy. First, it required a review 
of elephant conservation programs and established a process for 
implementation of strict ivory import controls; and second, it 
established a Fund for cooperative conservation projects in African 
countries. Under the authority of the ivory trade provisions of the 
Act, in June 1989, the President established a moratorium on all ivory 
imports into the United States, which was at that time the third 
largest consumer of ivory in the world. The Congressional leadership 
that facilitated passage of the Act, and ensuing U.S. ivory import 
moratorium, were essential precursors to the U.S. leadership in the 
subsequent decision by CITES parties in October 1989 to transfer of the 
African elephant from CITES Appendix II to CITES Appendix I and impose 
a global ban on international ivory trade. While it was recognized that 
several African countries, particularly in Southern Africa, had stable 
elephant populations and were able to maintain adequate internal 
conservation programs, there was no effective mechanism to control 
international trade in illegal ivory.
    The information available to us today shows that the ivory ban was 
quickly followed by significant declines in the rate of elephant 
poaching, ivory prices and ivory trade, combined with stabilization of 
elephant populations in many countries that were previously 
experiencing declines. It is important to note that there was also a 
concurrent increase in donor funding to help support anti-poaching and 
other conservation efforts in range countries following the Appendix I 
listing--most notably from the United States, including the first 
appropriation of funds under the Act. It is also significant and 
gratifying to note that the United States, unlike some other donor 
countries, is continuing to fulfill its commitment to elephant 
conservation.
    However, there is no room for complacency. The debate continues 
today over the impacts of the Appendix I listing on elephant 
utilization programs in some countries in Southern Africa. Furthermore, 
some have suggested that poaching may be on the rise again, due in part 
to declines in both donor funding and in wildlife management and anti-
poaching budgets in many African countries.
    The issues of elephant conservation and ivory trade are very 
complex and were a significant focus of the Tenth Meeting of the CITES 
Conference of the Parties, hosted by Zimbabwe in June 1997. The 
elephant populations in Botswana, Namibia, and Zimbabwe were down-
listed from the treaty's highest level of protection, Appendix I, to 
Appendix II to allow for a number of trade options including a limited 
commercial trade in their legal stockpiles of ivory, live animals, and 
for Zimbabwe in carvings, hides, and leather as well. The African 
Elephant Conservation Act still remains a critical link to enable 
continued active U.S. involvement in African elephant conservation, 
through both its import control provisions and the grant program. 
Implementation of this program has played a directly positive role in 
the conservation of the African elephant, and an indirect role in the 
conservation of numerous species that benefit from the conservation of 
this keystone species.
    To date, the Service has funded 55 different projects in 18 African 
countries affecting over 225,000 elephants. Each project is a 
cooperative effort with African CITES Management
    Authorities, other foreign governments, nongovernmental 
organizations or the private sector. No in-country project is approved 
unless it has the full support of and has been identified by that 
country as a priority for conservation. Through this cooperative 
approach the actual on-the-ground resources directed at African 
elephant conservation is almost double the $5 million allocated to the 
program since 1990. Under the Act all but 3 percent of funds allocated 
to the grant program are used to fund projects. Additionally, no 
overhead charges are supported by grant funds. All such costs are borne 
by the cooperators as matching contributions to the project. Thus. 97 
percent of all funds allocated by Congress to the Fund are obligated to 
specific projects.
    In implementing this program the Service has also designed a 
streamlined process that allows for timely approval of projects, and 
that has the capacity to respond quickly to emergency situations. Since 
no implementing regulations were deemed necessary, there was no time 
lag in initial receipt of funds and actual implementation of the 
program. Furthermore, the grant program is designed to provide quick, 
short term support for holding actions and other conservation measures, 
in concert with existing or proposed long range activities, or until 
such long range activities are in place. In the early implementation of 
the Act, it became apparent that there was a definite need for such a 
responsive grant program, and it has become the hallmark of its 
success.
    One of the earliest projects funded was a cooperative effort with 
the Ministry of Forestry and Wildlife, Central African Republic, and 
the World Wildlife Fund. A cooperative effort was underway to establish 
a reserve in the southeastern portion of that country. While funds for 
gazetting the reserve were anticipated, no funds were available for 
basic equipment and operations of anti-poaching patrols--hired from 
local communities--until a cooperative project was implemented under 
the Act. When the first patrols were put into place, the only signs of 
elephants in a local clearing within the park were the carcasses of 
several poached animals. Today over 2,000 individual elephants, young 
and old, have been identified to be using that clearing. From an 
observation platform, local school children can watch in awe as dozens 
of elephants gather together.
    In Senegal, the western most population of elephants in Africa is 
now secure. Through an African Elephant conservation fund grant, an 
anti-poaching program has provided local community employment and 
protection for the remaining elephant population. For the first time in 
years, baby elephants are now seen in this small but genetically 
valuable population.
    In the first years of the program the majority of funding requests 
and the highest priority projects for funding were proposals submitted 
by or in cooperation with African elephant range state governments for 
anti-poaching assistance. Similar to the projects described above, 
funds have been provided to augment anti-poaching and management 
support in Cameroon, Congo, Eritrea, Gabon, Mali, Senegal, Tanzania, 
Zambia and Zimbabwe. Equipment purchased with these funds has ranged 
from vehicles to radios to field gear.
    One of the most innovative anti-poaching projects funded is a 
cooperative effort with the Southern African Wildlife Trust and several 
cooperating African government agencies. It consists of a meritorious 
service awards program for game scouts and rangers in Botswana, 
Tanzania, Zambia and Zimbabwe. This program has provided a much needed 
morale boost for the individuals who are asked to risk their lives 
every day as they routinely confront heavily armed groups of commercial 
poachers.
    More recently there has been a shift in focus from anti-poaching 
projects to other conservation activities that address management needs 
and increasing human/elephant conflicts, as expanding human populations 
reduce the amount of wild lands available. In Southern Africa a number 
of projects have been implemented to assist range state agencies with 
elephant management programs. A cooperative project with the Zimbabwe 
Department of National Parks and Wildlife, for example, focused on the 
development of translocation techniques for elephant family units. Over 
1,000 individual elephants were successfully translocated to new range 
in Zimbabwe when drought threatened hundreds of individuals with 
starvation and destruction of available habitat. That technique is now 
being used in South Africa and other range states.
    Other management projects include investigations into the 
effectiveness of various forms of deterrents used to discourage crop-
raiding elephants in Cameroon and Zimbabwe; training wildlife officers 
in Ghana about elephant biology and ecology; and elephant population 
surveys in Cameroon, Chad, Central African Republic, Malawi, Namibia 
and Tanzania. Projects have also been funded to assist in the 
establishment of a continent-wide database on elephant populations and 
in the establishment of the first comprehensive library of elephant 
resource material.
    These are but a few examples of the significant successes of the 
African Elephant Conservation Act program, demonstrating the wide array 
of projects and cooperators. I hope that these have served to 
illustrate its effectiveness and positive impacts on African elephant 
protection and management. However, while much has been accomplished, 
much remains to be done. The annual requests for support of high 
priority projects greatly exceeds the funds available, and we believe 
that reauthorization of the Act can make an important contribution to 
elephant conservation.
    Next, with respect to S. 1287, introduced by Senator Jeffords, I 
would like to address the needs of the Asian elephant and the ability 
of the Service to handle implementation of the Act and to administer 
the Asian Elephant Conservation Fund. In addition, I would like to 
provide information on the capabilities and commitment of Asian 
countries to protect this species and their habitat, as well as what 
additional steps could be taken to support the implementation of the 
Act.
    From the first appearance of a fairly small tapir-like mammal in 
what is now Egypt 45 million years ago, elephants evolved a number of 
species which at one time inhabited nearly every continent. By the end 
of the Pleistocene glaciation about 10,000 years ago, however, only two 
species survived--the Asian elephant (Elephas maximus) and the African 
elephant (Loxodonta africana). As the largest land animals and as the 
ultimate symbols of power, elephants have always been viewed by humans 
with a mixture of awe and fear, commanding respect by their great size 
but also being viewed as a dangerous and sometimes difficult neighbor.
    However, elephants also have other, more intangible values. In 
Asian cultures in particular, people have embraced the Asian elephant 
as a treasured partner in life, deified and venerated it into their 
culture and religion, trained it for hunting and war, and bonded with 
it at the most basic level. Today, the Asian elephant is also a 
keystone species for the preservation of biological diversity, since 
habitats which support wild elephants also provide a home for a vast 
array of other species, large and small, and thus also is a magnet for 
ecotourism.
    Nevertheless, despite these acknowledged values, the Asian elephant 
also suffers from a series of paradoxes. Because it is the elephant 
species usually seen in zoos and circuses, with more than 16,000 
animals in captivity, it may be more familiar to the average American 
citizen. Yet its status is generally less well known by the media and 
the general public than that of its larger cousin in Africa. With all 
of the publicity about the decline of the African elephant, they are 
still more than ten times more numerous than the Asian species, which 
now numbers only 35,000 to 45,000 animals. The story of the dramatic 
decline of the African elephant, primarily from large-scale poaching is 
well known. The dramatic decline of Asian elephant numbers due to the 
ever-increasing population of the Asian continent is relatively 
undocumented.
    The Asian elephant must share its habitat with some of the largest 
and poorest human populations in the world. The combination of 
pressures on the environment brought on by these conditions has 
resulted in the conversion of forest cover to agriculture and villages, 
fragmenting elephant habitat and populations. It is believed that today 
there are only about ten populations with over 1,000 elephants, with 
half of these located in India. The majority of remaining populations 
are small, with less than 100 elephants each and some with lone bulls.
    The dynamics of human population growth have inevitably led to 
increasing conflicts between humans and elephants. This is not a new 
phenomenon, but as the competition for the same resources grow, 
people's tolerance for elephants has dropped. Asian peoples have 
captured elephants for almost 5,000 years for training for work-
associated tasks, religious ceremonies, and war. Where people once 
revered the elephant and tolerated the occasional crop raiding and 
destruction, now they are striking back, unfortunately often with 
lethal results.
    Unlike African elephants, Asian elephants have not traditionally 
been threatened by poaching for the ivory trade, perhaps because 
females are tuskless and only 60 percent of the males carry tusks. 
However, recent trends since 1994 indicate that poaching for ivory, as 
well as for meat, is on the upswing, especially in southern India. The 
proportion of sub-adult and adult tuskers in various populations over 
the last 20 years has dropped dramatically, in some areas by as much as 
75 percent. In one outstanding example, investigations in 1994 revealed 
that out of 1000 elephants in Periyar Tiger Reserve, one of the 
strongholds for elephants in India, only five adult males were left. 
Even among these, only two were tuskers. This preferential decrease in 
the number of tuskers indicates increased poaching pressure for their 
ivory.
    The implications of this marked sexual disparity have yet to be 
assessed. It is obvious that it will result in changes in population 
structures, not only among adults but among sub-adults and juveniles. A 
drastic reduction in fertility has already been seen which will affect 
the long term demographic structure of this population. Similar effects 
have been well documented in African elephants which have been subject 
to heavy poaching; and even if poaching is brought under control, it 
may take years for normal birth rates and juvenile survival to be 
restored.
    In recognition of these threats, the Asian elephant has been 
accorded the highest levels of legal protection through national laws 
and international treaties. It is listed as ``Endangered'' under the 
U.S. Endangered Species Act and on the IUCN--World Conservation Union 
Red List, and on ``Appendix I'' of CITES. Most of the thirteen Asian 
elephant range countries, including India, reinforce these 
international listings with domestic laws of their own. CITES listing, 
which is designed to eliminate the world-wide trade in ivory, has been 
partially successful. However, some illegal ivory obtained from 
poaching continues to move from country to country. Many Asian 
countries have the strong desire to reduce the levels of poaching and 
stop all illegal trade, but they need assistance if they are to improve 
their ability to enforcement the CITES controls.
    In addition, while national legislation has afforded the elephant 
with maximum protection on paper, local conditions often serve to make 
this safety net more illusory than real. Forests in many areas can be 
owned by local District Councils or private individuals and subject to 
uncontrolled slash and burn, shifting cultivation, leading to 
disappearance of prime elephant habitats. Erratic economic and 
political situations as well as lack of emphasis on wildlife-related 
crimes have made it difficult for some countries to effectively enforce 
laws and to efficiently manage their elephant populations and other 
natural resources.
    For these reasons, the Asian elephant is in trouble--and it will 
take more than legal paperwork to ensure its survival. Asian elephants 
need active protection and management of their habitat, resolution of 
the deleterious conflicts with humans over land uses, better law 
enforcement activities to protect against poaching, reduction of 
captures from the wild, and better care and humane treatment of the 
remaining captive populations. They also need the restoration of the 
harmonious relationship that previously existed with humans through 
community education and awareness activities.
    Given the already endangered status of the Asian elephant and the 
new and insidious threats now facing it from the factors described 
above, it is indeed timely that this committee is now considering S. 
1287, the Asian Elephant Conservation Act of 1997. This Act 
acknowledges the problems of forest habitat reduction and 
fragmentation, conflicts with humans, poaching and other serious issues 
affecting the Asian elephant. The Act addresses the need to encourage 
and assist initiatives of regional and national agencies and 
organizations whose activities directly or indirectly promote the 
conservation of Asian elephants and their habitat, and it provides for 
the establishment of an Asian Elephant Conservation Fund, authorized to 
receive donations and appropriated funds. While many range governments 
have demonstrated a commitment towards conservation, the lack of 
international support for their efforts has been a serious impediment.
    Patterned after the African Elephant Conservation Act of 1988 and 
the Rhinoceros and Tiger Conservation Act of 1994, the Asian Elephant 
Conservation Act would assign responsibility for implementation to the 
Secretary of the Interior, in consultation with the Administrator of 
the Agency for International Development. The bill would authorize the 
Secretary to make grants designed to benefit Asian elephants in the 
world.
    The Service would also mesh the administration of this new 
legislation with our existing responsibilities under the Endangered 
Species Act, using our experience gained during more than 20 years of 
participation in cooperative wildlife programs in Asia--including, 
among many other projects, a 10-year ecological study of the Asian 
elephant in India involving training, research, and management 
activities.
    Additionally, the Service has facilitated CITES implementation 
workshops in six Asian countries, and has so far provided support for 
15 projects under the Rhinoceros and Tiger Conservation Act in three 
countries, with many more proposals now under review. The Service has 
developed an excellent working relationship with most Asian elephant 
range countries and with the CITES Secretariat, as well as establishing 
an important network of worldwide experts, advisors and cooperators 
that can be drawn upon for support and expertise.
    Implementation of the Asian Elephant Conservation Act by the 
Service would be based on the pattern established by the African 
Elephant and Rhinoceros and Tiger Conservation Acts. The Service would 
develop a grant program with a call for proposals that would be sent 
out to a mailing list of potential cooperators from regional and range 
country agencies and organizations, including CITES partners and the 
CITES Secretariat. The Act's criteria for proposal approval gives the 
Service clear guidance, and priority would be given to proposals which 
would directly support and enhance wild elephant populations and which 
include necessary matching funds.
    All amounts made available through the Conservation Fund would be 
allocated as quickly and as efficiently as possible. We expect that 
Asian elephant range countries and international organizations would 
submit a variety of conservation proposals for support, including 
research, management, conflict resolution, community outreach and 
education, law enforcement, CITES implementation, captive breeding, 
genetic studies and traditional mahout and koonkie elephant training.
    Given the success under the African Elephant Conservation Act and 
the Rhinoceros and Tiger Conservation Act, we expect that the Asian 
Elephant Conservation Act would make a major contribution to 
conservation, filling a significant void in our current programs. It 
would send a strong message to the world that the people of the United 
States care deeply about Asian elephants and that the U.S. government 
is committed to helping preserve this keystone species of the remaining 
tropical and subtropical Asian forests.
    In closing, Mr. Chairman, the principles embodied in these two 
bills are sound. They provide a catalyst for cooperative efforts among 
the governments of the world, nongovernmental organizations, and the 
private sector to work together for a common goal--the conservation and 
continued healthy existence of populations of African and Asian 
elephants. Findings made by Congress in enacting the African Elephant 
Conservation Act regrettably still ring true today: ``Many (African and 
Asian countries) do not have sufficient resources to properly manage, 
conserve, and protect their elephant populations.'' The United States 
must share the responsibility to provide for the conservation of this 
magnificent species. This is not a hand out, but a helping hand. For 
these reasons, Mr. Chairman, we urge this committee to give favorable 
consideration to S. 627, a bill to reauthorize the African Elephant 
Conservation Act, and S. 1287, the Asian Elephant Conservation Act of 
1997.
                               __________


 Statement of Ginette Hemley, Director, International Wildlife Policy, 
                          World Wildlife Fund
    Mr. Chairman, members of the committee, I am Ginette Hemley, 
Director of International Wildlife Policy at World Wildlife Fund. I 
want to thank the committee for this opportunity to testify on behalf 
of WWF and its 1.2 million members in the United States. WWF strongly 
supports passage of the Asian Elephant Conservation Act of 1997 and 
reauthorization of the African Elephant Conservation Act, and would 
like to express appreciation to Senator Jeffords, Congressman Saxton, 
and other Congressional sponsors for introducing this important 
legislation.
    Few species capture the public's imagination as do elephants, both 
African and Asian, and few species present as many conservation 
challenges. In recent years, the plight of the African elephant has 
become a prominent issue, as worldwide attention focused on halting the 
poaching for ivory that reduced the species' numbers significantly in 
many parts of Africa in the 1970's and 1980's. The June 1997 biannual 
CITES conference featured extensive discussion of the African elephant, 
highlighting the many challenges African nations face in their efforts 
to secure long-term survival of the species. The meeting concluded with 
a controversial decision that may allow limited international ivory 
trade to resume in 18 months if certain conditions are met.
    While the global conservation community will be following the CITES 
African elephant decision closely, attention is also turning to the 
Asian elephant, whose status in the wild is even more precarious than 
that of its African counterpart. The combined impact of habitat loss, 
poaching for ivory, meat, and hides, and increasing conflicts with 
people threatens the species' survival in the next century. In fact, 
with a total wild population of only 35,000 to 50,000, the Asian 
elephant now numbers less than one tenth of the African elephant. The 
erosion of its habitat over the past half century also has fragmented 
remaining wild populations to the point that fewer than ten populations 
comprising more than 1,000 individuals are left throughout the species 
range, jeopardizing the species' long-term viability.
    The African and the Asian elephant, and the countries struggling to 
protect them, urgently need our help. Securing their survival requires 
stronger protection measures for remaining herds in the countries where 
the species live, including establishing corridors to link existing 
forest reserves and allow for natural migration, promoting programs to 
increase conservation incentives for the people living closest to 
elephants, stemming the illegal killing for ivory and other parts, and 
reducing human-elephant conflicts.
The African Elephant Conservation Act: A Model Program for 
        International Conservation
    While the ivory trade debate has been the focus of much 
international attention over the past decade, it is important to 
recognize that elephant conservation goes well beyond measures to 
control commerce in ivory. The issue we are discussing here, Mr. 
Chairman, is international funding for wildlife conservation. To this 
end, the African Elephant Conservation Act has played a crucial role. 
The Act established the African Elephant Conservation Fund and 
authorizes up to $5 million per year for elephant conservation 
projects. Although the fund has never been appropriated the full amount 
authorized, it has proven an important instrument for helping African 
nations in their efforts to rebuild elephant populations hit hardest by 
poaching as well as for addressing the growing array of elephant 
conservation and management needs throughout the continent.
    To best understand the importance of monies provided from the AECA, 
one would have to consult with the governments, wildlife officials and 
experts of the 17 countries which have benefited from its support. WWF 
has conservation programs or projects in 16 African countries and 
oversees several projects which have been the direct recipients of 
African Elephant Conservation Fund support. Based upon WWF's own field 
reports and contact with experts across Africa, the fund has been an 
important source of support for projects that otherwise would have not 
been possible.
    Mr. Chairman, the African Elephant Conservation Fund supports a 
very modest program $5.4 million has supported about 55 projects in 18 
African countries since the Act was first passed in 1988. In WWF's 
view, the Fish and Wildlife Service has been both efficient and 
effective in managing the elephant grants program.
    Through many years of developing and managing international 
conservation programs and projects, we at WWF have learned many 
important lessons. One is that successful conservation initiatives 
require commitment and continuity. The African Elephant Conservation 
Fund has in fact been the only continuous source of new funding for 
African elephant conservation efforts in the past decade. 
Unfortunately, funding from other sources has proven erratic. In the 
immediate aftermath of the 1989 ivory trade ban, when the world was 
sensitized to the elephant's dilemma, funding flowed form various 
bilateral bodies and NGOs to projects in Africa. Since then, however, 
funding has largely dried up. A 1995 review supported by WWF and the 
Fish and Wildlife Service, with support from the elephant fund, 
revealed that many African wildlife departments have suffered severe 
budget cuts, some on the order of 90 percent or more over 4 years, as 
was the case with Tanzania in the early 1990's. This not only 
underscores a serious trend, but also makes the monies authorized by 
the AECA even more valuable and needed.
    From WWF's perspective, some of the strengths of African Elephant 
Conservation grants program include:
    <bullet>  LEmphasis on small grants. By emphasizing small grants, 
the Fish and Wildlife Service is able to move monies relatively quickly 
with minimal bureaucracy, while also ensuring that a wide spectrum of 
projects is supported. The African elephant inhabits some 35 countries, 
and conservation needs and capacity vary widely. The FWS has chosen to 
provide maximum reasonable flexibility by keeping grants small, while 
maintaining a broad focus to ensure funding for meritorious projects 
throughout sub-Saharan Africa.
    <bullet>  LOn-the-ground focus. Virtually all monies coming from 
the fund go directly to the field where needs are greatest; just three 
percent goes for administration. Moreover, the Fish and Wildlife 
Service has been responsive to emerging needs, as witnessed in 1993 
when an anthrax outbreak threatened Namibia's elephant population. 
Emergency assistance was provided from the African elephant fund, and 
helped head off a potential catastrophe.
    <bullet>  LBalanced set of projects. In the beginning, the African 
elephant fund supported mostly anti-poaching projects, as these were 
the immediate priority. Since then, we are encouraged that, while 
grants are still targeted at clear and identifiable needs, the fund 
supports not only anti-poaching but many other activities, such as 
elephant population research and censuses, efforts to mitigate 
elephant/human conflicts, investigations of the ivory trade and 
cataloging ivory stockpiles, elephant translocations, and identifying 
new techniques for elephant management.
    <bullet>  LCooperation with range states. All FWS projects receive 
approval from the host-country government before proceeding. We have 
found that there is a very clear process and commitment to consultation 
and, where possible, collaboration with African governments.
    <bullet>  LMatching funds. Since the elephant grants program was 
initiated in 1990, more than $8.6 million in matching contributions has 
been spent on the various projects supported--a match ratio greater 
than 3 :2. In addition, the fund has played a catalytic role in larger 
initiatives, such as in the Central African Republic's Dzangha-Sangha 
Reserve. In a major effort to protect important wildlife habitat and 
biodiversity by working with surrounding communities to link 
conservation with development needs, African elephant funds are used to 
support three teams of game scouts that patrol the reserve and combat 
poaching. In partnership with WWF and others, the U.S. government has 
been able to play a focused role in the conservation of this 
biologically important area that is important for forest elephants as 
well as for many other unique species.
    <bullet>  LU.S. leadership. Last but not least, the AECA has 
allowed the United States to put its money where its mouth is and set 
an example for other countries to follow. I would like to emphasize the 
importance of the fact that FWS support has not been curtailed once the 
poaching crisis abated. It is only through such continuing support that 
the long-term survival of African elephants will be realized.
    The list of specific initiatives supported by the African Elephant 
Conservation Act is impressive and I would encourage members to review 
it. (The list of WWF projects funded under this Act is attached to this 
statement.) These projects have provided critical seed money to new 
elephant conservation initiatives in Africa, provided supplemental 
funds for existing projects with needs that could not be met from other 
sources, and helped build conservation infrastructure within elephant 
range states. With projects receiving matching support from 
organizations such as WWF, Safari Club International, the Wildlife 
Conservation Society, and others, the African Elephant Conservation 
Fund has clearly multiplied its conservation benefits substantially.
    WWF believes that the positive results of the projects supported by 
the African Elephant Conservation Fund are the most important signs of 
the strength of the Act. They have allowed the United States to play a 
lead role where it really counts--funding initiatives in range 
countries to help ensure the survival of this threatened species in the 
wild.
    The African Elephant Conservation Act has clearly established a 
successful model program for international wildlife conservation. 
However, it is sometimes tempting to assume that once the immediate 
problem is addressed, the problem is solved. Securing the future of 
Africa's wildlife requires a long-term commitment. Therefore, the 
continuing Congressional support for this program will be critical to 
the long-term viability of many elephant conservation initiatives. WWF 
urges Congress to maintain the strong support it has shown to date.
Urgent Conservation Needs of the Asian Elephant
    The Asian elephant, which has shared a special bond with people for 
centuries, now faces an uncertain future. Reduced to fewer than 50,000 
in the wild, the species has suffered from habitat loss, capture of 
elephants for domestication, and poaching for ivory and meat. Dedicated 
conservation efforts, backed by adequate financial support, are needed 
to stem these threats and ensure the long-term conservation of the 
species.
    Addressing the broad and complex needs associated with successful 
conservation of the Asian elephant requires the kind of financial and 
technical assistance from the international conservation community that 
the Asian Elephant Conservation Act would provide. Carefully targeted, 
the resources this legislation could offer would have an immediate 
positive impact. The conservation benefits would be far-reaching not 
only for Asia's elephants, but also for the many other species that 
share the Asian elephant's range and the human communities that have 
co-existed with this species for so long.
    Perhaps no other wild animal has had such a close relationship with 
people. In Asia, the unique relationship between people and elephants 
runs deep and dates back as far as 4,000 years, when elephants were 
first captured and trained as draft animals and for use in religious 
ceremonies and warfare. Its cultural contributions are especially 
noteworthy. Ancient Hindu scriptures frequently refer to elephants, the 
elephant-headed god Ganesha is revered throughout India, and the white 
elephant has special religious significance for Buddhists throughout 
Asia.
    In addition to remaining wild populations there also are 
approximately 16,000 domesticated elephants in Asia. For years, Asian 
elephants have been important economically, especially in forestry 
operations. Timber extraction using elephants has less impact on 
surrounding forests during selective logging than less precise 
mechanical methods that damage large areas, disrupting ecological 
processes such as nutrient cycling and forest regeneration, and leaving 
tracts of bare soil which wash into rivers. Today, only in Burma are 
wild elephants still captured and trained for use in logging 
operations. Elsewhere throughout their range, domestic elephants are 
used for transportation, draft, and tourism, providing a reliable 
source of income to numerous local communities.
    Beyond this unique relationship with human beings, the Asian 
elephant is a flagship for the conservation of the tropical forest 
habitats in which it is found. Elephants range over long distances and 
across a variety of habitats that are home to numerous other wildlife 
species. As they need very large areas to survive, effective 
conservation and management of elephants can deliver widespread 
benefits for other endangered species such as the tiger, rhinoceros, 
kouprey, clouded leopard, Asiatic wild dog, gaur, Malayan sun bear, 
Hoolock gibbon, and countless other wildlife sharing its home.
    The Asian elephant plays a key role in shaping its environment. 
Elephants knock down trees while feeding, and these fallen trees then 
become accessible to smaller herbivores such as blackbuck and sambar 
that cannot reach the branches of upright trees. Asian elephants 
disperse the seeds of certain grasses, shrubs and trees, which they 
deposit in and fertilize with their dung. A multitude of bird species 
feed on these seeds, as well as the myriad insects that congregate in 
the droppings. Few species have such a profound effect on the habitat 
and species around them.
    Living in the world's most densely populated region presents 
daunting challenges for the Asian elephant. Because elephant herds 
range over such large areas, protection is more difficult than for many 
other species. The myriad threats the Asian elephant faces today is 
reflected in the fact that the species is currently listed as 
endangered under the U.S. Endangered Species Act and the World 
Conservation Union's Red List of Mammals, and also under Appendix I of 
the CITES. A brief look at remaining numbers of wild Asian elephants in 
its current range illustrates why the level of concern among 
conservationists is so high.

                  Current Range of Wild Asian Elephants                 
Bhutan...............................................  60-150           
Burma................................................  5,000-6,000      
Cambodia.............................................  1,000-2,000      
China................................................  250-350          
India................................................  20,000-24,000    
Indonesia............................................  2,500-4,500      
Laos.................................................  1,000-3,000      
Malaysia.............................................  800-1,000        
Borneo...............................................  500-2,000        
Nepal................................................  50-85            
Sri Lanka............................................  2,500-3,000      
Thailand.............................................  1,500-3,000      
Vietnam..............................................  300-400          
                                                                        
Sources: IUCN's SSC Asian Elephant Specialist Group and WWF offices in  
  Bhutan, Nepal, Vietnam, and India.                                    

    The absence of reliable data on population trends, and the 
difficulty of counting elephants living in dense tropical forests, 
makes it difficult to precisely quantify the decline in Asian elephant 
numbers from historical levels. But destruction of habitat has no doubt 
led to a precipitous decline in elephant populations and a considerable 
loss of biodiversity throughout their range. The Asian elephant once 
ranged from modern Iraq and Syria to the Yellow River in China, yet 
today it is found only in fragmented populations scattered from India 
to Vietnam, with a tiny besieged population in the extreme southwest of 
China. Current threats to remaining populations can be summarized as 
follows:
    Habitat loss and fragmentation. Asian elephants inhabit some of the 
most densely populated areas of the world, and loss of remaining 
habitat poses a grave threat. Pressures of human population growth are 
most severe in countries such as Vietnam and India where once extensive 
forest habitats have contracted dramatically. Encroachment by migrating 
human populations in countries such as Indonesia pose another threat, 
and in places like Peninsular Malaysia, large expanses of forest have 
been cleared for palm oil and rubber plantations and other agricultural 
activities. Throughout their range, elephants are competing directly 
with people for the same resources.
    Due to the loss and degradation of their habitat, Asian elephant 
populations have become extremely fragmented. Today there are probably 
fewer than ten populations with more than 1,000 individuals in any one 
contiguous area: half of these are found on the Indian subcontinent. 
The problem is more severe in southeast Asia; only four populations 
have more than 1,000 elephants, two of which are found in Burma. Small 
elephant populations isolated in patches of forest in countries such as 
Vietnam, Peninsular Malaysia, and Cambodia face sudden extirpation from 
disease outbreaks and natural disasters and risk gradual erosion of 
genetic health due to inbreeding.
    Human-elephant conflicts. Conflict between elephants and people is 
not a new phenomenon; elephants have been raiding crops since time 
immemorial. However, the reverence people had for elephants in Asia 
historically ensured its peaceful coexistence and made them tolerant of 
the occasional intrusion. In recent times, human settlements have been 
pushing further and further into elephant habitat, and the incidence of 
crop-raiding has increased by several orders of magnitude, leading to 
the destruction of human homes and lives. As people have suffered 
escalating losses to elephants, their permissiveness has given way to 
anger and frustration. Every year thousands of hectares of agricultural 
crops are destroyed by elephants looking for food.
    In some countries, governments have taken drastic or expensive 
measures to minimize conflicts. Malaysia, for example, resorted to 
large-scale shooting of crop-raiding elephants in the late 1960's, and 
still translocates problem elephants to protected areas. Other 
countries, for example Indonesia, rely on short-term remedies such as 
capturing elephants for domestication. Where no immediate solutions are 
provided by governments or local authorities for lack of financial 
resources, people are increasingly taking the law into their own hands 
by shooting trespassing elephants.
    Poaching. Poaching of Asian elephants for ivory, although far less 
significant than with African elephants, has played a role in reducing 
numbers in South Asia in the past, and is still a problem in parts of 
South India, Cambodia, Vietnam, Burma, and Laos. In South Asia, 
poaching also has altered the ratio of males to females in some areas, 
causing concern about genetic threats to the population. Skewed sex 
ratios may cause inbreeding, which can lead to genetic drift, reduce 
genetic diversity within a population, weaken resistance to epidemics, 
and compromise overall reproductive success. Poaching of Asian 
elephants of both sexes for meat, hide, bones and teeth is on the rise. 
Hide is turned into bags and shoes in Thailand and China, and bones, 
teeth and other body parts are used in traditional Chinese medicine to 
cure various ailments. In Vietnam, such poaching is a threat even to 
the remaining domestic elephants that are allowed to roam freely in 
forests.
    Capture for domestication. Capturing elephants for domestication 
threatens wild populations, whose numbers already are greatly reduced, 
and inevitably results in mortalities. In Burma, the country with the 
highest demand for work elephants, there is some economic logic in 
capturing adults for use in the timber industry, rather than breeding 
elephants in captivity. An adult female elephant used for breeding 
would be unavailable for work curing her 2-year pregnancy and for up to 
2 years afterwards, until her calf was weaned. Captive-born elephants 
then have to be nurtured for a full 10 years before they can be 
employed economically.
    In other countries, however, there is less justification for taking 
wild elephants into captivity. In Indonesia, for instance, large 
numbers of elephants are being rounded up for domestication as a 
conflict resolution measure. There is no precedent in Indonesian 
culture for capturing and training elephants, and it was not until the 
1980's that captive elephant managers began to acquire the skills and 
techniques required for such operations. Since that time over 600 
elephants have been taken from the wild, with plans to remove another 
600 over the next 5 years. However, elephants are not used in the 
logging industry, and only a limited number can be used for other 
purposes such as tourism. Therefore, the cost of capturing and 
maintaining these animals seems a misguided use of the meager 
conservation resources available in this country.
The Asian Elephant Conservation Act
    The threat of extinction looms large for the Asian elephant. 
Conservation efforts by range country governments and international 
conservation groups have been underway for at least two decades. 
Unfortunately, economic and political stress has made it difficult for 
some countries to conserve their wildlife resources or to enforce 
protection laws effectively. Thus, the species finds itself in a 
precarious situation. If the Asian elephant is to survive in 
perpetuity, the international conservation community must work with 
range countries to meet these challenges head-on.
    The conservation assistance provided by the Asian Elephant 
Conservation Act would be a significant step forward. A serious 
impediment to sustainable conservation measures for the Asian elephant 
is financial support. In many countries, national governments have 
demonstrated political commitment but many activities are sidelined due 
to insufficient funding. Although the Asian Elephant Conservation Act 
will not single-handedly save the Asian elephant, it would serve three 
key purposes. First, the fund would provide a modest but vital source 
of support for on-the-ground projects to benefit the Asian elephant and 
its habitat. Second, it would generate matching funds from other 
sources for priority activities, and as with the African Elephant 
Conservation Fund, would leverage funding commitments from other 
governments and organizations. Third, through this bold initiative, the 
United States sends a strong message to the governments of the range 
countries that the plight of the Asian elephant is not merely a 
domestic concern--that even a country with no elephants of its own 
cares deeply about the survival of this remarkable species.
    WWF believes that an investment strategy for conserving the Asian 
elephant should first concentrate on preserving habitats still large 
and intact enough to support healthy elephant populations over the long 
term, and on establishing habitat corridors between these important 
areas. The Asian Elephant Conservation Act could provide the following 
benefits directed toward these goals:
    1. Conserving priority habitat areas for Asian elephants across 
their range. The Asian Elephant Conservation Fund provides a source of 
support for protection of the remaining elephant populations and their 
habitat against further loss and degradation. WWF and other 
international conservation organizations such as the World Conservation 
Union (IUCN) and the Wildlife Conservation Society (WCS) have been 
working to identify priority elephant habitat throughout the species' 
remaining range, and to promote establishment and management of 
corridors and special protected areas. To secure the future of Asian 
elephants, it is necessary to identify and evaluate the remaining 
habitat areas where the prognosis for long-term survival is most 
promising, and then invest conservation resources preferentially in 
these areas.
    WWF is currently supporting an assessment by two of the world's 
foremost experts on the Asian elephant, Dr. Raman Sukumar and Dr. 
Charles Santiapillai, often to 15 habitat areas where Asian elephants 
have the best chance of long-term survival. This evaluation will be 
based on population size, habitat integrity, proximity to major human 
settlements, and the degree of threats such as poaching, logging, and 
conversion to agriculture. Dr. Sukumar will explain in his testimony 
how the project will generate a predictive model of where conservation 
investments would have the best returns for elephants and where land 
might be acquired for new elephant reserves. I mention this to 
demonstrate that these high-priority areas, once identified and 
assessed, would be prime targets for the types of intensive 
conservation efforts that the Asian Elephant Conservation Fund could 
support. With a concrete display of US support, Asian range countries 
could conduct planning and management activities they once could not 
afford in order to protect elephants and their habitat.
    2. Promoting co-existence between people and elephants by 
developing and implementing sound management practices that would 
prevent or reduce conflict. The Act specifically recognizes the need 
for programs and projects to address the conflicts between elephants 
and people that arise from competition for the same habitat. National 
governments and conservation organizations have conducted surveys and 
sociological studies in a number of Asian countries to document recent 
human/elephant conflicts and develop methods to minimize these often 
deadly encounters. Because elephants are wide-ranging animals, it is 
not always possible to set aside reserves sufficiently large to prevent 
their migration beyond borders and keep them segregated from human 
communities. But compromises are possible that could benefit both 
sides. For example, buffer zones can be established at the perimeter of 
protected areas where local people can pursue economic activities that 
are compatible with elephant conservation. Revenue from ecotourism can 
be channeled into community development projects such as building 
hospitals and schools. Local farmers can be compensated for crops lost 
to raiding elephants. The current resources of international 
conservation groups are grossly inadequate to address the problem of 
human/elephant conflict. The Asian Elephant Conservation Fund could 
provide desperately needed seed money and matching funds, in 
partnership with local and international groups, to greatly expand the 
range of activities to mitigate the struggle between people and 
elephants.
    3. Promoting effective law enforcement. WWF is also encouraged that 
the Act points out the need for projects to enhance compliance with 
CITES and other laws to curb the illegal taking and trade of Asian 
elephants. While the Asian elephant does not face the same degree of 
threat from trade as the African elephant, poaching for ivory, skin, 
and other parts continues, and the recent CITES downlisting of African 
elephant populations in Botswana, Namibia, and Zimbabwe must be 
monitored closely to ensure that there is no detrimental impact on 
Asian elephant populations. The Asian Elephant Conservation Fund would 
provide an opportunity to create or expand projects to strengthen 
compliance with CITES and to encourage greater participation by local 
communities in efforts to protect elephants. It also could support 
review and strengthening of elephant conservation legislation in the 
range countries as well as training of law enforcement personnel in 
methods for investigating and prosecuting violators. Anti-poaching 
patrol teams that monitor and protect elephants are an indispensable 
component of any elephant protection effort and are always in short 
supply. Such teams could be trained, armed and equipped by the fund.
    4. Promoting greater scientific understanding of the Asian 
elephant. As Dr. Sukumar's work illustrates, there remains a need for 
greater scientific understanding of the dynamics of Asian elephant 
populations and their conservation requirements. Using GIS and field 
surveys, researchers have identified some parameters and basic needs, 
but again, resources are scarce. This is another area directly 
addressed in the Act where support from the United States could prove 
immediately beneficial.
    Matching Funds. A common theme mentioned throughout has been the 
Act's role as a catalyst for generating matching contributions to Asian 
elephant conservation projects. As with the African Elephant 
Conservation Fund and the more recently established Rhino and Tiger 
Conservation Fund, we anticipate that a major component of the Asian 
Elephant Conservation Fund's success would be its ability to leverage 
funding from other sources. For example, since 1990, projects supported 
by the African Elephant Conservation Fund have received close to $6 
million in matching contributions, which surpasses the value of grants 
made directly from the fund. WWF has over 30 years of experience in 
Asian elephant conservation. Working in nine of the 13 range countries, 
WWF has invested close to $5 million in recent years in projects to 
protect Asian elephants and their habitat.
    Similarly in Asia, private conservation groups, local governments, 
and others have many ideas for programs and projects, but cannot bear 
the costs alone. With seed money or matching grants from the fund, 
however, many more such initiatives could be brought to life. WWF is 
encouraged that the legislation promotes such partnerships by giving 
priority to those projects with the potential for some measure of 
matching funds. Through the fund's well-conceived emphasis on small 
grants, cooperation with range countries and private partners, and a 
balanced set of priorities for on-the-ground projects, it will clearly 
have an immediate positive impact.
    Before concluding, Mr. Chairman, I would like to raise one 
cautionary note. WWF strongly believes that funds for an Asian Elephant 
Conservation Fund should not affect the modest funds currently 
earmarked for the African Elephant Conservation Fund or the Rhino and 
Tiger Conservation Fund. Though these species face some common threats, 
their situations also are distinct, and the ultimate success of efforts 
to save all of them will require individual attention and investment. 
Different habitat requirement, different threats to their survival, and 
different management needs all present a rationale for separate funds 
dedicated to the conservation of each species. Moreover, concern for 
the Asian elephant's survival is heightened in the aftermath of the 
CITES conference last month, the decisions related to possible future 
resumption of the ivory trade, and the potential impact on the Asian 
elephant. We urge the Congress to recognize that, while it has created 
a powerfully effective model by which the United States can contribute 
to the conservation of flagship and keystone wildlife species, the 
conservation benefits to each species will be compromised unless each 
receives a full and separate appropriation.
    Mr. Chairman, once again the international community finds itself 
in a position where quick action is the only hope for preserving two of 
the world's biologically and culturally important species. The Asian 
Elephant Conservation Act is a critical piece of legislation that WWF 
believes will greatly benefit this species and countless others which 
share its habitat. Similarly, the African Elephant Conservation Act, 
with its proven track record of successful on-the-ground projects, 
provides key support for countries desperately in need of conservation 
assistance. WWF salutes the sponsors of this legislation for showing 
important global leadership for the conservation of the world's wild 
elephants. We hope Congress will see the enactment Asian Elephant 
Conservation Act and reauthorization of the African Elephant 
Conservation Act as important and practical steps towards securing the 
future of these magnificent species for generations to come.

    KEY WWF PROJECTS FUNDED BY THE AFRICAN ELEPHANT CONSERVATION ACT

In Central Africa
    Central Africa is home to as many as a half of Africa's elephants--
the forest elephants. The establishment of protected areas in this 
region lags far behind that of southern and eastern Africa, and heavy 
poaching continues to pose a serious problem. Funding provided by the 
FWS has provided the impetus for the establishment of a network of such 
protected areas, and has leveraged funds from WWF and the Wildlife 
Conservation Society, as well as generous funding from the Dutch and 
German governments and the European Union. As a result, notable 
progress has been made in protecting the elephant populations in the 
region. WWF has been working in the following areas on the projects 
described below.

Dzanga-Sangha Dense Forest Special Reserve and Dzangha-Ndoki National 
        Park Central African Republic
    The southwestern region of the Central African Republic (CAR) 
contains the country's last stronghold of the diverse lowland tropical 
forest characteristic of central Africa, which is home to a significant 
population of elephants. The government of CAR and WWF have worked 
together to create a multiple use reserve (Dzangha-Sangha) and national 
park (Dzangha-Ndoki) to protect this unique ecosystem. This project 
seeks to integrate wildlife protection, tourism, research, training, 
rural development and preservation of the cultural integrity of the 
Baaka pygmies to conserve this valuable forest. The FWS has supported 
elephant protection, ecological monitoring and coordination in the 
Dzangha-Sangha project for nearly 6 years. The anti-poaching operations 
supported by FWS include a force of 30 guards and have resulted in a 
marked decrease in poaching and a significant increase in the elephant 
population, and the recorded density of 3. 18 elephants per square 
kilometer is one of the highest--if not the highest--ever recorded in 
the forests of Africa. Over 2,000 individual elephants have been 
observed at the Dzangha clearing, and only rarely are elephants shot in 
the park.
    A major focus of this project has been the participation of local 
people; it is one of the first conservation initiatives in the lowland 
tropical forests of Africa to integrate conservation with the needs of 
the rural poor. As such, it serves as an important prototype for future 
community conservation efforts in Central Africa, in which local people 
realize direct benefits from wildlife conservation.
    The objective of the project--to stop large scale poaching of 
elephants in the core area of Dzangha-Sangha--has clearly been reached. 
FWS support has made it possible to maintain an active anti-poaching 
effort that has resulted in an expanding elephant population--a 
situation that is unique in the central African region. Clearly, the 
steps that have been taken are working, and need to be continued in 
order to keep protecting this important elephant population.
Gamba Protected Areas Complex--Petit Loango Reserve Gabon
    In April 1990, WWF joined forces with the FWS to provide emergency 
support for the conservation of elephants and other wildlife in the 
Petit Loango Game Reserve in Gabon. The reserve has a great diversity 
of habitats and species, covering 500 square kilometers of seashore, 
mangrove, swamp and tropical forest. Established in 1966, the reserve 
is a priority site for elephant conservation.
    Recent increases in poaching for meat and ivory pose an immediate 
and severe threat to elephants in the reserve. Under this project, 
which is ongoing, an anti-poaching unit has been sent to patrol the 
area and to meet with rural communities to explain the problems 
associated with poaching. These measures are designed to give the 
government the time to develop a long-term conservation program for 
Petit Loango and adjoining areas in the entire 10,000-square-kilometer 
Gamba Reserve Complex. Emergency anti-poaching efforts such as those at 
Petit Loango are buying time--time needed to develop sound, long-term 
conservation and development programs that demonstrate conservation 
benefits to communities and, in so doing, enlist the critical support 
of local people to reduce poaching. Bangassou elephant censusing 
project Central African Republic
    Little information has been available on the status of elephant 
populations in the Bangassou forests of southern CAR, but there have 
been reports of high elephant density and heavy poaching in the area. 
The purpose of this project--which began 3 years ago, and is near 
completion--is to estimate the numbers and distribution of elephants 
and chimpanzees remaining in those forests, to assess the impact of 
ivory poaching, and to assess the general conservation potential of the 
forests. Such surveys and analyses are the precursors to establishment 
of protected areas.
    In Southern Africa: Elephant conservation problems in southern 
Africa are increasingly related to human-elephant conflicts, as 
elephant populations outgrow the available habitat within protected 
areas. However, poaching in parks, and disease outbreaks are still of 
concern and WWF has undertaken projects in the following areas.
Chobe National Park Botswana
    WWF assisted the government of Botswana through the preparation of 
an elephant management plan for Chobe National Park in 1994. Chobe 
National Park is one of the most significant protected areas in 
southern Africa. It has more that 400 wildlife species and protects 
habitat for one of the largest known elephant populations on the 
continent. Recent elephant population estimates for northern Botswana 
(with Chobe as an important core area) are 70,000--highlighting the 
importance of developing a management plan here.
Namibia Desert Elephants: anthrax outbreak
    In response to an outbreak of anthrax in Namibia in 1993, 
approximately 30 desert elephant were inoculated against the disease 
with emergency funding from FWS. The Namibian elephant population is 
one of the most mobile on the continent, and it is very easy for an 
infectious disease like anthrax to wipe out a large population in a 
very short time. Namibia has approximately 10,000 elephants chat could 
have been threatened by the disease had it not been caught in time. In 
addition, elephant populations in neighboring countries also could have 
been susceptible to the disease.
    In addition to protecting the entire elephant population of the 
region, it was particularly important to protect the small population 
of approximately 50 desert elephants, as this population is unique in 
that it has developed characteristics that allow it to survive in the 
desert.

Anti-poaching unit Zambia
    Zambia is home to approximately 25 ,000 elephants, and at the 
inception of this project in 1991, poaching was a serious threat. Under 
this project, WWF helped the Zambian government establish an anti-
poaching unit, which resulted in a significant breakthrough in the 
fight against poaching. Several poaching rings were broken and many 
individuals were arrested and prosecuted.
    The international headquarters for the World Wildlife Fund has also 
received support through the African Elephant Conservation Fund for 
projects in Cameroon to assess the impact of crop raiding elephants, 
and elephant related research in Kenya. In addition, the TRAFFIC office 
in Malawi, a joint program of WWF and IUCN, has received funds to 
monitor the ivory trade and has undertaken a survey to quantify 
existing ivory stockpiles. We would be pleased to provide the committee 
the details of these projects upon request.

The Future
    Priorities for future WWF projects for which we will seek funding 
under the African Elephant Conservation Fund will focus on surveys of 
elephant populations and establishment of additional protected areas 
for the forest elephants in central Africa. Central Africa is many 
years behind east and southern Africa with respect to the establishment 
of protected areas in which elephants can find refuge, yet as many as 
half of Africa's elephants live here. The Dzangha-Sangha project would 
serve as a model for future WWF work in the region. It would be our 
goal to establish a more expansive system of protected areas in central 
Africa and in doing so, to involve local communities and make them 
partners in the effort to protect elephants.
                                 ______
                                 
                                       World Wildlife Fund,
                                                 November 18, 1997.
The Honorable John H. Chafee, Chairman,
Senate Environment and Public Works Committee
Dirksen Senate Office Building
Washington, DC. 20510,

Dear Mr. Chairman: On November 4, I testified before the committee at a 
hearing on the reauthorization of the African Elephant Conservation Act 
and authorization of the Asian Elephant Conservation Act. At the 
hearing, The Humane Society of the United States (HSUS) made misleading 
and erroneous statements regarding use of monies from the African 
Elephant Conservation Fund by programs associated with World Wildlife 
Fund. I would like to take this opportunity to clarify these statements 
on behalf of World Wildlife Fund, and I would like for this letter to 
be included as part of the record.
    The Humane Society's written testimony by Dr. John Grandy notes on 
page ten that grants from the African Elephant Conservation Fund for 
two specific projects ``have been used to support or enable the 
resumption in the international trade in ivory and elephant trophy 
hunting.'' The HSUS claims that the first project mentioned, the IUCN 
report Four Years After the CITES Ban: Illegal Killing of Elephants, 
Ivory Trade, and Stockpiles, concluded that ``since the CITES ivory 
trade ban did not stop poaching completely, it therefore had failed.'' 
This is a false and misleading statement. Moreover, it ignores an 
overarching conclusion from the report: that, in real terms, African 
wildlife department budgets have declined dramatically--90 percent or 
more in some cases--since the 1989 ivory trade ban went into effect, 
and that this development has been a significant factor leading to 
continuing, and possibly increasing, elephant poaching in some 
countries. In addition, the data and analysis presented in the report 
stand as a reliable source of information on poaching and ivory 
confiscation trends, and they have not met with any credible published 
challenge.
    The Humane Society's testimony further states that African Elephant 
Conservation Fund monies provided to TRAFFIC's East/Southern Africa 
office were used to ``assist that office in the development of a 
database on ivory stockpiles. . . which allowed TRAFFIC East/Southern 
Africa to develop an `ivory stock database management system' that was 
used by the government of Zimbabwe to support its 1997 CITES proposal 
to resume trade in elephants form Zimbabwe.'' WWF would like to clarify 
that no funds from the African Elephant Conservation Fund have been 
used by TRAFFIC for the Zimbabwe ivory stock database project. AECA 
funds have been provided to TRAFFIC for a project to identify, 
register, and monitor ivory stocks throughout Africa. This initiative 
has not only aided implementation of CITES Conference resolutions and 
helped advance the African Elephant Range States Dialogue, it also has 
generally served to promote a climate of accountability and 
transparency for ivory stock management within Africa. While TRAFFIC 
has undertaken a capacity-building project with Zimbabwe's Department 
of National Parks and Wildlife Management to improve their ivory stock 
management capabilities, no AECA funds have been directed at that 
initiative.
    Finally, World Wildlife Fund would like to include for the record 
copies of two recent letters from the Kenya Wildlife Service which 
provide clarifying information on recent elephant poaching trends in 
that country, reports of which have been distorted in the press.
    Thank you for this opportunity to clarify these statements made in 
the testimony of The Humane Society of the United States, and to 
provide additional information to the committee. Please contact me at 
(202) 778-9605 if you have any questions.
                                            Ginette Hemley,
                           Director, International Wildlife Policy.
                                 ______
                                 
                                    Kenya Wildlife Service,
                                    Nairobi, Kenya, August 6, 1997.

TO: Nina Marshall
Re: Elephant Poaching

    The report you faxed to me from Ron Orenstein of the International 
Wildlife Coalition giving information on purported poaching of 
elephants in Kenya refers.
    During a meeting held on Monday, 4 August 1997 and attended by the 
Director and Security Chiefs of the organisation, it was reported that 
the information is incorrect and untrue. Kenya has a very sophisticated 
security system with special intelligence, investigation, and combat 
units spread all over the country. There is no way such activities 
would have gone unnoticed. We have done thorough checks on the round 
and have established that the information on the Internet is untrue. 
The KWS person quoted as the source of the information, Mr. Daniel 
Woodley, has denied that he gave out such data.
    KWS is disappointed that Mr. Ian Redmond and Simon Trevors did not 
make any attempt to verify the very alarming information before 
releasing it to such a wide circulation network.
    I hope I have clarified the position.
            Thank you.
                                             John Waithaka,
                                           Head, Species Programme.
                                 ______
                                 
                                    Kenya Wildlife Service,
                                   Nairobi, Kenya, October 9, 1997.

The Editor,
Sunday Telegraph,
United Kingdom.

Dear Sir: I wish to respond to a report by Brian Jackman and Greg Neale 
in the 5 October edition of the Sunday Telegraph that more than 40 
elephants have been poached in Kenya in the past six weeks, supposedly 
in response to a decision taken by CITES in July to downlist elephant 
populations in Namibia, Botswana, and South Africa from endangered to 
threatened status.
    The actual figures of elephants poached for meat as well as ivory 
since 1992, when good monitoring statistics began is: 1992--97; 1993--
124; 1994--87; 1995--47; 1996--76; 1997 to date--53. Despite an average 
figure before the CITES meeting, the average monthly figure has been 
less than 4, will below the 1992-96 average of 8. There has not, in 
other words, been an increase in ivory poaching in recent months or 
years, despite elephants increasing at over 1,000 a year and spreading 
further from the protection of parks since 1990.
    Kenya will make it known if there is any substantial change in 
ivory poaching rates.
            Sincerely,
                                             Davis Western,
                                                          Director.
                               __________

    Statement of John W. Grandy, Humane Society of the United States

    Good morning, Mr. Chairman and members of the committee. Thank you 
for providing The Humane Society of the United States (HSUS) with an 
opportunity to testify on S. 627, the African Elephant Reauthorization 
Act of 1997 and S. 1287, the Asian Elephant Conservation Act.
    I am Dr. John W. Grandy, Senior Vice President for The HSUS, this 
nation's largest animal protection organization, which has more than 5 
million members and constituents.
    Mr. Chairman, I wish to begin by thanking Senator Jeffords for his 
leadership over the years to enact legislation that protects the 
world's dwindling populations of elephants, rhinos and tigers. He has 
performed an invaluable service to Americans and others throughout the 
world by introducing these bills.
    The HSUS strongly supports the African Elephant Conservation Act 
and the Asian Elephant Conservation Act but maintains some reservations 
about the distribution of funds appropriated through Congress.
    Elephant species were once the dominant herbivores on most of the 
Earth's continents. Today, due primarily to climate change, only two 
species remain: the Asian elephant (Elaphus maximus) and the African 
elephant (Loxodonta africana). Although the two species are not related 
at the generic level and do not exist on the same continent, they share 
two common threats to their survival: habitat destruction and poaching 
for commercial purposes. As a result of these threats, wild populations 
of both species have declined precipitously over the past two decades. 
Asian elephant populations have declined from 75,000 to between 35,000 
and 45,000, while African elephant populations have declined from 1.3 
million to between 286,234 and 543,475 today (IUCN/African Elephant 
Specialist Group estimate).
    While steady progress is being made to secure and increase elephant 
habitat, the situation regarding poaching of African and Asian 
elephants has just taken a turn for the worse.
    In June 1997, over the objections of the United States and more 
than twenty members of the U.S. Senate, the Parties to the Convention 
on International Trade in Endangered Species of Wild Fauna and Flora 
(CITES) decided to reopen the international trade in elephants and 
their parts and products from three southern African nations. The 
decision allows Zimbabwe, Botswana and Namibia to export live elephants 
and hunting trophies and, as early as March 1999, to sell stockpiled 
ivory to Japan if nine conditions are met to the satisfaction of the 
CITES Standing Committee. The decision also allows Zimbabwe, but not 
the others, to export ivory souvenirs and elephant hide. As a result, 
as of September 18, live elephants, hunting trophies, and elephant 
hides may be imported to the United States as long as they are 
accompanied by a CITES export permit from one of the three 
aforementioned African countries. Under CITES, the U.S. government has 
no role in approving such imports. However, thanks to the African 
Elephant Conservation Act, ivory souvenirs are banned from import and 
hence, Americans at least are not contributing to the souvenir trade in 
elephant ivory.
    The HSUS would like to take this opportunity to thank the 23 
members of the Senate, including many members of this committee, for 
writing to Secretary of the Interior Bruce Babbitt on June 2, 1997, 
urging the United States to oppose the down-listing of the African 
elephant. Unfortunately, as predicted in your letter to Secretary 
Babbitt, the decision taken by the Parties may have already led to a 
surge in poaching of both African and Asian elephants. In just the past 
four months:
    <bullet>  LIn Ghana, two elephants were poached in Mole National 
Park. There had been no poaching in the Park since 1988. Source: Letter 
from B.K Volta-Tineh, Senior Wildlife Officer, Mole National Park, 28 
August 1997.
    <bullet>  LIn Kenya, as many as 40 elephants have been killed. 
Included are between six and fifteen elephants killed in the Mukukodo 
forest near Samuburu reserve and five elephants poached at Muge Ranch, 
a private reserve near Nairobi. Source: Associated Press, 2 October 
1997; The Sunday Telegraph (London), 5 October 1997.
    <bullet>  LIn Zimbabwe, six elephants were poached in July, as 
compared to an average of four per month in the six months prior to COP 
10, according to Willis Makombe, acting head of the Department of 
National Parks and Wild Life Management. Source: AFP 14 September 1997.
    <bullet>  LIn Namibia, at least two elephants were killed in the 
West Caprivi Game Park. Source: The Namibian, 23 July 1997.
    <bullet>  LIn Zambia, twelve elephants have been poached in the 
lower Zambezi. Source: David Shepherd Conservation Foundation.
    <bullet>  LIn the Central African Republic's Manavo Grounds St. 
Floris National Park, 95 elephants were killed by Sudanese poachers who 
carried the ivory to Sudan in a caravan of 114 camels. Source: 
International Fund for Animal Welfare, 29 October 1997; The Electronic 
Telegraph, 31 October 1997.
    <bullet>  LIn the Democratic Republic of Congo, forty Sudanese 
poaching camps were discovered in Garamba National Park and an aerial 
survey counted carcasses of 30 elephants. Source: International Fund 
for Animal Welfare, 29 October 1997.
    <bullet>  LIn Egypt, ivory tusks are being offered for sale in 
Cairo and the claim is that they are from Sudan (there are no wild 
elephants in Sudan). Source: Care for the Wild International.
    <bullet>  LIn India, prior to 1990, 100 Asian elephants were 
poached per year, and this decreased to only 30 per year between 1990 
and 1996 when the CITES ivory trade ban was in effect. But an estimated 
150 elephants were killed in India in the first seven months of 1997, 
representing the death of about 10 percent of the breeding population. 
Sources: East Asian Conservation Centre and the Wildlife Protection 
Society of India; Associated Press, 31 May 1997.
    <bullet>  LIn The Netherlands, five Chinese citizens, traveling 
from Nigeria to Hong Kong, were intercepted at the airport in Amsterdam 
carrying a ``huge quantity'' of ivory and hides of protected animals. 
Source: AFP, 19 August 1997.
    <bullet>  LIn Taiwan, 130 kilograms of ivory were seized by police. 
The ivory was shipped from South Africa to Taiwan and was destined for 
Hong Kong and China. Source: CNA Daily English News Wire, 29 June 1997.
    Mr. Chairman, these accounts are hauntingly reminiscent of the 
circumstances under which the African Elephant Conservation Act was 
passed. In 1987 when Congress first considered the Act, and in 1988 
when the Act was passed, Americans had become alarmed by reports on the 
rapid decline of African elephant populations due to the ivory trade.
    <bullet>  LElephants numbers had dropped from about 1.3 million in 
1979 to only 700,000 by 1988 and were declining by about 10 percent per 
year; by 1989 there were only about 600,000 elephants; today there are 
between 286,234 and 543,475 African elephants remaining, according to 
the IUCN/SSC African Elephant Specialist Group.
    <bullet>  LIn 1986 approximately 100,000 elephants were killed to 
satisfy the worldwide demand for ivory and at least 10,000 of those 
were used to supply the ivory for jewelry and other trinkets purchased 
by American consumers.
    <bullet>  LElephants had virtually disappeared from some areas of 
Sudan, Chad, the Central African Republic, and Zaire. In the Selous 
Game Reserve in Tanzania, elephants declined by 50 percent between 1977 
and 1986; in Tsavo National Park in Kenya there was a 75 percent 
decline between 1972 and 1988.
    <bullet>  LThe average weight of a tusk being exported from Africa 
had declined from 35 pounds in 1979 to only 13 pounds in 1988, 
indicating that poachers were turning to younger and younger elephants, 
a particular concern since elephants do not reach sexual maturity until 
their early teens and then reproduce very slowly. In 1988, about 10-15 
percent of tusks exported weighed less than 1 pound--tusks of infant 
elephants. Entire generations of older elephants were being wiped out 
by the ivory trade.
    <bullet>  LThe Parties to the Convention on International Trade in 
Wild Fauna and Flora (CITES) had, in 1985, instituted a ``CITES Ivory 
Control System'' to regulate the ivory trade through marking of ivory 
and establishment of country-specific ivory export quotas. However, by 
1988 the System was clearly failing to halt poaching and illegal trade 
because it was not implemented and enforced by CITES Paries. Experts 
agreed that about 80 percent of ivory in trade in 1988 was taken from 
poached elephants.
    <bullet>  LThe prices paid for ivory increased from $2.25 per pound 
in 1960 to $68 per pound in 1988, indicating that ivory was being used 
as a commodity, like gold and silver, as a hedge against inflation. 
Elephants were being victimized by an upward spiral of supply and 
demand: the higher the price, the more elephants were slaughtered.
    Mr. Chairman, as you know, the African Elephant Conservation Act 
was passed primarily to address the ivory trade that was clearly, 
irrefutably driving elephants to extinction.
    The Act, while expressing a desire to give the CITES Ivory Control 
System a chance to work, put in place a mechanism whereby the United 
States could unilaterally decide to stop the importation of ivory into 
the United States if it was discovered that this System was failing to 
control the ivory trade. In June 1989, eight months after the Act was 
passed, the Bush Administration imposed a ban on the importation to the 
United States of African elephant ivory under the provisions of the 
Act. At the time, the United States was one of the major markets for 
elephant ivory; about 30 percent of the ivory in trade was consumed by 
Americans.
    This preceded by four months, and made a significant political 
contribution to, a decision by the more than 100 Parties to CITES, 
including the majority of African elephant range states, to ban the 
international commercial trade in ivory in October 1989. The reason 
that the Parties decided to ban the international commercial trade in 
ivory was that, despite an internationally coordinated CITES Ivory 
Control System, the trade proved uncontrollable and was driving 
elephants to extinction. The ivory trade was uncontrollable because it 
is highly lucrative for dealers who are highly organized, heavily 
armed, and well-connected to politicians who look the other way for a 
price; because elephants are largely unprotected in most of Africa and 
are so easily poached; and because Africa's destitute poverty makes it 
easy for dealers to find people willing to risk their lives to poach 
elephants. The ivory trade harmed both elephants and local people, 
while making a few ivory dealers and corrupt politicians rich.
    Mr. Chairman, The HSUS sadly wonders how many more African and 
Asian elephants will be lost before it becomes clear that the down-
listing the three populations of the African elephant under CITES was a 
mistake?
    An additional concern is that, once ivory from the ivory stockrooms 
of Botswana and Zimbabwe is sold to Japan, there will be room for new 
ivory from culled elephants. Both Botswana and Zimbabwe claim enormous 
problems with human-elephant conflict and growing elephant populations 
which are causing people to ask for a political solution to crop-
raiding elephants. In culling operations, entire elephant families are 
gunned down; traumatized infants are pulled away from their dying 
mothers and sold to circuses and zoos. The ivory is stockpiled, hide 
sold to make shoes and briefcases, and the meat is sold to crocodile 
farmers. As a result of the CITES decision, hides and infant elephants 
resulting from such culls could be imported to the United States. The 
HSUS opposes elephant culling as a means to control elephant 
populations and suggests a humane alternative, which we will address in 
the second half of our testimony.
    Although the United States is not a member of the CITES Standing 
Committee (which will be evaluating whether the nine criteria that 
would allow Botswana, Namibia, and Zimbabwe to export ivory from their 
stockpiles to Japan have been met), the Senate should urge the U.S. 
Department of the Interior, Fish and Wildlife Service, to take whatever 
measures are possible to ensure that: 1) the CITES Panel of Experts 
confirms that enforcement and ivory trade control deficiencies are met 
by both the exporting countries and Japan; 2) all African and Asian 
elephant range states have been given an opportunity to comment before 
any commercial ivory export is permitted; 3) any mechanisms developed 
for re-listing the three populations of the species on Appendix I can 
be implemented quickly in the event of an increase in elephant 
poaching; 4) the Interpol Wildlife Crime Subgroup is involved in 
monitoring illegal ivory trade; and 5) the process is transparent and 
participatory.
    Mr. Chairman, The HSUS also fully supports the portion the African 
Elephant Conservation Act that has set up the African Elephant 
Conservation Fund to support projects on research, conservation, 
management, or protection of African elephants. However, we have 
concerns about some of the types of projects funded under the Act which 
we will elaborate on in detail in our testimony. But first, I would 
like to describe for you some of the conservation, protection and 
research projects related to African elephants that are currently 
funded by The HSUS.
    In 1993, we provided a $10,000 grant to the Owens Foundation for 
Wildlife Conservation for their work on the North Luangwa Conservation 
Project (NLCP) in Zambia and we have continued to leverage about 
$30,000 for the Foundation each year through private granting agencies. 
The HSUS considers the NLCP to be a model program for combining 
wildlife conservation with development of rural African communities 
without resorting to consumptive use of wildlife.
    In 1986, Mark and Delia Owens established the NLCP to rehabilitate, 
conserve and develop the 2,400 square mile North Luangwa National Park 
in Zambia. At that time, 1000 elephants were being killed in the Park 
each year by commercial meat and ivory poachers. In the previous 15 
years, up to 100,000 elephants had been poached in the Luangwa Valley. 
Wildfires set by poachers had burned over 80 percent of the Park's 
vegetation every year. If left unprotected, North Luangwa would be 
sterilized by 1996.
    The Zambian government had limited resources to protect or develop 
the Park. Therefore, the Owenses' first priority was to decrease 
poaching by improving the efficiency of the government Game Scouts. New 
equipment, housing, training and incentives were provided to the 
Scouts. After working closely with these men for years, the North 
Luangwa Scouts have been declared the best in Zambia.
    At the same time the Owenses developed a plan to involve the local 
people in the conservation of their greatest resource, their wildlife. 
Poaching was the primary industry in the area, providing more jobs and 
more sources of protein than any other. Therefore, the Owenses began a 
Community Development Program of the NLCP that established small 
sustainable businesses that offer basic goods and services to the local 
people and provide alternative legal jobs to poachers. These services 
are not a free handout. Each business is based on the free enterprise 
system and the initial start-up loan must be repaid to the project so 
that new businesses can be started in the village.
    In the past, many of the villagers could obtain ground corn, their 
staple diet, only by trading poached meat for it. Now the NLCP grinding 
mills provide this service for pennies and, at the same time, offer 
employment to millers, mechanics and bookkeepers. Villagers used to 
poach bush meat to trade it for cooking oil, a much prized commodity in 
rural Africa. NLCP has taught them to grow sunflower seeds and press 
oil using simple seed presses. Again, poaching is replaced by 
sustainable legal trade. Other cottage industries that have provided 
jobs, food or services to the local people are carpentry shops, sewing 
co-operatives and cobbler shops. In some villages, small shops are 
opened to provide simple goods to villagers such as matches, soap and 
salt. Farmers are assisted with seed loans, transportation and 
technical assistance. More than 2000 families in the NLCP target area 
are benefiting from NLCP's Community Development and Agricultural 
Assistance Programs.
    The Owenses established the NLCP Conservation Education Program in 
fourteen remote villages near the National Park. Many students had 
never seen a color photograph and schools lacked the most basic 
supplies. The NLCP Education Officer visits schools monthly, weather 
permitting, offering a 500-volume mobile library, curriculum 
guidelines, school supplies, wildlife slide shows (powered by a 
gasoline generator), lectures, projects and contests. Forty-eight 
American schools participate in a conservation oriented exchange 
program with NLCP's students, exchanging letters, art work, reports and 
essays. American schools sent school supplies, books and donate 
magazines. These Zambian students will not grow up to be poachers.
    NLCP's Rural Health and Family Planning Program teaches hygiene, 
first aid, preventative medicine, family planning and advanced clinical 
techniques to village medics. NLCP has trained and equipped 48 
``Traditional Birth Attendants'' to assist the pregnant women in the 
villages near the Park. The Attendants also teach AIDS prevention, 
early childhood development and nutrition to the women of their 
villages.
    The ultimate goal of the NLCP is to ensure that tourism development 
in North Luangwa National Park will have a low impact on the 
environment and return revenue to the local villagers. Once the local 
villagers are benefiting legally from the National Park through 
tourism, there will be even less incentive to poach. The Owens have 
worked with the Zambian government to develop a plan for tourism in the 
Park.
    The NLCP has been very successful. When the Owenses arrived, 1000 
elephants were being poached each year. Between September 1994 and June 
1997 not one had been poached. However, after nearly 6 years of almost 
complete protection, the elephant population of North Luangwa has not 
increased. This argues strongly for continued protection for the 
African elephant under a CITES moratorium on trade in elephant parts 
and continued funding by the U.S. government for research, management, 
protection, and conservation of African elephant populations. Twenty 
elephants have been collared with radio transmitters and aerial data is 
being obtained to chart their movements, habitat usage, and more.
    Likewise, the people near the Park no longer have to poach to feed 
their families. Over 2000 families, many of whom were once involved 
with poaching, now have legal, sustainable jobs. Leaders from villages 
outside the NLCP range are now coming to the Owenses and requesting 
their advice on how to start programs such as those implemented by the 
NLCP.
    It is sad to note that, although for many years the Owens 
Foundation has applied for funding for the NLCP from the African 
Elephant Conservation Fund, and has apparently met all of the criteria 
for funding under the Act, the project has inexplicably not been funded 
to date. The NLCP operates on a comparatively small budget of 
approximately $500,000 per year, which is provided by the Frankfurt 
Zoological Society of Germany and the Owens Foundation for Wildlife 
Conservation. This is a successful project, which is conserving 
wildlife, including elephants and helping people, is worthy of funding 
under the Act.
    In January 1997, HSUS along with Humane Society International 
(HSI), signed a US$1 million, 5-year agreement with the National Parks 
Board (NPB) of South Africa to conduct a study on the use of immuno-
contraception as a means for controlling reproduction in elephants and 
humanely controlling the size and growth of elephant populations. 
Additionally, under the agreement, The HSUS/HSI will develop, promote 
and conduct ecotourism programs in South Africa. The NPB will undertake 
to extend the range of elephants in South Africa and will use the 
contraception program to control elephant population sizes if it is 
shown by research to be safe, feasible, economic, and appropriate. 
Additionally, the NPB will examine and implement other means of 
reducing conflicts between elephants and other wildlife and human 
interests, including fencing, and translocating elephants to other 
parks and protected areas in South Africa.
    The elephant contraception experiment is being conducted in Kruger 
National Park, which is home to over 8300 elephants. Within the Park's 
fenced boundaries, rangers have culled about 600 elephants each year in 
an attempt to maintain a population of 7500 elephants. But widespread 
opposition to culling has led South Africa to consider alternative 
means for controlling elephant populations and providing more habitat 
for elephants. In May 1995, after a public debate on the Kruger 
National Park's elephant management policy, the NPB undertook a review 
of that policy. The NPB announced that no elephants would be killed in 
Kruger National Park in 1996, although the NPB retains its policy to 
allow elephants to be killed when necessary as a last resort. The 
moratorium has been extended through 1997.
    The HSUS/HSI is sponsoring the program which is being conducted by 
a team of scientists from Zoo Montana, the Medical College of Ohio, the 
University of Georgia, and the University of Pretoria in South Africa. 
Dr. Jay Kirkpatrick, HSUS consultant for contraception and director of 
science and conservation biology at Zoo Montana, is leading the 
scientific research team. These organizations have joined with the 
South African NPB to administer a contraceptive vaccine to elephants in 
Kruger National Park.
    This vaccine, the PZP (porcine zona pellucida) immunocontraceptive 
vaccine, was first developed in the 1970's, and works by stimulating 
the immune system to produce antibodies that block pregnancy. Since its 
development, PZP has been tested and adopted by the National Park 
Service for management of wild horses on Assateague Island National 
Seashore, Maryland; successfully tested by The HSUS and the Bureau of 
Land Management on wild horses in Nevada; successfully tested by The 
HSUS in collaboration with the National Park Service on white-tailed 
deer at Fire island National Seashore, New York; and is currently being 
used on over 90 species in 60 zoos and aquaria throughout the world.
    Before allowing this technique to be tested on wild, free-ranging 
African elephants, the research team vaccinated three female zoo 
elephants with PZP. These elephants, which were not mated, showed the 
strong immune response to the vaccine that is required for successful 
contraception. Before taking the vaccine into the field, the research 
team also showed that antibodies produced in response to the PZP 
vaccine would prevent sperm from attaching to elephant eggs in the 
laboratory.
    Between October 2 and 12, 1996, the research team and staff from 
Kruger National Park captured, radiocollared, and treated with PZP 21 
adult female elephants in Kruger. Twenty additional animals were 
radiocollared but left untreated to act as controls. Before treatment, 
non-pregnancy of each animal in the study was confirmed with 
ultrasound. In November 1996, the 21 experimental animals were 
successfully given booster shots using PZP-containing darts fired from 
an airborne helicopter. The research team delivered a third shot to 
treated elephants in June 1997. We emphasize that, for the purposes of 
this research, once the elephants have been marked the vaccine can be 
delivered without ever capturing them again.
    Unfortunately, there has been some confusion between The HSUS/HSI 
sponsored immunocontraception project and a concurrent elephant 
contraception project being carried out in Kruger National Park by a 
German team from the Institute for Zoological and Wildlife Research in 
Berlin. This team placed implants containing a six-month supply of the 
steroid hormone estrogen in the ears of a sample of adult female 
elephants. The HSUS/HSI and our research team strongly opposed this 
project, because, among other reasons, we believed that the estrogen 
implants would lead to prolonged and sustained estrus in implanted 
females. We have received preliminary reports from our colleagues at 
the University of Pretoria that just such an effect is being seen among 
the elephants treated by the German research team. We stress, however, 
that no such indications have been reported for the PZP-treated 
elephants.
    By early 1998, our research team will carry out pregnancy tests on 
the PZP-treated and untreated control elephants to determine the 
effectiveness of the PZP immunocontraceptive vaccine.
    Should the vaccine prove effective as an elephant contraceptive, 
there are several reasons that it could be a useful management tool for 
free-ranging elephants. First, it can be delivered directly from the 
air without capturing the elephant. Second, the vaccine itself should 
be relatively inexpensive to produce. Third, non-pregnant females can 
be distinguished from the air with 85-90 percent accuracy by the age of 
calves accompanying them, a technique whose effectiveness was confirmed 
with ultrasound during the initial captures. Clearly, further research 
would be required to refine the vaccine, assess its effects on elephant 
health, reproduction, and behavior, and develop efficient techniques 
for delivering the vaccine to significant numbers of elephants.
    Nevertheless, The HSUS/HSI feels that the PZP immunocontraceptive 
vaccine offers the promise of a practical, cost-efficient, humane 
alternative to the barbaric practice of destroying these magnificent, 
sensitive, and complex animals.
    Finally, Mr. Chairman, in reviewing the African Elephant 
Conservation Fund, The HSUS is distressed to learn that monies from the 
fund have been used to support or enable the resumption in the 
international trade in ivory and elephant trophy hunting.
Ivory trading
    <bullet>  LFunds provided to the IUCN African Elephant Specialist 
Group (AESG) were used to support, in part, production of the widely 
criticized 1995 report, Four Years After the CITES Ban: Illegal Killing 
of Elephants, Ivory Trade and Stockpiles, which claimed that since the 
CITES ivory trade ban did not stop poaching completely, it therefore 
had failed.
    <bullet>  LFunds provided to WWF enabled them to open an office of 
TRAFFIC in East/Southern Africa and to assist that office in the 
development of a database on ivory stockpiles. The ivory stockpile 
database allowed TRAFFIC East/Southern Africa to develop of an ``ivory 
stock database management system'' that was used by the government of 
Zimbabwe to support its 1997 CITES proposal to resume trade in 
elephants from Zimbabwe. In addition, the Director of this TRAFFIC 
East/Southern Africa was one of the primary authors of the 
aforementioned controversial report, Four Years After the CITES Ban.
    It should be noted that, since 1989, the United States has 
supported the CITES ban on the international trade in ivory. 
Ironically, this negotiating position may have been undermined by these 
products of grants provided under the African Elephant Conservation 
Act. in addition, it should be noted that IUCN already receives funding 
in the amount of US$1 million per year from the State Department, which 
is as much as the annual U.S. contribution to the CITES treaty.
Trophy Hunting
    <bullet>  LSafari Club International (SCI) received an $85,000 
grant ``to provide training in rural communities in the setting and 
monitoring of sustainable off-take hunting quotas, especially for 
elephants'' (quote from the grant agreement). The project Is a 
component of Zimbabwe's CAMPFIRE program which is based primarily on 
elephant trophy hunting. CAMPFIRE also is one of the most vociferous 
opponents of the CITES ivory trade ban and worked diligently to 
undermine the U.S. negotiating position on elephants at the June CITES 
meeting. Finally, it is important to note that when this African 
Elephant Conservation Act grant was provided to SCI in 1995, the 
CAMPFIRE program had already received at least $5 million in aid from 
the U.S. Agency for International Development (USAID). This is five 
times the amount the African Elephant Conservation Fund receives 
annually from Congress. The HSUS considers USAID's and the African 
Elephant Conservation Fund's contributions to CAMPFIRE to be a waste of 
American taxpayer dollars.
    <bullet>  LSCI received a $36,000 grant ``to promote better 
wildlife management in the Republic of Tanzania through the use of 
standardized quotas that is designed to increase trophy hunting 
quality'' (quote from the grant agreement).
    <bullet>  LSCI received a $84,240 grant to conduct a survey of 
Tanzania's elephant populations because ``better wildlife management 
will produce better animals that are available for trophy hunting'' 
(quote from the grant agreement). A survey was also necessary to 
fulfill the requirements of the Endangered Species Act for the 
importation to the United States of elephant trophies from Tanzania. A 
second grant was given to SCI for ``Phase II'' of this project.
    Mr. Chairman, elephant trophy hunting is opposed by 84 percent of 
Americans (according to December 1996 nationwide poll conducted by Penn 
& Schoen Associates Inc.). The same percentage of Americans oppose U.S. 
foreign assistance being used for this purpose. None of the scarce 
funds available under the African Elephant Conservation Act should be 
used to promote or enable elephant trophy hunting. Trophy hunting is an 
industry like any other that should not receive government subsidies in 
the guise of conservation.
    The HSUS is concerned that funds available under the Asian Elephant 
Conservation Act will be used to promote consumptive use of Asian 
elephants, including trade and trophy hunting. There is certainly a 
demand for live Asian elephants in the public display industry, for use 
as breeders, performers or for display. Asian elephant ivory is widely 
traded in Asia. Although the import of Asian elephant hunting trophies 
is currently not allowed, SCI has urged the Service to allow the 
importation of trophies of even rarer species such as cheetahs, a 
critically endangered species with fewer than 10,000 individuals 
remaining in the wild. The U.S. Fish and Wildlife Service recently made 
a non-detriment finding for the import of cheetah trophies from 
Namibia, although it has not yet issued any import permits for such 
trophies. The HSUS speculates that if the Service supports trophy 
hunting of this rare species, Asian elephants cannot be far off.

                             RECOMMENDATION

    The Senate should amend the African Elephant Conservation Act and 
Asian Elephant Conservation Act, or provide guidance to the Department 
of the Interior, to ensure that funds from the Acts do not support 
projects or programs: a) that advocate or enable the ivory trade; b) 
that are based on, promote, or enable elephant trophy hunting or other 
elephant-based industries; or c) that promote or enable captive 
breeding of elephants other than for release in the wild.
    Thank you, Mr. Chairman and members of the committee for this 
opportunity to share with you our views about the African Elephant 
Conservation Act and the Asian Elephant Conservation Act.
                               __________

   Statement of Stuart A. Marks, Director of Research and Community 
                 Development, Safari Club International
    Mr. Chairman and members of the committee, we appreciate the 
opportunity to testify before you today.
    My name is Stuart Marks. I am Director of Research and Community 
Development for Safari Club International. I have a Ph.D. in animal 
ecology and have taught anthropology. Having grown up in rural central 
Africa where my parents were medical missionaries, I have spent some 30 
years researching community uses of wildlife and assessing community-
based wildlife programs. More to the point, I am the project 
administrator for a successfully completed African Elephant 
Conservation Act Grant. Support to CAMPFIRE in Zimbabwe on behalf of 
SCI and have been associated with the grant since the inception of this 
project.
    Safari Club International strongly supports S. 627, the 
reauthorization of the African Elephant Conservation Act. In addition, 
SCI supports the passage of S. 1287, the Asian Elephant Conservation 
Act. The money appropriated under the authorization of these two Senate 
bills goes to the Secretary of the Interior for the administration of 
funds in support of conservation goals for a species which we all 
believe is important. We would like to thank Senator Jeffords for his 
leadership on these significant issues as well as you Mr. Chairman for 
holding this hearing. While SCI supports the passage of both bills, our 
testimony today will focus specifically on the African Elephant 
Conservation Act and the ways in which our organization has enhanced 
elephant conservation in Africa.
    Currently, SCI administers two ongoing African Elephant 
Conservation Act (AECA) grants in Tanzania. In addition, SCI has just 
successfully completed another grant in Zimbabwe. I begin with the 
Zimbabwe project for it allows us to specify concrete outcomes and 
goals supported under the AECA grant program and to clarify SCI's 
objectives for participating in these significant conservation 
projects.
    The Zimbabwe AECA grant is for $85,000 in support of the CAMPFIRE 
program [CAMPFIRE stands for Communal Areas Management Programme for 
Indigenous Resources whose objectives and goals are determined by 
residents within Zimbabwe]. The total project exceeds $150,000 in costs 
and is collaboratively administrated by SCI in conjunction with 
Zimbabwe's Department of National Parks and Wildlife Management 
(DNP&WLM), the CAMPFIRE Association, World Wide Fund for Nature (WWF), 
and Zimbabwe Trust (ZimTrust). The project was initiated by 
conservation concerned citizens within the host country who in terms of 
skill, resources, and time contributed far more to the project than the 
above monetary figures indicate. So my first point is to indicate that 
these grants facilitate cooperative efforts among a range of host 
country organizations which participate together to conserve elephants 
and their habitats.
    Secondly, by demonstrating that harvesting of small quotas of 
wildlife can restore and maintain an appropriate balance in 
biodiversity, CAMPFIRE programs demonstrate that local management of 
wild resources, coupled with property rights and economic incentives, 
do serve the interests of both human development and biodiversity 
conservation. CAMPFIRE programs not only provide economic incentives to 
tolerate and sustain wildlife, in this case particularly elephants, but 
also help erase the stigma of earlier colonial institutions while 
promoting those of rural development. The Zimbabwe AECA grant provides 
the means by which local communities can make their own assessments and 
evaluations of wild resources as they are empowered through 
institutions to sustain these processes. The ultimate aim of CAMPFIRE 
is for wildlife, including elephants, to be managed at the community 
level. Given the colonial and centralized past history of wildlife 
management, this decentralization is indeed a lofty and progressive 
goal. To succeed, several key elements must be in place. Notable among 
these elements are suitable methodologies to assess the size of the 
resources, the setting and monitoring for appropriate quotas, as well 
as other activities such as wildlife protection, habitat management and 
ultimately the marketing of products to pay the ``opportunity cost'' 
for conservation to the community. The outputs from this project are 
impressive: the writing, fieldtesting, and production of quota setting 
and teaching exercise manuals that are readily understood by villagers. 
The project held 13 workshops in 10 districts attended by some 363 
participants. Upon returning to their respective wards and villages, 
these participants are expected to train a cadre of local managers to 
assess, set quotas, and protect wildlife habitats and populations.
    SCI is an organization of conservationists who hunt. Just as 
sportsmen continue to pay for conservation in our own country, SCI's 
contributions make possible conservation and management of wildlife in 
many lands. In addition to the millions of dollars which our members 
contributed directly through the purchases of hunting licenses around 
the globe, we spend millions of dollars nationally and interntionally 
on conservation projects. At indicated by our projects under the AECA 
program, elephant conservation is one of our organization's primary 
objectives.
    Unlike other African countries, elephant populations in both 
Zimbabwe and Tanzania, which are both hunted populations, have 
increased in recent years. Attention to assessing elephant populations 
and allowing quota offtakes from these populations (mainly bulls and 
rogue animals) allows for sustainable uses and support for conservation 
programs. That's what the two AECA grants in Tanzania are about.
    The initial AECA grant in Tanzania is for $84,240 which is to help 
fund a basic survey of that country's elephant populations, which may 
turn out to be the largest in Africa. The total cost for this project 
is for $216,110, the balance of which, like that for Zimbabwe, is made 
up by resources and contributions from other donor and host 
organizations. This grant finds an aerial survey in three specific 
areas completing the collection of data which will provide a new 
baseline for elephant populations within Tanzania.
    The second grant in Tanzania is for $36,050, with a total project 
costs of over $60,000. This pilot program is to train government game 
scouts to gather elephant information which is pinpointed 
geographically using a hand-held Global Position System. Once trained 
in this methodology, these scouts accompany safari hunting parties into 
the field at the expense of the. hunter and accurately record important 
biological information useful for conservation purposes. Donor 
agencies, such as GTZ and conservation organizations, have adopted this 
approach as a model and use it elsewhere. A second grant of $25,950 
(out of total project cost of $69,200) has been allocated to increase 
the number of scouts trained. Besides teaching game scouts about 
biological parameters, they also learn about these populations from the 
standpoint of trophy quality (one aspect of economic importance to 
conservation funding). This is important because it maximizes the 
revenues that can be obtained from the sustained use of this natural 
resource, while minimizing the biological impact of the program. The 
revenues generated through the legal hunting of elephants are a key 
incentive to conservation, both at the national and local levels.
    The African Elephant Conservation Act was enacted to conserve 
elephants. In cooperation with various conservation organizations and 
ministries, this program provides both means and incentives for African 
range nations to actively manage their natural resources including 
elephants. As demonstrated by these four grants administered through 
SCI, the U.S. Fish & Wildlife Service is appropriately addressing the 
concerns of rural people and the needs of the elephant, both of which 
will lead to the elephants survival.
                               __________

     Sport Hunting of Elephants: An Asset for Wildlife Conservation

                          THE CASE OF ZIMBABWE
Brief Summary
    As the largest land-mammal, elephants present particular challenges 
to conservationists. Not only do they require large areas, they can 
transform these environments. Whether they Inane with elephants or at a 
distance, people are differently disposed towards these magnificent 
mammals. Reconciling these human differences demands creative 
management.
    Unlike elsewhere in Africa, elephant numbers in southern Africa 
have risen dramatically. These increases have occurred despite offtakes 
from culls and from sport hunting. Sport hunting is selective and takes 
only a small portion of an elephant population. As a lucrative 
industry, safari hunting requires limited investments in capital and 
infrastructure yet is capable of generating large amounts of revenue 
for national and local economies. Through programs such as CAMPFIRE, 
this revenue reaches villagers where it supports and sustains 
enterprises and developments in rural areas.

The Challenge

    Elephants are marvelous and wonderful creatures. Like people, they 
are dominant land mammals with great abilities to modify the structures 
and compositions their environment as well as to influence the well-
being of other species with which they co-exist. \1\ High densities of 
elephants generate rippling effects throughout an ecosystem. Elephants 
can cause reduced biological diversity together with losses in 
productivity and in soils. \2\ Elephants can generate substantial 
wealth through ecotourism and sport hunting or contribute to depressive 
poverty through their depredations on local agriculture. \3\
---------------------------------------------------------------------------
    \1\ Ngoma, L. Elephants and termites destroy vegetation. The 
Zimbabwe Herald, April 7, 1997; p. 4.
    \2\ Laws, R.M., I.S.C. Paper, and R.C.B. Johnstone (1975) Elephants 
and Their Habitats. Oxford: Claredon Press.
    \3\ Hoare, R. (1994). Towards a problem animal control strategy 
involving communal land safari operators. pp. 19-33 in M.A. Jones (ed.) 
Safari Operations in Communal Areas in Matabeleland. Harare: Dept. of 
National Parks and Wild Life Management Hoare indicates that Problem 
Animal Control (PAC) is a perennial issue in Zimbabwe. In Binga 
District, PAC type incidents were 78 percent crop damage, 9 percent 
threats to humans, 3 percent property damage, and 10 percent livestock 
damage. Elephants alone accounted for 87 percent of these reports. 
Safari operators and sport hunters are often called upon to kill these 
difficult animals and to help compensate for human losses.
---------------------------------------------------------------------------
    People around the world are divided in their commitments to 
elephants--at either extreme, they either love or hate them. Most 
urbanites in the Western (Northern) world tend to value elephants 
positively by ascribing to them benign traits similar to their pets. 
Rural Africans, who live and make a living from environments where 
elephants occur, describe these large creatures im different terms. For 
them, elephants are capricious pests, destructive of property, food, 
and lives yet whose existence as a sustainable and renewable resource 
may offer mitigating circumstances for co-existence. Any sustainable 
management of elephants must reconcile these polarities in human. 
commitments, activities, and values. These negotiations are pivotal for 
establishing a new balance between human and environmental spheres in 
Africa. Such a balance involves rethinking many of the older ideas and 
preconceived ``truths'' while providing a framework for evaluating the 
differing circumstances within each management situation. Both require 
money and commitment.
    Parks and reserves are neither static nor isolated islands. Through 
time, both their habitats and species change. Elephants and other 
wildlife frequently range beyond these borders. Consequently, the 
number of elephants in any protected area depends upon its neighboring 
humans' opinions and tolerance. Adjacent landowner and commonly 
attitudes are conditioned by their past histories as well as by their 
evaluations of the benefits/losses of having elephants around.
    A widespread is that communities of rural people will tolerate 
elephants and other wildlife only if they receive more benefit than 
they suffer from its presence. \4\ Projects exploring these links 
between conservation and development have been established and 
supported by foreign donor assistance in a number of African countries. 
To name a few, countries with active community based management 
programs include Botswana, Zambia, Zimbabwe, Namibia, Tanazania. \5\
---------------------------------------------------------------------------
    \4\ Murphree, M W. (1994) The role of institutions in community-
based conservation pp. 403-27 IN David and Weston and R.M. Wright 
(eds.) Natural Connections: Perspectives in Community-Based 
Conservation. Washington: Island Press.
    \5\ For example, see Kiss, A. (ed.) (1990) Living with Wildlife. 
Wildlife Resource Management with Local Participation in Africa. 
Washington, DC: The World Bank, Brown, M. and B. Wyckoff-Baird (1992) 
Designing Integrated Conservation and Development Projects. Washington: 
DC. Biodiversity Support Program and World Wildlife Fund: International 
Institute for the Environment and Development (199?) Whose Eden? An 
Overview of Community Approaches to Wildlife Management. London: IIED 
and Overseas Development.
---------------------------------------------------------------------------
    In many parts of southern Africa, the financial returns from 
wildlife viewing outside of protected areas is insufficient to promote 
conservation and management practices there. \6\ On the other hand, 
safari hunting of selected elephant provides sufficient financial 
returns for conservation particularly on private lands. \7\ How hunting 
generated funding is used, which people benefit, end whether these 
revenues are adequate to ensure attitudes promoting the survival of 
ecosystems and wildlife on communal lands are the contentious issues.
---------------------------------------------------------------------------
    \6\ Child G. (1995) Wildlife and People: the Zimbabwean Success. 
Harare and New York: WISDOM Foundation.
    \7\ Jansen D. I. Bond, and B. Child (1992) Cattle, Wildlife, Both 
or Neither: Results of a Financial and Economic Survey of Commercial 
Ranches in Southern Zimbabwe. WWF Multispecies Animal Production 
Systems Project Report. Harare. 203 pp.
---------------------------------------------------------------------------
    Within Zimbabwe, CAMPFIRE \8\ was developed to give rural 
communities direct responsibility for managing their natural resources. 
The main source of revenue generated by this program is through safari 
sport hunting, particularly that of elephants. \9\ This paper reviews 
recent information on the safari hunting of elephants within Zimbabwe, 
and briefly elsewhere, to document its current contribution to and 
potential for wildlife conservation and management.
---------------------------------------------------------------------------
    \8\ CAMPFIRE is the acronym for the Communal Areas Management 
Programme for Indigenous Resources--a major program which seeks to link 
rural development and biodiversity conservation.
    \9\ Ninety percent of the income for the 12 districts constituting 
CAMPFIRE between 1989 and 1992 came from sport hunting, 62 percent from 
the sport hunting of elephants. see Bond, I. (1994) The importance of 
sport-hunted African elephants to CAMPFIRE Zimbabwe TRAFFIC Bulletin 
14(3), 117-18.
---------------------------------------------------------------------------

Population histories of some southern African elephants

    Within southern Africa, elephants have experienced different 
histories which are expressed in their current population structures. 
In Zimbabwe, the elephant population has steadily increased for almost 
100 years. In 1900, this population was estimated at 4,000 animals. 
\10\ By 1960, there were 32,700 elephants and by 1988 their numbers had 
reached 52,000 animals. This rate of increase was achieved. despite the 
fact that some 44,500 elephants were culled during this interval to 
prevent them from damaging the habitat in some areas. \11\ An aerial 
survey in 1995 estimated approximately 64,000 elephants within 
Zimbabwe. \12\ In contrast, elephants within both Tanzania and Zambia 
have recently experienced declines during the 1980's. \13\ At least in 
Tanzania, elephant numbers appear to have stabilized and show slight 
increases for the 1990's. \14\ In both of these latter countries, the 
elephant population is currently comprised mostly of the younger age 
classes for both sexes. Elephant populations increase and decrease for 
many different reasons. Most authorities agree that habitat destruction 
(in competition with humans) and illegal hunting are the most prominent 
causes for these recent decreases. \15\
---------------------------------------------------------------------------
    \10\ This estimate ts based on numbers and potential rates of 
increase, see Cumming, D.H.M. (1981) The management of elephant and 
other large mammals in Zimbabwe. pp. 164-181 in Jewell, PA, S. Holt. 
and D. Hart (ed.) Problems in Management of locally Abundant Wild 
Animals. New York: Academic Press.
    \11\ Martin, R.G., C. Craig, and V. Booth (1989) Elephant 
Management in Zimbabwe. Harare: Department of National Parks and Wild 
Life Management, Zimbabwe.
    \12\ Price Waterhouse (1995). Elephant Census Review in Zimbabwe, 
1980-1995. An Analysis and Review. Commissioned report by Government of 
Zimbabwe. The numbers of elephants removed from these herds is from 
Child. G. (1995) p. 95.
    \13\ Leader-Williams, N., S.D. Anon. and P.S.M. Berry (1990) 
Illegal exploitation of black rhinoceros and elephant populations: 
patterns of decline, law enforcement and patrol effort in Luangwa 
Valley, Zambia Journal of Applied Ecology 27:1055-1087.
    \14\ Personal Communication, Ministry of Natural Resources and 
Tourism. Republic of Tanzania.
    \15\ A recent analysis shows that both the illegal ivory trade and 
reduced carrying capacity were causing declines in the elephant 
populations of Africa and both needed their appropriate resolution. see 
Millneur-Guilland, E.J. and J.R. Beddington (1993) The relative effect 
of hunting and habitat destruction on elephant population dynamics over 
time. Pachyderm 17:75-90. See also Sugal, Cheri (1997) The price of 
habitat (In southern Attica, the increasing conflicts between elephants 
and humans is raising painful questions about cohabitation on a crowded 
planet) World-Watch (May/June): 18-27.
---------------------------------------------------------------------------
Impacts of Sport Hunting on Elephants

    Under CITES \16\, export quotas for elephants, which are currently 
placed on Appendix 1, are set by each range country for numbers of 
tusks taken by sports hunters. \17\ The current number of elephants for 
annual export from Tanzania is 50 (or 100 tusks) while that from 
Zimbabwe is 300 (600 tusks). The legal numbers of elephants taken by 
sports hunters and exported from either of these countries has never 
exceeded this quota and for most years has been well below this figure. 
\18\ This information makes clear that sport hunting takes relatively 
small numbers of elephants.
---------------------------------------------------------------------------
    \16\ CITES is the acronym far Convention on International Trade in 
Endangered Species of Wild Fauna and Flora. Its secretariat notifies 
the Parties each year of their export quotas of wild species. See for 
example, CITES notification to the Parties. Export Quotas for 1996, 
dated 20 June 1996.
    \17\ The importing country determines whether or not to allow 
elephant trophies and tusks into its territory. For example, the United 
States currently allows its citizens to import elephant trophies from 
five countries: Zimbabwe, South Africa Namibia, Botswana, and Tanzania.
    \18\ In Tanzania, the CITES export quota has remained at 5O 
animals. From 1990 through 1994, the following consecutive elephants 
were shot by sport hunters 16, 12, 17, 23, 29 (Tanzania Dept. of 
Wildlife. see Table 3 in C.A. Mlay (1997) The history of the Tanzania 
ivory trade pre-Appendix I and the international ivory trade ban Mimeo 
paper from African Elephant Conference (Johannesburg, May 4-7, 1997). 
Based upon a quota of 300, Zimbabwe's annual take by sport hunters 
since 1984 (through 1992) has been as followers: 10, 13, 214, 190, 182, 
199, 143, 186, 259 (Source: Zimbabwe Dept. NP&WLM).
---------------------------------------------------------------------------
    The overwhelming majority of elephants taken by sports hunters are 
adult males. As their quarries, sports hunters prefer to select bulls 
which are past their prime breeding age and which spend most of their 
time either alone or in bachelor bands. The assumption is that these 
older males have contributed their traits and genes to the succeeding 
generations. \19\ Other students of animal behavior question this 
assertion about trophy hunting. Their perspective begins by noting that 
elephants have an extremely skewed operational sex ratio with 
comparatively few suitable breeding males compared with the numbers of 
potentially receptive females. They argue that hunting for trophies may 
be weakening the genetic constitution of an elephant population by 
eliminating its most fit males while disrupting the transmission of 
critical survival skills to succeeding generations. \20\ This issue 
over the relative values of older bulls has yet to be resolved, and may 
remain a bone of contention between two very different human 
perspectives.
---------------------------------------------------------------------------
    \19\ For example, Child (1995: pp. 207-208) cites the assumption 
and questions it, particularly for some antelopes such as sable and 
tsessebe, where the larger males establish breeding territories.
    \20\ The argument runs as follows: Males reach sexual maturity at 
about 12 years of age. They are forced out of the matrilineal herds 
because neither the adult cows nor bulls will tolerate them. 
Subsequently, young bulls join others of their sex to form bachelor 
bands for many years. Bulls begin to compete for estrus females when 
they come into musth at about 30 years of age. After several years of 
``sneak matings'' when larger bulls are distracted or not present, the 
bulls enter a stage when they are more successful in breeding. Females 
preferentially mate with bulls aver 40 years of age, the age class also 
preferred and taken by trophy hunters: Therefore, the natural scarcity 
of these older males in elephant populations causes trophy hunters to 
have a much larger impact on a population than a percentage figure of 
take per population indicates. see Moss. C. (1988) Elephant Memories: 
Thirteen Years in the Life of an Elephant Family. New York: Fontana: 
Poole, J. (June 1989) The effects of poaching on the age structure and 
social reproductive patterns of selected four African elephant 
populations: final report to the African Wildlife Foundation. African 
Elephant and Ivory Information Service No. 2.
---------------------------------------------------------------------------
    Afar more serious problem is how to keep renumbers within an 
appropriate demographic balance within an environment. Elephants grow 
and mature slowly. While a significant component, mature adults 
normally constitute only a small proportion of an elephant population. 
One cannot reduce a wild population by taking males exclusively. The 
numbers of adult cows and juveniles of various ages and stages must be 
also managed--either by culling certain random groups or transporting 
them for release elsewhere. For elephants, either of these and other 
options are expensive and demand long range planning and strategic 
capabilities within wildlife management agencies. \21\ Choice of 
actions depend upon the. decisions made in the range countries as to 
their purposes sought through management.
---------------------------------------------------------------------------
    \21\ Some implications of these culling possibilities are discussed 
in Child (1995: p. 195). A recent experiment of the Humane Society of 
the United States to effectively sterilize adult cows has ended in 
failure. See Project Backfires, Zimbabwe Herald (April 24, 1997) in 
which this experiment on cow elephants implanted with estrogen hormones 
in Kruger National Park ended when bulls perceived them to be in 
permanent extrus, or ``heat.''
---------------------------------------------------------------------------
    A country can manage its elephants and other wildlife species for 
many reasons. These reasons may range from cultivating maximum numbers 
of some species to preserving environments favorable for sustaining 
biological diversity. If a choice is made for high densities of 
elephants, caution must be exercised to prevent the collapse of 
habitats that occurred in Tsavo National Park during the 1960's and 
1970's. \22\ In the 1980's, Zimbabwe intentionally intervened in Hwange 
National Park to save its habitats from destruction from too may 
elephants. \23\ Hithertofore, Zimbabwe's elephant management objectives 
have been to ``have healthy populations of elephant in well conserved 
ecosystems in parks and reserves and as many elephants outside as the 
land can support and the landowners accept. \24\
---------------------------------------------------------------------------
    \22\ Parker I. and M. Amin (1983) The Ivory Crisis. London: Chatto 
and Windus
    \23\ see review of Ron Thomsan's new book, Mahohboh, by Brian Marsh 
in Man Magnum (June 1997) pp. 24-29.
    \24\ Child (1995): 97.
---------------------------------------------------------------------------
Contributions of Sport Hunting to National Economies

    In 1991, Safari Club International commissioned a survey to 
investigate the impacts of sport hunting of African elephants on 
conservation-based economic development, species management, and anti-
poaching in selected African countries. \25\ Both elephant hunters and 
government management agencies were. surveyed, primarily through 
questionnaires. Sport hunters are also tourists. In both their hunting 
and tourist activities, they contribute immense sums to national 
economies. For example in; 1991, elephant hunters estimated on average 
that they each spent US$42,595 during their stays in Tanzania and 
US$42,120 while in Zimbabwe. Of this amount US$4,040 was spent on 
government license and export fees in Tanzania and US$6,000 in 
Zimbabwe. These government fees went directly back into elephant 
management and conservation Beyond these government levies, each 
elephant harvested was estimated to enhance the national economy by ova 
US$42,000. \26\ Each respondent was convinced that their elephant 
pursuits contributed significantly also to the economic well-being of 
local humus where they hunted. The table below shows the estimated 
revenue streams in selected countries from this survey.
---------------------------------------------------------------------------
    \25\ Safari Club International (1992) African Elephant: Critical 
evaluations and recommendation on proposed elephant endangered status 
and special rule. Report implented by Domestic Technology 
International. Tucson, Arizona, mimeo.
    \26\ data from SCI (1992); Table 3.

                                                   Elephant Range State Sport Hunting Revenues (1991)                                                   
                                                                 (From 1992 SCI Survey)                                                                 
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                              Average amount per     Total revenue for  
           Range country                   CITES quota        Hunter permits issued    Animals harvested             hunt                elephants      
--------------------------------------------------------------------------------------------------------------------------------------------------------
Namibia............................  32....................  18....................  11...................  $54,934..............  $604,274             
S. Africa..........................  16....................  10....................  N.A..................  $41,128..............  $411,280             
Tanzania...........................  50....................  18....................  17...................  $42,595..............  $724,115             
Zimbabwe...........................  250...................  150...................  150..................  $42,120..............  $6,318,000           
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Similar gross calculations indicate the large amounts of incountry 
revenue generated through sports hunting. Using the number of game 
hunting permits issued in Tanzania and average daily costs, total 
earnings in Tanzania show an increase from US$4.6 million in 1988 to 
almost US$14 million in 1992. \27\ Some national estimates have also 
been made for the contributions of the wildlife sector to the 
Zimbabwean economy. In 1992 all wildlife sectors contributed Z$852 
million of the national economy (or about 3 percent of total Gross 
National Product). Sport hunting alone contributed some Z$52 million, 
all in foreign currencies. \28\
---------------------------------------------------------------------------
    \27\ returns from Tourist hunting in Tanzania. Tanzanian Ministry 
of Tourism and Wildlife, mimeo. See also Bonner, R (1993) At the Hand 
of Man: Peril and Hope for Africa's Wildlife. New York: Vantage.
    \28\ Jensen, D. (1992) The role of wildlife in the economy in Price 
Waterhouse and Environmental Resources, LTD, Wildlife Management and 
Conservation Project, Task 2: The Role of Wildlife in the Economy. 
Report prepared for the Department of National Parks and Wildlife 
Management, Zimbabwe.
---------------------------------------------------------------------------
    Hunting and associated industries generate and contribute to many 
jobs both in rural and urban areas. One estimate is that the multiplier 
effect of hunting is 1.69--meaning that for every dollar invested. in 
hunting, downstream economic activates increase by 1.69. \29\ The SCI 
sponsored survey showed that the average number of local people 
employed on each hunt was 18. This employment of rural people provided 
some US$10,800 in wages in addition to US$5,400 given in other goads 
and services. These hunting tourists also spent (on average per hunt) 
US$1,650 on internal transportation, US$1,115 on meals and lodging, 
US$2,680 on taxidermy, and US$1,000 on other purchases. In 1996, 
Chipimbi Safaris of Chiredzi estimated that for its hunts for plains 
game (lasting less than 10 days), safari operators spent daily Z$500 
for the professional hunter, $200 on food and drinks, $200 on camp hire 
per client, and about $100 on consumables.
---------------------------------------------------------------------------
    \29\ Kay, D. (1992) Zimbabwe Tourism Development Programme, 
Regional Market Analysis. Special report prepared for EXA (Paris: 
France). This same report suggests that tourism contributes 3.5 percent 
of the GDP and employs about 36,500 people.
---------------------------------------------------------------------------
Flow of Sport Hunting Revenues through CAMPFIRE

    Prior to CAMPFIRE, the legal contributions of wildlife to 
Zimbabwean rural economies were small. On most of Zimbabwe's communal 
lands, visibility for wildlife viewing is poor, transport is difficult, 
comfortable amenities few. These inaccessible conditions tend to favor 
sport hunting, provide greater financial returns per non-resident 
individual, and create less disturbance on biological and cultural 
landscapes than does typical tourism. \30\ The annual gross revenue 
earned from wildlife is one of the key indicators used to describe the 
performance of CAMPFIRE program at the national level. Between 1989 and 
1994, CAMPFIRE districts gained a total of Z$33,999,070 in revenues 
from wildlife uses. Of these funds, 93 percent came from sport hunting 
and only 2 percent from tourism. \31\ On communal lands, the sport 
hunting of elephants contributed the most value. In 1992, elephant 
hunting contributed over 62 per cent of CAMPFIRE revenues. \32\
---------------------------------------------------------------------------
    \30\ The tradeoffs between ecotourism and sport hunting are 
discussed in Bonner (1993): pp. 239-250.
    \31\ From CAMPFIRE Association Newsletter, Economics and Markets, 
July 1996.
    \32\ Bond, L. (1994) The importance of sport-hunted African 
elephants to CAMPFIRE in Zimbabwe. TRAFFIC Bulletin 14 (3) 117-118.
---------------------------------------------------------------------------
    The main source of revenue to the CAMPFIRE program is from sport 
hunting contracts with private sector operators. The attachment (Figure 
1) shows the main channels through which these funds flow from the 
sports hunting consumer down to the producer wards and their specified 
apportionments at different levels.
    The CAMPFIRE program began in 1989 by granting ``appropriate 
authority'' to manage wildest to Guruve and Nyaminyami Districts. The 
number of CAMPFIRE districts increased to 12 by 1991 with a further 12 
districts added in later years. Between 1989 and 1993, the number of 
wards increased from 15 to 92 and numbers of households from 7,861 to 
over 90,000. The annual revenues from wildlife increased from Z$743,699 
in 1989 to Z$13,999,070 in 1994 (with 93 percent from sport hunting) 
\33\.
---------------------------------------------------------------------------
    \33\ Bond I. (1996, Joy) CAMPFIRE economic and markets CAMPFIRE 
Association Newsletter.
---------------------------------------------------------------------------
    The early guidelines for the allocator of gross revenues under the 
CAMPFIRE program allowed for a 15 percent retention as a Rural District 
Council levy, for 35 percent to wildlife management and for 50 percent 
devolvement to the producer communities. In 1992, the Department of 
National Parks and Wild Life Management (DNP&WLM) revised these 
guidelines so that 80 percent of revenues was for allocation to the 
producer communities with 15 percent retained within the District for 
wildlife management and 5 percent charged as a levy. The allocation of 
CAMPFIRE revenues from 1989 to 1993 averaged as follows: disbursed to 
the producer communities 54 percent; for management 22 percent; for 
Council 14 percent; Allocated 7 percent, and other uses 3 percent. \34\ 
In 1995, the allocations showed that 62 percent of funds were dispersed 
to ward and village communities, with the following amounts retained by 
District Council--18 per cent for management activities, 5.3 percent 
for Council, 1.8 per cent for CAMPFIRE dues and 12.9 percent 
unallocated. Districts themselves varied from 50 to 79 percent in the 
amounts of funds disbursed to their ``producer communities''. \35\
---------------------------------------------------------------------------
    \34\ Anon (nd) The Zimbabwean experience: the distribution of 
benefits under the CAMPFIRE programme, 25 pp. mimeo (obtained from 
CAMPFIRE Collaborative Committee)
    \35\ Anon (1996?) CAMPFIRE Programme Expenditure Statement (1989-
1995) ``Producer Community'' has a special meaning. Revenues from sport 
hunting are generally disbursed in those wards where mammals ar killed.
---------------------------------------------------------------------------
    Determining household benefits from CAMPFIRE is not a simple, 
straightforward task Under the CAMPFIRE program, the ward (groups of 
villages defined on the basis of population) by default has become the 
standard unit of benefit as villages are generally too small in area to 
maintain viable wildlife lands and too weak institutionally to form 
effective natural resource management institutions. Although same wards 
retain the option for household dividends, most revenues are used for 
ward projects. The numbers of households, and the distribution of human 
settlements within wards, often means that the wildlife benefits are 
diluted among a large number of households which neither live with nor 
impact upon wildlife. \36\
---------------------------------------------------------------------------
    \36\ Anon. (nd)The Zimbabwean experience.
---------------------------------------------------------------------------
Contributions of Sport Hunting to Rural Communities

    Although ``cash on the table from wildlife'' may be CAMPFIRE's most 
impressive symbol benefits from wildlife, as a commons resource, accrue 
mainly to rural communities at the level of the ward. \37\ While still 
an option, cash payments to households are rare. \38\ Given the 
national scope of CAMPFIRE, household benefits are not only difficult 
to measure, they are also misleading. \39\
---------------------------------------------------------------------------
    \37\ Quote is from Child, B. (1991) CAMPFIRE s rural development: 
the Beitbridge experience. Joint Publication of DNP&WM and CASS, 
Harare: Zimbabwe, 89 p.
    \38\ Of the Z$10 million paid to ward between 1989 and 1993, only 
10 percent was paid directly to households. see also Anon (nd) An 
assessment of the financial benefits to households from CAMPFIRE.
    \39\ One way has been to divide the ward dividend by the number of 
households which yields a figure representative of the financial 
benefit per household. This is not a measure of revenues distributed to 
households (which those units can use at will) and it presumes that all 
households benefit equally from the ward dividend. In wards wit low 
human densities, the potential for generating revenue from wildlife use 
may be substantial, however, this likely benefit is considerably reduce 
with a small increase in human population. Anon. (nd) An assessment of 
financial benefits.
---------------------------------------------------------------------------
    A recent review of wildlife and cattle production systems in rural 
areas showed that, for most CAMPFIRE areas, wildlife revenues can only 
supplement traditional agro-pastoral activities. \40\ This paper 
suggests that an analysis of community benefits must go beyond the 
individual level of formal economic tools to understand the many 
factors influencing the economics and effectiveness of wildlife as a 
competitive enterprise in rural districts. Rural economies are not 
completely monetarised and social and kinship networks play an 
important role in how livelihoods and survival strategies are 
constructed. In rural areas, cattle are the main competitor for range 
resources and these domesticated species are individually owned with 
benefits accruing directly to households. Yet, the CAMPFIRE program 
through its important contributions in building schools, electric 
fences, clinics, cattle dips, employment, and road maintenance, has 
contributed substantially to developing rural economies.
---------------------------------------------------------------------------
    \40\ Bond, I. (1993) The economics of wildlife and land use in 
Zimbabwe: an examination of current knowledge and issues. WWF Project 
paper No. 36, Harare, Zimbabwe.
---------------------------------------------------------------------------
    Each rural village elects its own development committee chairperson 
who sits on various ward committees. Some. wards have kept records of 
funds received and disbursed. These cash flow maps are revealing for 
the progressive learning inherent through the CAMPFIRE experience. 
Nenyunga Ward is comprised of 12 villages. In 1994, this ward earned 
Z$78,000 from wildlife. The committee allocated its revenue as follows: 
Z$43,760 for maintenance and wages of the electric fence around its 
homes and cultivations, Z$3000 for a school project Z$2160 for a dam, 
Z$3320 for road maintenance, and Z$5149 for meeting allowances, and the 
balance for other activities including, travel and subsistence. \41\ 
Madzivadzvido Ward reported that it had spent the following amounts: 
for a caretaker Z$3,600, for labor compensation Z$1000, for anti-
poaching Z$2000, for meeting allowance Z$3,240, for uniforms Z$4,000, 
for ward administration Z$7000, for transect counting of wildlife 
Z$1,080, and for fence maintenance Z$21,688. In addition, this ward had 
disbursed Z$29,000 to build a school, Z$49,800 to purchase and resell 
maize, Z$6,000 to purchase fence materials, Z$7,591.5 to replace stolen 
solar panels, and Z$45,000 to build a diptank. Flowing into rural 
communities, these revenue streams from sport hunting enable people 
living there to use their entrepreneurial skills to sustain and improve 
their livelihoods within these capacious and often difficult 
environments.
---------------------------------------------------------------------------
    \41\ Anon (nd) Nenyunga Ward: Project: Analysis and Planning 
Workshop: 15-16 August 1995. mimeo.
---------------------------------------------------------------------------
                                 ______
                                 
                                    Africa Resources Trust,
                                                  November 6, 1997.

Hon. John Chafee, Chairman
Environment and Public Works Committee,
United States Senate,
Washington DC.

Dear Senator Chafee: Further to the Senate Committee on Environment and 
Public Works Subcommittee on Drinking Water, Fisheries and Wildlife 
Hearing on the African and Asian Elephant Conservation Acts on November 
4 1997, I would like to submit the following comments and documents for 
the record.
    My comments relate specifically to claims made by the Dr. John 
Grandy of the HSUS before the committee of increases in elephant 
poaching since the CITES downlisting of the elephant populations of 
Zimbabwe, Botswana and Namibia and comments relating to the CAMPFIRE 
programme in Zimbabwe.
    In relation to CAMPFIRE, having spent from 1990-1996 working for 
CAMPFIRE in Zimbabwe, I would point out that there is no direct 
relationship between CAMPFIRE and the ivory trade as implied in the 
HSUS testimony. CAMPFIRE is a conservation and rural development 
programme which has resulted in notable benefits for some 2 million 
rural Zimbabweans and has led to a dramatic increase in elephant 
numbers. The attached CAMPFIRE Fact Sheet provides some examples of the 
positive impact of this programme. CAMPFIRE has been endorsed as a 
leading conservation programme by over 40 renowned US conservation 
organizations and recently received an overwhelming endorsement from 
the House of Representatives in the form of a rejection of an amendment 
aimed at disrupting it.
    In relation to the claims that there has been widespread poaching 
in Africa since the Parties to CITES downlisted the three Southern 
African populations of elephants. Prior investigations of the alleged 
incidences used to substantiate this claim has shown that many are 
based purely on rumor and speculation, with little if any attempt being 
made in verification, and are, not surprisingly, wrong. For example, 
the attached letters from the Kenya Wildlife Service concerning the 
allegations of increased poaching in Kenya state at these allegations 
are ``incorrect and untrue.'' Similarly, the allegations made 
concerning increased poaching in Zimbabwe are incorrect. Further, 
accurate and reliable Research undertaken by WWF and IUCN has 
illustrated that since 1994 there has been an [crease in elephant 
poaching throughout Africa. To attribute every case of poaching now 
occurring to the CITES downlisting ignores the experiences of the last 
3 years.
    These reports of increased poaching have been compiled by the 
Environmental Investigation Agency (EIA) which has established a data 
base ``to monitor any poaching or movement of illegal ivory throughout 
the world.'' As the attached EIA letter indicates, the information 
sources used in the compilation of this data base include ``radio, 
television, print news coverage or even anecdotal'' with no efforts 
being made to verify these. Whether this data collection method is 
adequate to ensure objective, rigorous scientific evaluation of 
poaching trends is questionable and may result in more misleading 
reports. This perpetuation of wild claims and inaccurate rumors about 
increases in elephant poaching is irresponsible in the extreme and 
could actually lead to increases in poaching as ivory traders will be 
led to believe that a market for ivory has reopened.
    Parallel to this EIA initiative is the ongoing trade monitoring and 
reporting process of TRAFFIC international, under the auspices of the 
IUCN and WWF, particularly through its Bad Ivory Data System (BIDS). 
TRAFFIC intend to expand and refine this system as the appropriate 
instrument for measuring the pattern and scale of the illegal trade in 
ivory. TRAFFIC has established rigorous protocols for data collection 
and analysis and is approaching this issue with objectivity and 
impartiality.
    Grants made under the auspices of the African Elephant Conservation 
Act have in the past contributed to some of the most successful 
elephant conservation initiatives in Africa. These have included those 
made to CAMPFIRE. Grants made to TRAFFIC have enabled the ivory trade 
to be monitored in a scientifically rigorous manner. Given the recent 
downlisting, the impartial scientifically rigorous monitoring of 
elephant poaching and ivory trade trends and causalities will be 
essential over the next years if viable elephant management strategies 
are to be developed further. Further assistance to TRAFFIC will ensure 
that this is undertaken.
    I would urge your continued support for the full range of 
conservation tools that are currently supported under the African 
Elephant Conservation Act. Several of these, such as support to 
CAMPFIRE and TRAFFIC have already proven that they are effective 
elephant conservation strategies. Only through this process of testing 
all available options will the optimum conservation strategies 
ultimately be identified and implemented.
            Yours sincerely,
                                                  Liz Rihoy
                                        Director, Washington Office
                                 ______

                                 
                          CAMPFIRE: THE BASICS

    The biggest threat facing African wildlife today is the 
disappearance of its habitat, which is leading to a drastic reduction 
in wildlife numbers across the continent. The CAMPFIRE program in 
Zimbabwe addresses this problem by promoting both conservation of 
wildlife and human development. Its aim is to ensure that wildlife has 
an economic value for local people thus providing them with an 
incentive to share the land faith wildlife. The implementation of the 
CAMPFIRE program is currently supported primarily by the United States 
Agency for International Development (USAID). Despite the fact that 
CAMPFIRE is internationally recognized for its conservation and 
development achievements, animal rights groups in the United States are 
aggressively campaigning to prevent further USAID support because 
trophy hunting is involved in some areas. This campaign ignores the 
benefits to individual species, wildlife habitat, and approximately 2 
million of Zimbabwe's most poverty stricken populace that have occurred 
since the beginning of the program.
    U.S. AID support.--From 1989 to 1994, USAID gave $7.6 million in 
funding to the program. At that time, four Rural District Councils were 
involved. USAID has since pledged $20.5 million for the period between 
1994-1999, to expand the program to a total of 26 of Zimbabwe's 54 
districts. Whilst USAID is the primary donor, Germany, the European 
Union, Japan, the United Kingdom, Norway and the Netherlands have all 
provided donor assistance to specific geographical districts, bringing 
total program expenditure over the 10 years from 1989-99 to 
approximately $33 million. Drawing upon their experiences with 
CAMPFIRE, many of these donors are now supporting similar programs in 
other countries.
    Habitat Recovery.--Habitat destruction and degradation have been 
reversed in many parts of Zimbabwe. In 1980, 12 percent of Zimbabwe was 
devoted to wildlife management, all within officially designated 
protected areas. Today, 33 percent of the land is under wildlife 
management. The entire increase has occurred outside of protected 
areas. and has substantially contributed to biodiversity conservation.
    Wildlife Population Increases.--The elephant population in Zimbabwe 
has increased from 45,000 in 1980 to 66,000 today and is currently 
increasing at a rate of 3,000 per year, or 5 percent of the population. 
Many other species, such as the crocodile and buffalo, are also 
experiencing similar increases.
    People Affected.--In Zimbabwe alone, approximately 2 million people 
are receiving direct financial benefits from CAMPFIRE, allowing them to 
move away from their previous position of dependency on aid to a 
position of self-reliance. The success of the program is now being 
replicated elsewhere with similar initiatives in Botswana, Namibia, 
Malawi and Zambia. South Africa, Mozambique, Kenva, Cameroon and Uganda 
are currently implementing pilot programs along CAMPFIRE principles. 
These similar initiatives are enabling many millions of people other 
than the direct beneficiaries of the USAID CAMPFIRE grant to achieve 
self-reliance.
    Support of U.S. Conservation Community.--Mans of the leading 
conservation agencies in the United States have written strong letters 
of support to USAID for their continued support of CAMPFIRE. These 
include, but are not limited to, the World Wildlife Fund (WWF), the 
National Wildlife Federation (NWF), the African Wildlife Foundation 
(AWF), Biodiversity Action Network;, the Wildlife Conservation Society 
(WCS), the International Union for the Conservation of Nature (IUCN), 
Paul Ehrlich of Stanford University, Safari Club International (SCI) 
and the Chicago Zoological Society/Brookfield Zoo. Letters have also 
been received from representatives of the development and biomedical 
communities.
    What the media says.--CAMPFIRE has generated considerable 
international media interest with positive reports appearing in 
Newsweek, US News and World Report, the Economist and the Wall Street 
Journal, to name but a few.

  WHAT THE EXPERTS SAY ABOUT CAMPFIRE. ITS SISTER PROGRAMS AND USAID 
                                FUNDING

    ``. . . everything I know about the CAMPFIRE program tells me that 
it is world class. Its strategy for the sustainable harvesting of 
elephant populations for the benefit of both the elephants and local 
people has my full support, and that of my colleagues in conservation 
biology. . . . even the most casual analysis tells one that, in the 
case of the elephants, the CAMPFIRE programme is on the right side and 
the HSUS is on the wrong side.'' Paul Ehrlich, Stanford University.
    ``By allowing people to derive a direct economic benefit through 
the sustainable utilization of their own resources, the dependence on 
foreign aid is broken. . . . CAMPFIRE has helped establish that 
environmental protection and wildlife conservation can help to improve, 
and are indeed essential to improving, the quality, of human life. 
Therefore in the interest of wildlife, the environment, and people, we 
urge you not only to maintain your support for CAMPFIRE, but to help 
expand programs like it in the future.'' Barbara Bramble, National 
Wildlife Federation. ``The only way to save wildlife and wildlands, 
especially in poverty-ridden areas, is to provide human beings with 
incentives to save nature. Most conservationists have come to accept 
this. Those who oppose it have yet to come up with an alternative that 
works. We sincerely hope that as CAMPFIRE matures, certain changes will 
occur. But to cut the AID funding to CAMPFIRE, will only engender more 
human poverty and suffering as well as enormous losses of African 
wildlife and habitat.'' Mike Wright, African Wildlife Foundation.
    ``By working with people on communal lands to take marginal 
agricultural and grazing lands and turn them to economically productive 
use, CAMPFIRE attempts to provide people at the local level a better 
livelihood. Furthermore, by providing land for wildlife outside of 
resee es and national parks, CAMPFIRE and its sister programs in other 
countries produce a real conservation benefit.'' John Robinson, 
Wildlife Conservation Society.
    ``I applaud USAID's support of community based natural resource 
management programs in Africa, as these programs are vital to 
conservation of biodiversity. I strongly encourage you to continue to 
fund these important conservation initiatives.'' Dr. George Rabb, 
Chicago Zoological Society.
    ``Community-based management of natural resources. . . . is proving 
to be effective in both substantially improving the quality of the 
lives of the people. . . . and in providing strong incentives for the 
rural people to conserve the resources I applaud USAID's investment in 
rural community management of renewable natural resources in Africa and 
strongly endorse continuation of your funding for these important 
initiatives.'' David McDowell, IUCN, The World Conservation Union
    ``Through the NRM program, USAID has become a world leader in 
supporting innovative efforts to understand the complex relationship 
between conservation and development. Conservationists recognize that 
without incentives for humans to conserve wildlife and their habitats 
animals and the environment will lose. In the interests of wildlife and 
the people of Southern Africa, the regional NRM Program deserves 
continued support.'' James Leape, World Wildlife Fund.
    ``CAMPFIRE is an organization that proves that humans and wildlife 
can coexist and flourish. CAMPFIRE not only reflects the basic tenets 
of the United States' wildlife policies, but exemplifies the highest 
goals and successes possible through America's involvement in foreign 
developments. CAMPFIRE deserves our continued national support, 
admiration and respect.'' Robert Easterbrook, Safari Club 
International.
                               __________

                    Environmental Investigation Agency Ltd.
                                   London, England, August 1, 1997.

    As you will now be aware the elephant downlisting proposals 
submitted by Namibia, Botswana, and Zimbabwe were adopted at a recent 
meeting of the tenth Conference of the Parties to CITES in Harare, 
Zimbabwe. The Environmental Investigation Agency is very concerned that 
the limited legal trade that will be allowed in 21 months time will 
give cover to an increased illegal trade and an escalation in poaching 
will result.
    EIA is therefore assembling a database to monitor any poaching or 
movement of illegal ivory trade throughout the world. To ensure that we 
have complete up-to-date information and gain an accurate global 
picture we need to hear from you if there are any incidents of 
poaching. Illegal trade in ivory or ivory seizures so that we can 
accurately record the information and build a complete picture of the 
situation. All sources of information will remain confidential if you 
so wish.
    Information could be from radio, television, print news coverage or 
even be anecdotal. All information or communication should be directed 
to me, Steve Trent, or my assistant, Sara Wheeler, at the Environmental 
Investigation Agency, 15 Bowling Green Lane, London ECIR OBD. Tel: +44-
171-490-7040; FAX: +44-171-490-0436.
    It would also be useful to have your organisation's full contact 
details, including address, telephone/fax, and e-mail numbers to ensure 
that we are able to keep you informed of the situation.
    We sincerely hope that we do not see an escalation in the killing 
of elephants for their ivory and that the guidelines which have been 
put into place by the CITES secretariat to monitor the trade are 
adequate. However, if it appears that there is a problem, then through 
this monitoring system we will be in a position to inform the parties 
to the Convention of any infringements of the Resolutions.
    I look forward to working with you and feel sure that through our 
combined efforts we will continue to protect elephants throughout the 
world.
            With best wishes,
                                               Steve Trent,
                                                 Head of Campaigns.
                               __________

         Statement of the American Zoo and Aquarium Association

    Dear Mr. Chairman and members of the committee: The American Zoo 
and Aquarium Association (AZA) appreciates the opportunity to submit 
these comments in strong support of S. 627, establishing the Asian 
Elephant Conservation Act (AsECA), and S. 1287, reauthorizing the 
African Elephant Conservation Act (AECA) through the year 2002.
    The AZA represents virtually every professionally operated 
zoological park, aquarium, oceanarium, and wild animal park in North 
America, as well as 6500 individual members. More than 120 million 
people visit AZA's 182 zoos and aquariums each year, more than attend 
all professional baseball, basketball, football, and hockey games 
combined.
    The AZA would like to especially thank Senator Jeffords for his 
strong commitment to these two magnificent species, Chairman Chafee for 
cosponsoring S. 627, and the committee's commitment to moving this 
critical legislation to the Senate floor. The AZA is confident the 
committee will follow the lead of the House of Representatives and 
approve this legislation quickly and send it to the full Senate for 
approval.

S. 627--Reauthorization of the African Elephant Conservation Act

    In the view of AZA, the African Elephant Conservation Act (AECA) 
and its subsequent Conservation Fund, is extremely important because it 
is the only continuous source of money to assist African countries in 
their conservation efforts to manage this important species. The AECA 
money has been used to finance over 50 conservation projects in 
seventeen range states throughout Africa, providing over $5 million in 
programmatic funding and over $8 million in matching funds. The funds 
have allowed for enhanced habitat protection--anti-poaching equipment, 
and the management of these magnificent creatures. The AECA deserves 
continued strong support from the committee and Congress because it is 
a good example of an effective public-private partnership. In fact, AZA 
has urged the Administration to at least double its request of $1 
million in both fiscal years 1998 and 1999.
    In 1979, the African elephant population stood at 1.3 million--only 
to see its numbers drop dramatically to approximately 700,000 in 1988 
largely due to the worldwide demand for ivory. Today, there are between 
250,000-500,000 elephants in seventeen range states throughout Africa. 
Congress passed the AECA in 1988 to address the growing concerns for 
the welfare of elephant populations in Africa, and the ivory trade--a 
direct threat to the survival of many elephant populations. Following 
the enactment of the law in 1989, the United States imposed a ban on 
the importation to the United States of African ivory. At that time, 
the United States consumed 30 percent of all ivory traded in the world. 
At the height of the ivory trade, approximately 800 toner was being 
exported from Africa each year, translating to about 80,000 elephant 
deaths.
    By taking the lead to protect the African elephant, both at home 
and abroad, the United States, (and those nations that followed our 
lead), have given certain African elephant populations the time--and 
protection--needed to rebound to sustainable population levels. The 
AECA has proven itself effective. The Act helps to protect the species 
from uncontrolled slaughter, conservation efforts that have made a 
difference.
    While the AZA has not been a recipient of AECA funds, our members 
continue to work with 136 of these magnificent creatures to educate our 
visitors on the elephant's intelligence, complex social and family 
structure, and their importance to their ecosystem. Our role and that 
of our institutions is to educate our visitors. We hope you agree that 
your role is to guarantee that financial support will be available for 
other countries and organizations to protect the elephants in the wild 
for generations to come.

S. 1287--Establishment of the Asian Elephant Conservation Act

    In 1988, this committee and its counterpart in the House of 
Representatives recognized the serious threat the African elephant 
faced from poaching and loss of habitat by strongly supporting the 
African Elephant Conservation Act (AECA). While the Act's imposition of 
a ban on the importation to the United States of African ivory was 
important, the establishment of the Conservation Fund has made the Act 
critical to the survival of the species.
    Regrettably, the Asian elephant is now in need of similar help. It 
faces serious threats--not just from ivory poaching, but from a greater 
threat, the loss of habitat due to a rapidly expanding human population 
throughout its range.
    By creating the Asian Elephant Conservation Act (AsECA) and its 
subsequent Fund, the United States will have the opportunity to once 
again demonstrate its leadership and commitment to wildlife 
conservation. The Asian elephant is flagship species for the tropical 
forests of Asia; securing its long-term viability will in turn assist 
in the conservation of tigers, rhinoceros, Asiatic wild dog, gaur, 
green peafowl, kouprey, pheasants, clouded leopards, Malayan sunbears, 
lion-tailed macaques, and gibbons.
    Unlike the African elephant, whose populations range between 
250,000 to 500,000 animals, the Asian elephant population only numbers 
between 35,000 to 45,000 animals. Furthermore, the population is highly 
fragmented throughout thirteen countries; only in four areas does the 
population consist of more than 1,000 animals. Its range once stretched 
widely from Iraq through the Indian subcontinent to China. Today, it 
can no longer be found in West Asia.
    Ironically, for over 4,000 years, this species has enjoyed a unique 
relationship with humankind in Asia. Elephants serve as an element in 
certain religious ceremonies, and function in the region's forestry 
operations. However, because of the serious need to feed the 
continent's expanding population, people are no longer tolerating 
incidents of crop-raiding. Resolving the growing friction between 
humans and elephants will require flexibility and long-term 
commitment--two tools offered by the Act.
    The goals of the Act and its subsequent fund would do the 
following: (1) protection of the remaining elephant populations and 
their habitat; (2) establishment and management of specially protected 
areas; (3) reduction of captures in the wild, most notably in Myanmar 
(Burma); and (4) promotion of effective community enforcement programs.
    S. 1287 would focus on remedies that address human/elephant 
conflict resolution. That is a difference from the focus of the AECA 
which focuses on trade-related aspects of conservation. The Act would 
give support to projects that accomplish one or more of the following: 
(1) directly promote wild elephant management practices; (2) monitor 
population trends; (3) assess annual ranging patterns of known 
populations; (4) enforce CITES; (5) encourage law enforcement through 
community participation; (6) translocate elephants; and (7) conduct 
community outreach and education.
    Today, AZA institutions exhibit 155 Asian elephants. Asian and 
African elephants are magnificent animals that are difficult to 
exhibit, manage, and breed. They have complex social structures--at 
times rivaling those of humankind--and are extremely intelligent.
    As important as it is for our institutions to conduct research on 
and educate our visitors about the life patterns of the Asian elephant, 
it is as equally important that resources be made available to protect 
the wild Asian elephant populations in its habitat.
    In summary, AZA strongly believes S. 1287 should receive the full 
support of the committee for the following reasons:
    <bullet>  LIt will provide competitive financing where it is needed 
most -in the wild to support protection, conservation, and management 
of threatened Asian elephants;
    <bullet>  LIt is focused and cost-effective, yet flexible enough to 
address immediate needs for conservation;
    <bullet>  LIt will encourage donations from private resources--a 
fine example of a public-private partnership; and
    <bullet>  LFunding requests will be based on sound science.
    Thank you for your consideration of our comments.

                                    

      
</pre></body></html>
